   FISCAL YEAR 2008

AGENCY FINANCIAL REPORT





    Department of Defense

        November 17, 2008
Department of Defense Agency Financial Report 2008 


                                                        Table of Contents

Message From The Deputy Secretary Of Defense ...............................................................iii


Overview ...................................................................................................................................1


                 Year In Review ........................................................................................................1


Section 1: Management’s Discussion and Analysis ............................................................3


                 Mission and Organizational Structure .....................................................................3 

                 Analysis of Financial Statements ............................................................................6 

                 Performance Objectives, Goals, and Results........................................................11 

                 Analysis of Systems, Controls, and Legal Compliance .........................................16 

                 Annual Assurance Statement................................................................................17 

                 Other Management Information, Initiatives, and Issues ........................................18 


Section 2: Financial Information ..........................................................................................20


                 Message From The Acting Chief Financial Officer ................................................20 

                 Independent Auditor’s Report................................................................................21 

                 Principal Financial Statements and Notes.............................................................33 

                 Required Supplementary Stewardship Information...............................................96 

                 Required Supplementary Information....................................................................98 


Section 3: Other Accompanying Information....................................................................105


                 Inspector General’s Summary of Management and Performance Challenges, 

                 and Management’s Response to Inspector General’s Challenges .....................105 

                 Summary of Management Assurances and Financial Statement Audit ..............127 

                 Improper Payments Information Act Reporting ...................................................133 


Appendixes...........................................................................................................................138


                 Glossary of Terms ...............................................................................................138 

                 Useful Web Sites for Relevant Information .........................................................140 





                                                                                                                      Table of Contents
                                                                       i
Department of Defense Agency Financial Report 2008 


                                                   List of Figures

Figure 1-1.    Department of Defense Organizational Structure ...............................................3 

Figure 1-2.    Geographic Combatant Commands....................................................................5 

Figure 1-3.    Staffing for FY 2008 ............................................................................................6 

Figure 1-4.    Projected Audit Opinions.....................................................................................6 

Figure 1-5.    FY 2008 Appropriations Received ......................................................................7 

Figure 1-6.    FY 2008 Obligations Incurred .............................................................................7 

Figure 1-7.    Net Cost of Operations........................................................................................7 

Figure 1-8.    Total Assets and Total Liabilities.........................................................................8 

Figure 1-9.    Unfunded Liabilities.............................................................................................9 

Figure 1-10.   Three Pronged Strategy For Transformation ......................................................9 

Figure 1-11.   Department of Defense Performance Budget Hierarchy...................................11 

Figure 1-12.   2006 QDR Strategic Goals................................................................................11 

Figure 2-1.    Four Principal Financial Statements .................................................................33 

Figure 3-1.    Reducing Internal Management Control Weaknesses....................................131 

Figure 3-2.    FY 2008 Estimated Improper Payments .........................................................133 

Figure 3-3.    Improper Payment (IP) Reduction Outlook .....................................................135 

Figure 3-4.    Recovery Audit Activity ...................................................................................136 




                                                   List of Tables

Table 1a.      Summary of Management Assurances ...........................................................128 

Table 1b.      Summary of Management Assurances ...........................................................130 

Table 1c.      Summary of Management Assurances ...........................................................131 

Table 2.       Summary of Financial Statement Audit...........................................................132 

Table 3.       Compliance with Federal Financial Management Improvement Act ...............132 





                                                                                                           Table of Contents
                                                              ii
Department of Defense Agency Financial Report 2008

MESSAGE FROM THE DEPUTY SECRETARY OF DEFENSE 





                                               Message from the Deputy Secretary of Defense
                                         iii
Department of Defense Agency Financial Report 2008

Overview                                               goals and objectives to the strategic plans
                                                       and performance goals. The CBJ includes the
The Department of Defense (DoD) Fiscal                 APR and APP with detailed descriptions of
Year (FY) 2008 Agency Financial Report                 the Department’s activities and proposals at
(AFR) provides the President, Congress,                the program, project, and activity level.
other federal departments and agencies, and
the American public an overview of the                 These reports and information on related
Department’s financial condition. This report          topics are available on the DoD Comptroller
compares to the private sector’s annual report         Web site. (See Appendix B.)
to stockholders.
                                                       Year In Review
The Department is producing the AFR as an
alternative to the consolidated Performance            Since September 11, 2001, the primary
and Accountability Report (PAR) under the              mission of the Department of Defense and
Office of Management and Budget (OMB)                  America’s Armed Forces has been to confront
Pilot Program for Alternative Approaches to            and defeat the threat posed by radical Islamic
Performance and Accountability Reporting.              fundamentalism to the Nation and the world,
This approach is intended to improve                   and to work with our allies and partners to
performance reporting by presenting it in a            prevail in the ongoing struggle against global
more accessible and informative format, and            terrorism.
provide     more    complete       performance         In Iraq, the buildup of U.S. forces known as
information given the additional time to collect       the “Surge” and the leadership of U.S. Army
actual year-end performance data.                      General David Petraeus have contributed to
The pilot consists       of   three    required        increased success over coalition enemies.
components:                                            Overall, violence was significantly reduced;
                                                       13 of Iraq’s 18 provinces, including Anbar
Agency Financial Report: The AFR consists
                                                       province, were turned over to Iraqi control,
of the Deputy Secretary of Defense Message,
                                                       and incremental but significant political
Management’s Discussion and Analysis,
                                                       progress has been achieved.
Financial Statements and Notes, the Audit
Report, Major Management Challenges, and               As a result of this success, and Iraq’s
Other Accompanying Information.                        increased capacity to provide for its own
                                                       security, the five Army brigade combat teams,
Annual Performance Report: The FY 2008
                                                       two Marine battalions, and one Marine
Annual Performance Report (APR) will be
                                                       expeditionary unit sent to Iraq as part of the
available     by     the     due date     of
                                                       Surge, have already returned to the United
January 15, 2009. The APR is required by the
                                                       States. A Marine battalion stationed in Anbar
Government Performance and Results Act
(GPRA) and contains details of the
Department’s performance and progress in
achieving its strategic goals.
Citizen’s Report: The Citizen’s Report will be
available by the due date of January 15, 2009.
The Citizen’s Report is a 25 page summary of
the Department’s mission, key goals, budget
allocation, and progress on key performance
goals linking to the strategic goals.
Additionally,  the   FY     2010      Annual
Performance Plan (APP) will be included with           U.S. Marines from Foxtrot Company, 2nd Battalion,
our Congressional Budget Justification (CBJ).          7th Marine Regiment communicate with their command
                                                       operation center during a raid on a Taliban             DoD photo by
GPRA requires an APP that links the general            headquarters in Afghanistan.       Sgt. Freddy G. Cantu – August 2008



                                                                                                               Overview
                                                   1
Department of Defense Agency Financial Report 2008
province will return in November, and from            The Sections of the AFR
September 2008 through January 2009,
                                                      The Department of Defense Agency Financial
another 3,400 noncombat forces—including
                                                      Report 2008 covers the 12-month period
aviation personnel, explosive ordnance
                                                      ending September 30, 2008, in the following
teams, combat and construction engineers,
                                                      sections:
military police, and logistics support teams—
will be withdrawn. By February 2009, another          Management’s Discussion and Analysis:
8,000 U.S. forces will return from Iraq without       Includes executive-level information on the
being replaced.                                       Department’s mission, organization, key
                                                      strategic goals and objectives, analysis of
In addition, many of Iraq’s neighbors,
                                                      financial statements, systems, controls, legal
including Bahrain, Jordan, Kuwait, and the
                                                      compliance, and other challenges facing DoD.
United Arab Emirates, have shown an
increasing willingness to engage with and             Financial Information: Includes a Message
help stabilize Iraq.                                  from the Chief Financial Officer, the DoD
                                                      Inspector General Auditor’s Report and
In Afghanistan, U.S. and Coalition forces
                                                      opinion, the Department’s principal financial
continued to work to counter a revived
                                                      statements      and      notes,     required
extremist insurgency. U.S. forces in
                                                      supplementary stewardship information, and
Afghanistan increased from fewer than
                                                      required supplementary information.
21,000 two years ago to nearly 31,000 in
2008. Coalition forces also increased from            Other Accompanying Information: Includes
about 20,000 to 31,000. Meanwhile, in                 the Inspector General’s Summary of
addition to some 75,000 Afghan National               Management and Performance Challenges
Police, the Afghan National Army is now more          and Management’s Responses, Summary of
than 65,000 strong and still growing.                 the   Financial   Statement     Audit    and
                                                      Management Assurances, and Improper
In 2008, the international community also
                                                      Payment Information Act Reporting Details.
increased resources devoted to non-military
efforts, pledging more than $20 billion in            Appendixes include a glossary and a list of
assistance to Afghanistan at the Paris                Internet links for more detailed information
Donors’ Conference in June.                           about topics discussed in this report.
While the situations in Iraq and Afghanistan
are still fragile, the forces of freedom made
great strides over the forces of fear in 2008.
As always, the Department is cognizant of the           We welcome your 

                                                        feedback regarding the 

responsibilities inherent in managing nearly            content of this report.
18 percent of the Federal budget and over               To comment or to request 

3 percent of the gross domestic product, and            copies of the report, please e-mail
                                                        us at DoDAFR@osd.mil,
even more so of the precious resources                  or write to:

loaned to us by a caring Nation—including the
                                                        U.S. Department of Defense

nearly 3 million active duty, guard, and                Office of the Under Secretary of Defense (OUSD)

reserve members of the U.S. Armed Forces,               (Comptroller)

and the civilian workforce. With the support of         1100 Defense Pentagon

                                                        Washington, DC 20301-1100

Congress and, most importantly, the
                                                        This document also is available at:
American people, DoD will continue to
                                                        http://www.defenselink.mil/comptroller/afr
accomplish its mission in the years to come.                                                               453-14




                                                                                                     Overview
                                                  2
Department of Defense Agency Financial Report 2008

Section 1: Management’s                                                          Organization
Discussion and Analysis                                                          The Department of Defense is America’s
                                                                                 oldest, largest, most complex, and most
MISSION AND ORGANIZATIONAL                                                       successful organization. Since the creation of
STRUCTURE                                                                        America’s first army in 1775, DoD has evolved
                                                                                 to become a global presence of nearly
Mission                                                                          3 million individuals, in more than 146
The mission of the United States Armed                                           countries, and dedicated to defending the
Forces is to:                                                                    United States by deterring and defeating
                                                                                 aggression and coercion in critical regions.
•	      Defend the United States.                                                The DoD works for America’s Chief Executive
•	      Deter aggression and coercion in critical                                Officer, the President; the Board of Directors,
        regions.                                                                 Congress; and the Nation’s shareholders, the
•	      Swiftly defeat aggression in overlapping                                 American people. As do all successful
        major conflicts while preserving for the                                 organizations, DoD embraces the core values
        President the option to call for a decisive                              of leadership, professionalism, and technical
        victory in one of those conflicts, including                             knowledge. Its employees are dedicated to
        the possibility of regime change or                                      duty, integrity, ethics, honor, courage, and
        occupation.                                                              loyalty.
•	      Conduct a limited number of smaller-scale                                Figure 1-1 shows how the Department is
        contingency operations.                                                  structured.


Figure 1-1. Department of Defense Organizational Structure

                                                              Secretary
                                                              Secretary of
                                                                        of Defense
                                                                           Defense
                                                           Deputy
                                                           Deputy Secretary
                                                                  Secretary of
                                                                            of Defense
                                                                               Defense


                                                                                            Office
                                                                                            Officeofofthe
                                                                                                       the
       Department
       Department                   Department
                                    Department                        Department
                                                                       Department                                              Joint
                                                                                                                               JointChiefs
                                                                                                                                     Chiefs
                                                                                            Secretary
                                                                                            Secretaryof of
       of
       ofthe
          the Army
              Army                  of
                                    ofthe
                                       theNavy
                                          Navy                      of
                                                                    ofthe
                                                                       the Air
                                                                           Air Force
                                                                               Force                          Inspector          of
                                                                                                                                  ofStaff
                                                                                                                                     Staff
                                                                                              Defense
                                                                                               Defense         Inspector
     Secretary                       Secretary                  Secretary                                      General
                                                                                                                General
      Secretary                      Secretary                    Secretary                     Under
                                                                                                Under                         Chairman
                                                                                                                               Chairman JCS  JCS
   of
    ofthe
        the Army
            Army                    of
                                    ofthe
                                       theNavy
                                          Navy              of
                                                            ofthethe Air
                                                                     Air Force
                                                                         Force              Secretaries,                      The
                                                                                             Secretaries,                     TheJoint
                                                                                                                                    JointStaff
                                                                                                                                             Staff
                                                                                             Assistant
                                                                                              Assistant
  Under                      Under                           Under                          Secretaries                     • Vice Chairman JCS
 Secretary                  Secretary                      Secretary                         Secretaries
              Chief                      Chief Commandant                 Chief              of
                                                                                             ofDefense
                                                                                                 Defense                    • Chief of Staff Army
   and                        and                             and                                                           • Chief of Naval
               of                         of       of                       of            and
                                                                                          andEquivalents
                                                                                                Equivalents
 Assistant                  Assistant                      Assistant                                                          Operations
              Staff                      Naval    Marine                  Staff
Secretaries                Secretaries                    Secretaries                                                       • Chief of Staff
              Army                     Operations Corps                 Air Force
  of the                     of the                          of the                                                           Air Force
  Army                        Navy                         Air Force
                                                                                                                            • Commandant of the
                                                                                                                              Marine Corps
                Army
                 Army                    Navy
                                          Navy      Marine
                                                    MarineCorps
                                                            Corps            Air
                                                                              AirForce
                                                                                  Force       Defense
                                                                                               Defense
                Major
                 Major                   Major
                                          Major         Major
                                                         Major                 Major
                                                                                Major         Agencies          Combatant
             Commands                 Commands       Commands               Commands          Agencies          CombatantCommanders
                                                                                                                                Commanders
              Commands                 Commands       Commands               Commands
             &&Agencies
                Agencies              &&Agencies
                                         Agencies    &&Agencies
                                                        Agencies            &&Agencies
                                                                               Agencies                         ••Africa Command
                                                                                                                   Africa Command
                                                                                              DoD
                                                                                              DoDField          ••Central
                                                                                                    Field          CentralCommand
                                                                                                                           Command
                                                                                              Activities        ••European
                                                                                               Activities          EuropeanCommand
                                                                                                                              Command
                                                                                                                ••Joint
                                                                                                                   JointForces
                                                                                                                         ForcesCommand
                                                                                                                                Command
                                                                                                                ••Northern
                                                                                                                   NorthernCommand
                                                                                                                             Command
                                                                                                                ••Pacific
                                                                                                                   PacificCommand
                                                                                                                           Command
                                                                                                                ••Southern
                                                                                                                   SouthernCommand
                                                                                                                             Command
                                                                                                                ••Special
                                                                                                                   SpecialOperations
                                                                                                                           OperationsCommand
                                                                                                                                     Command
                                                                                                                ••Strategic Command
                                                                                                                   Strategic Command
                                                                                                                ••Transportation
                                                                                                                   TransportationCommand
                                                                                                                                 Command
     453-2




Section 1	                                                                                  Management’s Discussion and Analysis
                                                                             3
Department of Defense Agency Financial Report 2008
The Secretary of Defense and the Office of                                                  U.S. service
the Secretary                                                                               members
                                                                                            exit a C-130
The Secretary of Defense and the Office of the                                              Hercules
                                                                                            aircraft at Ali
Secretary of Defense are responsible for the                                                Air Base in
formulation and oversight of defense strategy                                               Iraq. The
                                                                                            aircraft
and policy. The Office of the Secretary of                                                  transports
Defense supports the Secretary in policy                                                    personnel
development, planning, resource management,                                                 and cargo
                                                                                            throughout
and fiscal and program evaluation.                                                          the theater.

Military Departments
The Military Departments consist of the Army,
Navy (of which the Marine Corps is a
component), and the Air Force. In wartime,
the U.S. Coast Guard becomes a special                                                      U.S. Air Force photo
                                                                                                    by Tech. Sgt.
component of the Navy. Otherwise, it is a                                                    Sabrina Johnson –
bureau of the Department of Homeland                                                                    May 2008

Security. The Military Departments organize,
staff, train, equip, and sustain America’s
military forces. When the President and                 Chairman of the Joint Chiefs of Staff
Secretary of Defense determine that military            The Chairman of the Joint Chiefs of Staff is
action is required, these trained and ready             the principal military advisor to the President,
forces are assigned to a Combatant                      the National Security Council, and the
Command responsible for conducting the                  Secretary of Defense. The Chairman assists
military operations.
                                                        the President and the Secretary in providing
The Military Departments include Active Duty,           for the strategic direction of the Armed
Reserve, and National Guard forces. Active              Forces, including operations conducted by the
Duty forces are full-time duty military service         Commanders of the Combatant Commands.
members. The Reserves, when ordered to                  As part of this responsibility, the Chairman
active duty by Congress, support the active             also assists in the preparation of strategic
forces. They are an extension of the active             plans and helps to ensure that plans conform
duty personnel and perform similarly when               to available resource levels projected by the
called into service. The Reserves are also              Secretary of Defense.
relied    upon    to   conduct       counter-drug
operations, provide disaster aid, and perform           Combatant Commands
other peacekeeping missions. The National               The     10    Combatant   Commands   are
Guard has a unique dual mission, with both              responsible for conducting DoD missions
federal and state responsibilities. In peacetime,       around the world (Figure 1-2). The Army,
the Guard is commanded by the Governor of               Navy, Air Force, and Marine Corps supply
each respective state or territory, who can call        forces to these Commands.
the Guard into action during local or statewide
emergencies, such as storms, drought, or civil          The 10th Combatant Command, U.S. Africa
disturbances. When ordered to active duty for           Command (USAFRICOM), officially established
mobilization or called into federal service for         in October 2008, assumed responsibility from
emergencies, units of the Guard are under the           three existing Combatant Commands to cover
control of the appropriate DoD Military                 all of Africa, with the exception of Egypt. The
Department. The Guard and Reserve are                   focuses of USAFRICOM’s missions are
recognized as indispensable and integral parts          diplomatic, economic, and humanitarian aid,
of the Nation's defense from the earliest days          aimed at prevention of conflict, rather than at
of a conflict.                                          military intervention.

Section 1                                                      Management’s Discussion and Analysis
                                                    4
Department of Defense Agency Financial Report 2008

Figure 1-2. Geographic Combatant Commands


       USNORTHCOM

                                              USEUCOM




      USPACOM                                                                                   USPACOM

                                                               USCENTCOM


                                                    USAFRICOM
                                 USSOUTHCOM
                                                                                                                               453-3



Six of these Commands have specific mission             •	   U.S. Strategic Command is responsible
objectives for their geographic areas of                     for providing global deterrence capabilities
responsibility:                                              and synchronizing DoD efforts to combat
                                                             weapons of mass destruction worldwide.
•	   U.S. European Command (USEUCOM) is
     responsible for activities in Europe,              •	   U.S. Special Operations Command is
     Greenland, and Russia.                                  responsible     for   leading,       planning,
                                                             synchronizing and, as directed, executing
•	   U.S. Central Command (USCENTCOM) is
                                                             global operations against terrorist networks.
     responsible for the Middle East, several of
     the former Soviet republics, and Egypt.            •	   U.S.    Transportation    Command       is
     This Command is primarily responsible for               responsible for moving military equipment,
     conducting Operation Enduring Freedom in                supplies, and personnel around the world
     Afghanistan and Operation Iraqi Freedom.                in support of operations.
•	   U.S. Pacific Command (USPACOM) is                  •	   U.S.      Joint    Forces  Command      is
     responsible for Northeast, South, and                   responsible for developing future concepts
     Southeast Asia, as well as Oceania.                     for joint warfighting.
•	   U.S. Southern Command (USSOUTHCOM)
     is responsible for Central and South               Elementary school children in Damerdjog, pose for
     America, and the Caribbean.                        U.S. Marines with the 8th Provisional Security Company
                                                        deployed to Camp Lemonier, Djibouti, conduct a civil
•	   U.S. Northern Command (USNORTHCOM)                 affairs visit to their school.
                                                                      U.S. Air Force photo by Staff Sgt. Samuel Rogers – September 2008
     is responsible for North America, including
     Canada and Mexico.
•	   U.S. Africa Command (USAFRICOM) is
     responsible for all of Africa, with the
     exception of Egypt.
Four Commands have worldwide mission
responsibilities, each focused on a particular
function:

Section 1	                                                      Management’s Discussion and Analysis
                                                   5

Department of Defense Agency Financial Report 2008
Defense Agencies              and       Defense   Field        ANALYSIS OF FINANCIAL
Activities                                                     STATEMENTS
Defense Agencies and DoD Field Activities                      Financial Analysis
provide support services commonly used                         The Department’s financial statements are
throughout the Department. For example, the                    presented in Section 2: Financial Information.
Defense Finance and Accounting Service                         Preparing these statements is part of the
provides accounting services, contractor and                   Department’s goal to improve financial
vendor payments, and payroll services; and                     management and provide information to
the Defense Logistics Agency provides                          assess performance and allocate resources.
logistics support and supplies to all DoD                      The Department’s management is responsible
activities.                                                    for the integrity of the financial information
Resources                                                      presented in these financial statements.
Nearly half of the Department’s workforce                      The financial statements have been prepared
comprises men and women on active duty. To                     to report the financial position and results of
provide Americans with the highest level of                    operations. These statements were prepared
national security, the Department employs                      from the books and records of the
1,401,757 men and women on active duty,                        Department in accordance with U.S. generally
and 838,278 in the Reserve and National                        accepted accounting principles (USGAAP) to
Guard, and 754,876 civilians (Figure 1-3).                     the extent possible, the Office of Management
                                                               and Budget (OMB) Circular No. A-136,
The Department’s worldwide infrastructure                      “Financial Reporting Requirements,” and the
includes nearly 545,000 facilities (buildings,                 “DoD Financial Management Regulation.”
structures, and utilities) located at more than
5,400 sites around the world, on more than 29                  For FY 2008, 5 of the 33 reporting entities are
million acres. To protect the security of the                  projected to receive unqualified audit opinions.
United States, the Department uses                             Additionally, Medicare-Eligible Retiree Health
approximately 11,532 aircraft, and 639 ships.                  Care Fund and U.S. Army Corps of Engineers
                                                               are projected to receive a qualified opinion in
                                                               FY 2008. The Components are listed in
Figure 1-3. Staffing for FY 2008                               Figure 1-4. At the Departmentwide level,
                                                               favorable reviews were received for the fourth
                                                               consecutive year on three financial statement
                              Reserve                          line items in FY 2008: (1) Investments, (2)
          Civilian            370,248                          Federal Employees’ Compensation Act
                               12%         Active Duty
          754,876
                                            1,401,757
                                                               Liabilities, and (3) Appropriations Received.
           25%
                                               47%
                                                               Budgetary Resources. The Statement of
                                                               Budgetary     Resources        presents    total
                                                               resources of $1.1 trillion that was available to
                                                               the Department during FY 2008 and the
                                                               Figure 1-4. Projected Audit Opinions
                                                                           DoD Reporting Entity     Audit Opinions
                                                                 Defense Commissary Agency            Unqualified
                                                                 Defense Contract Audit Agency        Unqualified
                       National
                        Guard                                    Defense Finance and
                                                                                                      Unqualified
                       468,030                                   Accounting Service
                         16%                                     Military Retirement Fund             Unqualified
                                                                 Office of the Inspector General      Unqualified
                                                                 Medicare-Eligible Retiree Health
                                                                                                       Qualified
   As of September 30, 2008                                      Care Fund
                                                                 U.S. Army Corps of Engineers        Qualified (1)
                                                   453-4        (1) Out-of-cycle audit opinion                      453-18




Section 1                                                                   Management’s Discussion and Analysis
                                                           6
Department of Defense Agency Financial Report 2008
status at the end of the period. It presents                                   Figure 1-6. FY 2008 Obligations Incurred
the relationship between budget authority
                                                                                                                          USACE                Military
and outlays, and reconciles obligations to                                      Discretionary
                                                                                                         Other                                Retirement
                                                                                  Funding                                Civil Work
total outlays.                                                                    $835,411              $91,972           $20,680              Benefits
                                                                                                                                               $53,435
                                                                                                                                        2%
The Department’s total resources primarily
                                                                                                                      9%                 5%
consist of carried forward budget authority of
$112.0 billion for unfilled commitments from                                                        84%
FY 2007 and received additional appropriations
of $736.4 billion in FY 2008 to support the
Global War on Terror (GWOT), train and
equip our warfighters, and ensure broad
national security priorities are met. Figure 1-5                                                                                   $ in Millions
                                                                                        Discretionary Funding
displays appropriations received by program.                                            Military Pay & Benefits                        145,550
Most ($1.0 trillion or 91%) of the total                                                Family Housing & Facilities                     19,859
                                                                                        Operations, Readiness & Support                427,001
budgetary resources for FY 2008 were spent                                              Strategic Modernization                        243,001
or reserved for specific purposes. The                                         453-18   Total                                          835,411
remaining resources relate to receipt of
multi-year appropriations and supplemental                                     Net Cost of Operations. The Statement of
funding that were received late in the fiscal                                  Net Cost presents the net cost of operations
year with insufficient time to fully obligate                                  which represents the difference between the
and outlay. The Department’s total FY 2008                                     costs incurred less earned revenue. This is
obligations incurred are in support of present                                 essentially equivalent to outlays displayed on
and future initiatives such as establishing the                                the Statement of Budgetary Resources less
Africa Command (AFRICOM), building                                             capitalized asset purchases plus accrued
partnership capacity with foreign partners,                                    liabilities and accounts payable. Differences
realigning the ballistic missile defense sites                                 between budgetary resources and net cost
in Europe, and strengthening cyberspace                                        generally arise from timing of cost recognition.
security. Obligations incurred presented in
Figure 1-6 are shown separate between                                          The majority of funding used to cover cost is
mandatory and discretionary funding.                                           received through congressional appropriations
                                                                               and reimbursement for the provision of goods
Figure 1-5. FY 2008 Appropriations                                             or services to other federal agencies. The
            Received                                                           Department’s net cost of operations during
               Operations,                   $ in Billions                     FY 2008 totaled $676.0 billion. This represents
  Military Pay Readiness & Civil Works    Strategic                            an increase of $74.6 billion, or 12 percent from
  & Benefits     Support   & Cemeterial Modernization
    $129.2        $143.4       $8.1        $175.5                              last year (Figure 1-7).
      18%          19%          1%          24%
                                                                               Figure 1-7. Net Cost of Operations
                                                                                 $ in Millions
                                                                                 720,000


                                                                                                                                               676,047
                                                                                 680,000


                                                                                                           634,880
                                                                                 640,000


        GWOT          Family Housing                  Military                   600,000

        186.8           & Facilities                 Retirement                                  605,365                                601,411
         25%               $20.2                      Benefits                                                       581,386   1
                            3%                         $73.1                     560,000

                                                        10%
                            $736.3B                                              520,000

 Amounts include DoD direct appropriations and funds              453-18
                                                                                                 2004       2005      2006         2007            2008
 appropriated for military retiree health and pension benefits.                 1   Security Assistance Program is not included                      453-18



Section 1                                                                                  Management’s Discussion and Analysis
                                                                           7
Department of Defense Agency Financial Report 2008
The Military Retirement Benefits accounted                         growth to cover unfunded portions of future
for the majority of the FY 2008 increase in                        military retirement and health benefits. Funds
cost. This increase is due largely to the                          not needed to pay current benefits are held in
growth in actuarial liabilities that resulted from                 separate trust and special funds and invested
a reduction in the interest rate assumption                        in U.S. Treasury securities.
that affects the value of investments available
                                                                   Military Equipment increased $34.0 billion
to pay benefits.
                                                                   reflecting the receipt of combat vehicles such
Also contributing to the increase in net cost are                  as Mine Resistant Ambush Protected (MRAP)
the operation and maintenance costs for base                       vehicles, tanks, personnel carriers, other
operations support related to troop readiness                      armored vehicles, and trucks, as well as ships
and increased requirements of GWOT.                                and F-22 and C-17 aircraft.
                                                                   In contrast, the Department has significant
Balance Sheet. The consolidated Balance
                                                                   unfunded liabilities consisting primarily of
Sheet presents a status of our financial
                                                                   actuarial liabilities related to military
condition as of September 30, 2008, and
                                                                   retirement pension and health care benefits.
displays assets, liabilities and the resulting
                                                                   While the liability presents the Department
net position. Figure 1-8 displays asset and
                                                                   with a negative financial position, the majority
liability trends with the difference depicting the
                                                                   of the unfunded portion will come from annual
Department’s net position.
                                                                   appropriations outside the Department’s
Assets of $1.7 trillion represent amounts that                     budget.        The FY 2008 actuarial liability
the Department owns and manages. Assets                            estimate totaled $2.0 trillion of which
increased $185.9 billion at the end of                             $1.3 trillion will come from the U.S. Treasury
FY 2008, or 13 percent. This increase is                           to cover liabilities existing at inception of the
largely attributable to increases in Fund                          programs. Approximately $378.9 billion is
Balance with Treasury (FBWT), Investments,                         currently covered with invested U.S. Treasury
and Military Equipment.                                            securities. Due to the significant growth in
The increase in Fund Balance with Treasury                         liability in recent years, the Board of Actuaries
was due to a $73.8 billion increase in                             accelerated the liquidation of the initial
appropriated funds primarily in support of the                     unfunded        liabilities  by   reducing    the
GWOT. The Department was given these                               amortization period thus increasing the
appropriations late in the fiscal year with                        annual contribution amounts from the U.S.
insufficient time to fully obligate and outlay.                    Treasury. Figure 1-9 identifies the unfunded
                                                                   portions of liabilities requiring future
The net increase in investments of                                 resources.
$60.8 billion is related to expected normal
                                                                   Limitations of the Financial Statements
Figure 1-8. Total Assets and Total Liabilities                     The principal financial statements have been
   $ in Millions                                                   prepared to report the financial position and
  2,500,000                                                        results of operations of the Department of
                                                                   Defense, pursuant to the requirements of
  2,000,000                                                        31 U.S.C. 3515(b). The statements are
                                                                   prepared from accounting records of the
  1,500,000
                                                                   Department in accordance with OMB Circular
  1,000,000                                                        No. A-136 and, to the extent possible, U.S.
                                                                   generally accepted accounting principles
    500,000                                                        (USGAAP). The statements, in addition to the
                                                                   financial reports, are used to monitor and
              0
                                                                   control budgetary resources, which are
                   2004   2005     2006      2007       2008
                                                                   prepared from the same records. The
 453-18
                          Assets          Liabilities              statements should be read with the realization

Section 1                                                                 Management’s Discussion and Analysis
                                                               8
Department of Defense Agency Financial Report 2008

Figure 1-9. Unfunded Liabilities

      Liabilities Covered by                                                                              $ in Millions
      Budgetary Resources
              $441,040                                     All Other Unfunded Liabilities $27,688 (2%)
                                                           Unfunded Environmental Liabilities $66,870 (4%)
         21%                                               DoD Unfunded Military Retirement and
                          79%                              Health Benefits $327,354 (19%)


                                                           Unfunded Military Retirement and Health
             Liabilities                                   Benefits funded by Treasury
          Not Covered by                                   $1,272,047 (75%)
        Budgetary Resources
            $1,693,959
                                                                                                                 453-18




that they are for a Component of the U.S.             transformation efforts (Figure 1-10). This
Government, a sovereign entity.                       approach has not changed, although the
                                                      framework upon which the Department
The Deputy Secretary of Defense has made
                                                      structures, plans, and monitors financial
financial management improvement and
                                                      management improvement efforts is today
business transformation a priority. He chairs
                                                      more complete. The FIAR Plan structures
the Defense Business Systems Management
                                                      improvement efforts into incremental and
Committee, chartered to oversee business
                                                      prioritized areas (such as the U.S. Marine
transformation, and requires Component
                                                      Corps). The OUSD(C) plays an active role in
heads to demonstrate specific involvement
                                                      overseeing, managing, and monitoring
and responsibility by signing their quarterly
                                                      Component improvement efforts through the
financial statements. The comprehensive
                                                      FIAR Plan.
Financial Improvement and Audit Readiness
Plan and the Business Transformation                  The Department has made significant
Agency’s Enterprise Transition Plan drive             progress in achieving the FIAR goals as
these improvements.                                   evidenced by:
Financial Improvement and Audit Readiness             •	     $1.4 trillion, or 37 percent of $3.8 trillion,
The Department initiated the Financial                       of the Department’s assets and liabilities
Improvement and Audit Readiness (FIAR)                       has received an unqualified audit opinion,
Plan in 2005 to set the course for improving
both financial information and audit readiness.       Figure 1-10. 	 Three Pronged Strategy
The FIAR Plan has three primary goals:                               For Transformation
•	 Improve decision making by providing
                                                           Structured                                 Modernization
   relevant, accurate, reliable, and timely                approach for                                      of DoD
   financial information.                                  measuring                                      business
•	 Sustain improvements through a process of               auditability                                and financial
                                                           progress                                        systems
                                                                               an g y




   annual assessments and internal control.
                                                                                         Tr
                                                                                          Ennsit
                                                                             Pl te
                                                                                 )


                                                                                           a
                                                                          R ra




•	 Achieve unqualified audit opinions on DoD
                                                                                            te ion
                                                                        IA St




                                                                                              rp P
                                                                                                 ris la
                                                                      (F dit




   annual financial statements.
                                                                                                    e n
                                                                      Au




The first FIAR Plan identified financial
management      improvement    priorities,
                                                                          Best Business Practices
established standard business rules for
financial management improvement efforts,
                                                                            Shape the FIAR strategy
and aligned itself with other business                                                                             453-16




Section 1	                                                        Management’s Discussion and Analysis
                                                  9
Department of Defense Agency Financial Report 2008
•	 The TRICARE Management Activity                      •	   Common supplier engagement
   Contract       Resource        Management            •	   Materiel visibility
   organization’s $247 billion (7 percent) in
   assets and liabilities have been validated           •	   Real property accountability
   as audit ready,                                      •	   Financial visibility
•	 Favorable audit opinions on five reporting           Enterprise Transition Plan
   entities’ FY 2008 financial statements,
                                                        The Enterprise Transition Plan is the
•	 Favorable reviews on three DoD financial             Department’s      comprehensive       plan    for
   statement line items, and                            implementing      the    business     enterprise
•	 Audit readiness at the Defense Information           architecture. The Department issues a new
   Systems Agency, whose FY 2007 financial              ETP each September and reports progress
   statements are presently under audit.                each March. The FY 2008 ETP, like the
                                                        preceding plans, contains milestones and
In addition, to the above achievements, the             measures for the programs and initiatives that
Navy, Air Force and Defense Logistics                   support achievement of the business
Agency have asserted audit readiness and                enterprise priorities. The ETP describes the
are sustaining it until their entire financial          Department’s system initiatives and status of
statements are ready for audit.                         Enterprise Resource Planning (ERP) and
Business Transformation Agency                          other system implementations throughout the
                                                        Army, Navy, Air Force, and Defense
The Department of Defense is fully engaged
                                                        Agencies. This year’s ETP also contains
in business transformation efforts to
                                                        performance measures for achieving the
modernize its processes, systems, and
                                                        business capabilities and their supporting
information flows to support 21st century
                                                        operational activities. This set of performance
national security requirements. To help guide
                                                        measures permits the opportunity to baseline
this undertaking, the Department established
                                                        performance       growth.     The     Enterprise
the Defense Business Transformation Agency
                                                        Transition Plan has become part of the
(BTA) and released its first Business
                                                        business operations culture of DoD, and is
Enterprise Architecture (BEA) and Enterprise
                                                        the framework that integrates capabilities
Transition Plan (ETP) in 2005. Over the past
                                                        across the Department.
3 years, the Department has made significant
progress, not only in the improvements to
business capabilities, but also in the
fundamental ways in which it thinks about
business operations and the methods to
achieve transformation.
Business Enterprise Architecture
The Business Enterprise Architecture (BEA)
guides Defense business transformation by
providing a common reference for target
systems and initiatives. The BEA blueprints
business       transformation    and    includes
activities, processes, data standards, business
rules, system functionality, and technical
standards. Six business enterprise priorities
define the scope and allow the BEA to evolve
in a controlled and consistent fashion:                  Members of Defense Logistics Agency's (DLA) Defense
                                                         Distribution Deployable Center prepare to load tarps into
•	   Personnel visibility                                trucks at FEMA's Hurricane Ike disaster relief staging
                                                         area on Fort Sam Houston, Texas.
•	   Acquisition visibility                                                         DoD photo by SPC Sean Harp – September 2008




Section 1	                                                      Management’s Discussion and Analysis
                                                   10
Department of Defense Agency Financial Report 2008

PERFORMANCE OBJECTIVES,                                   Figure 1-11. Department of Defense
GOALS, AND RESULTS                                                     Performance Budget Hierarchy
DoD Key Performance Outcomes
                                                           National
                                                           National      Mission
The President’s Management Agenda (PMA)                    Security      Drivers
                                                           Security
Budget and Performance Integration Initiative,             Strategy
                                                           Strategy
                                                                      National
                                                                      National
subsequently         renamed           Performance                    Defense
                                                                      Defense       Mission
Improvement Initiative (PII), is focused on re-                       Strategy
                                                                      Strategy
emphasizing and implementing all statutory                  National               Strategic
                                                            National
provisions of the Government Performance                    Military
                                                             Military
                                                                                    Goals
and Results Act (GPRA) of 1993. The PII calls               Strategy
                                                            Strategy               Strategic
for a Government that is results-oriented, and                                     Objectives
guided by performance, not process. Since
                                                                            OSD Enterprise-Level
the first quarter of FY 2003, the Department                                Performance Targets
has maintained a “yellow,” or satisfactory,
rating for overall status of this initiative.                               DoD Component-Level
                                                                             Performance Targets
DoD Performance Budget Hierarchy
                                                                               Program-Level
The Department’s performance budget                                         Performance Targets
hierarchy is depicted in Figure 1-11. This
                                                                 Individual Personnel Performance Targets
hierarchy indicates that every level of DoD is
accountable for measuring performance and                                                                       453-7
delivering results at multiple tiers of the
organization. The DoD investments in                      The QDR acknowledges that everything done
systems and other initiatives are aggregated              in the Department must contribute to joint
to support strategic objectives at the                    warfighting capability. Its purpose is to
enterprise-level.                                         provide the U.S. with strong, sound, and
The      DoD    strategic   objectives   and              effective warfighting capabilities.
performance      targets   (measures     and              The 2006 QDR was the first contemporary
milestones) are subject to annual refinement              defense review to coincide with an ongoing
based on changes in missions and priorities.              major conflict. Consequently, (Figure 1-12)
Such changes reflect the evolutionary nature              Strategic Goal 1 focuses on the ongoing
of DoD’s performance budget and the
Department’s ensuing efforts to link resource
allocation to identifiable and measurable                 Figure 1-12. 2006 QDR Strategic Goals
strategic outcomes.
                                                                            Fight the Long War
                                                             Goal
                                                             Goal 11
DoD Strategic Plan                                                          on Terror

The Quadrennial Defense Review (QDR)
                                                                             Reorient Capabilities
constitutes DoD’s strategic plan. On                         Goal
                                                             Goal 22         and Forces
February 3, 2006, the Department unveiled its
most recent QDR, charting the way ahead for
                                                                                                Reshape the
the next 20 years. The QDR report                                                  Goal
                                                                                   Goal 33      Defense Enterprise
                                                             Goals 3 & 4
acknowledges that the Department has been                  are Supporting
                                                                Goals
and is transforming along a continuum that                                                      Develop a 21st
shifts emphasis from the 20th century to the                                       Goal
                                                                                   Goal 44      Century Total Force
21st century. The 2006 QDR was founded on
the National Military Strategy, published in                                 Achieve Unity
                                                             Goal
                                                             Goal 55
May 2004, and the National Defense                                           of Effort
                                                                                                                453-8
Strategy, published in March 2005.

Section 1                                                        Management’s Discussion and Analysis
                                                     11
Department of Defense Agency Financial Report 2008
major conflict and extended stabilization                   17 supporting    strategic  objectives   and
campaigns in Iraq and Afghanistan. At the                   51 enterprise-level performance targets were
same time, the 2006 QDR recognized that the                 developed for FY 2008.
Department needed to recast its view of
future warfare through the lens of a long                   FY 2008 Key Performance Outcomes:
duration and globally-distributed conflict.                 The following tables show key, unclassified
Therefore, Strategic Goal 2 focuses on                      strategic   objectives  and     performance
reorienting the Armed Forces to deter and                   measures, and targeted results for FY 2008.
defend against transnational terrorists around              The tables are organized by QDR Strategic
the world. Strategic Goal 5 recognizes that                 Goal, and Strategic Objective. Performance
DoD cannot meet today’s complex challenges                  Measures are also provided for each strategic
alone. This goal recognizes integrated                      objective and are numbered respectively.
security      cooperation       and     strategic
communication as additional tool sets the                   The DoD expects to meet or exceed most of
Combatant Commanders may use to fight                       its key outcomes for FY 2008. Actual year-
wars. Together, these three goals encompass                 end results for these same key outcomes will
the Department’s warfighting missions.                      be addressed in the Department’s FY 2008
Strategic Goals 3 and 4 focus on developing                 Citizen’s Report.
a Total Force and reshaping the defense
                                                            Strategic Goal 1: Fight the Long War on
infrastructure, respectively, in ways that better
                                                            Terror
support the warfighter. These supporting goals
enable accomplishment of the Department’s                   Since 2001, the Department has been
primary goals, Strategic Goals 1, 2, and 5.                 engaged in developing the forces and
                                                            capabilities of Iraq and Afghanistan in fighting
FY 2008 Performance Plan                                    the long war on terror. Two key outcomes
The Department also established a task force                focused on training Iraqi and Afghan Security
and Senior Review Group (SRG) in January                    Forces and were identified as primary
2007 to develop a limited number of strategic               indicators for transitioning the security of
objectives and performance targets at the                   these two nations to the Iraqi and Afghan
joint- or enterprise-level. The task force and              governments. By the end of FY 2008, the
SRG included representatives from each OSD                  Department expects to have trained 529,000
Principal Staff, the Joint Staff, and the Military          Iraqi Security Forces (ISF) and 152,000
Departments. As a result of their efforts,                  Afghan National Security Forces (ANSF).


  STRATEGIC GOAL 1: FIGHT THE LONG WAR ON TERROR
 Strategic Objective 1.1:       Conduct a large-scale, potentially long-duration irregular warfare campaign
                                that includes counterinsurgency, security stability, transition, and
                                reconstruction operations.
                                                                       Annual Performance Targets/Results
                                      Strategic Plan Long-term
    Performance Measures                                               FY 2007      FY 2007        FY 2008
                                        Performance Targets
                                                                        Target      Results         Target
 1.1-1a: Cumulative number of      1.1-1a: By FY 2009, DoD will
 Iraqi Security Forces (ISF)       train 588,000 Iraqi Security        365,000      439,700        529,000
 trained.                          Forces (ISF).
 1.1-1b: Cumulative number of      1.1-1b: By FY 2009, DoD will
 Afghan National Security Forces   train 162,000 Afghan National       112,000      124,700        152,000
 (ANSF) trained.                   Security Forces (ANSF).




Section 1                                                          Management’s Discussion and Analysis
                                                       12
Department of Defense Agency Financial Report 2008
Strategic Goal 2: Reorient Capabilities and                    established to assist in mitigating attacks on
Forces                                                         the U.S. personnel, facilities, and key assets.
                                                               Two other outcomes focus on converting
Four key performance outcomes are most                         Army force structure to modular designs, as
reflective of the Department’s goal to reorient                primary indicators for the most significant
its capabilities and forces. Two outcomes                      transformation of the Army in a generation.
reflect new DoD capabilities that have been

 STRATEGIC GOAL 2: REORIENT CAPABILITIES AND FORCES
 Strategic Objective 2.1:         Deter or defeat direct attacks to the U.S. homeland and its territories and
                                  contribute toward the nation’s response to the management of Weapons of
                                  Mass Destruction (WMD) or catastrophic event; Improve ability to respond to
                                  Chemical, Biological, Radiological, Nuclear, and Explosive (CBRNE) attacks
                                  and improve the capability of interagency partners to contribute to our
                                  nation’s security.
                                                                         Annual Performance Targets/Results
                                      Strategic Plan Long-term
    Performance Measures                                                 FY 2007     FY 2007       FY 2008
                                        Performance Targets
                                                                          Target     Results        Target
 2.1-1: Number of National          2.1-1: By FY 2007, 55 National
 Guard Weapons of Mass              Guard Weapons of Mass
 Destruction –Civil Support         Destruction-Civil Support Teams        55           55            55
 Teams (WMD-CSTs) certified.        (WMD-CSTs) will be certified.

 2.1-2: Number of National          2.1-2: By FY 2008, 17 National
 Guard Chemical, Biological,        Guard Chemical, Biological,
 Radiological, Nuclear, and         Radiological, Nuclear, and High-
 High-Yield Explosive (CBRNE)       Yield Explosive (CBRNE)
                                                                           12           12            17
 Enhanced Response Force            Enhanced Response Force
 Packages (CERFPs) trained.         Packages (CERFPs) will be
                                    trained for WMD or other
                                    catastrophic responses.
 Strategic Objective 2.2:         Deter and defend against transnational terrorists attacks and globally
                                  distributed aggressors and shape the choices of countries at strategic
                                  crossroads, while postured for a second, nearly simultaneous campaign.
 2.2-4a: Number of Army             2.2-4a: By FY 2013, 76 modular
 Brigades Combat Teams              Army Brigade Combat Teams
 (BCTs) converted to a modular      (BCTs) will be available to meet       35           35            38
 design and available to meet       military operational demands.
 military operational demands.
 2.2-4b: Number of Army Multi-      2.2-4b: By FY 2013, 227
 functional and Functional          modular Army Multi-functional
 Support (MFF) brigades             and Functional Support (MFF)
                                                                          144          144           187
 converted to a modular design      brigades will be available to
 and available to meet military     meet military operational
 operational demands.               demands.




Section 1                                                              Management’s Discussion and Analysis
                                                          13
Department of Defense Agency Financial Report 2008
Strategic Goal 3: Reshape the Defense                           family housing units in the continental United
Enterprise                                                      States in order to improve the quality of life for
                                                                service members and their families. The third
Five key performance outcomes are identified                    and fourth outcomes demonstrate an increase
as    representative     samples     of    the                  in DoD’s financial audit readiness—a
Department’s reshaping goal. The first                          significant step in improving financial
outcome, average customer wait time, has                        stewardship to the American taxpayer. The
been used by the DoD logistics community to                     final performance outcome shows how the
improve joint warfighting support. The second                   Department‘s      inventory   of    information
key outcome under this goal reflects a                          technology systems are faring against
reduction in the number of inadequate military                  information assurance standards.


STRATEGIC GOAL 3: RESHAPE THE DEFENSE ENTERPRISE
Strategic Objective 3.3:          Implement improved logistics operations to support joint warfighting
                                  priorities.
                                                                           Annual Performance Targets/Results
                                       Strategic Plan Long-term
   Performance Measures                                                   FY 2007       FY 2007        FY 2008
                                         Performance Targets
                                                                           Target       Results         Target
3.3-1: Average customer wait         3.3-1: Beginning in FY 2007,
time.                                DoD will reduce average                 15            17             15
                                     customer wait time to 15 days.
Strategic Objective 3-4:          Maintain capable, efficient, and cost-effective installations to support the DoD
                                  workforce.
3.4-4a: Number of inadequate         3.4-4a: By FY 2009, DoD will
family housing units in CONUS.       eliminate all inadequate family
                                     housing in the continental              0           13,242         2,959
                                     United States (CONUS).

Strategic Objective 3.5:          Improve financial management and budget and performance integration to
                                  support strategic decisions and provide financial stewardship to the
                                  taxpayer.
3.5-1a: Percent of audit-ready       3.5-1a: By 2017, DoD will
assets.                              demonstrate that 100 percent of
                                                                            18%           15%            23%
                                     assets have achieved audit
                                     readiness.
3.5-1b: Percent of audit-ready       3.5-1b: By 2017, DoD will
liabilities.                         demonstrate that 100 percent of
                                                                            49%           50%            51%
                                     liabilities have achieved audit
                                     readiness.
Strategic Objective 3.6:          Make information available on a network that people depend on and trust.
3.6-2: Percent of applicable         3.6-2: By FY 2013, 95 percent
information technology (IT) and      of applicable information
National Security Systems            technology (IT) and National
                                                                          90% or >       87.1%         90% or >
(NSS) programs that are              Security Systems (NSS)
FISMA-compliant.                     programs in the IT Repository
                                     will be FISMA-compliant.




Section 1                                                              Management’s Discussion and Analysis
                                                           14
Department of Defense Agency Financial Report 2008
Strategic Goal 4: Develop a 21st Century                      outcome measures how well the Military
Total Force                                                   Health Service identifies significant medical
                                                              conditions that would affect the availability of
Four key performance outcomes are focused                     Service members to deploy. This goal’s final
on sustaining the capacity of the All-Volunteer               key outcome measures the Department’s
Force to prevail in the Global War on Terror.                 ability to support the Combatant Commanders
Two outcomes assess DoD active and                            across the full spectrum of operations by
reserve component end-strength at levels not                  providing combat units trained in joint
less than those prescribed by the Secretary of                warfighting doctrine.
Defense for mission accomplishment. A third

 STRATEGIC GOAL 4: DEVELOP A 21ST CENTURY TOTAL FORCE
 Strategic Objective 4.1:       Ensure an “All Volunteer” military force is available to meet the steady-state
                                and surge activities of the DoD.
                                                                        Annual Performance Targets/Results
                                    Strategic Plan Long-term
    Performance Measures                                                FY 2007       FY 2007         FY 2008
                                      Performance Targets
                                                                         Target       Results          Target
 4.1-1a: Percent variance in      4.1-1a: For each fiscal year, the       NLT                           NLT
 Active component end             DoD Active component end             authorized                    authorized/
                                                                                     +.9% above
 strength.                        strength must not be less than       /NTE +3%                       NTE +3%
                                                                                       SECDEF
                                  (NLT) and not to exceed (NTE)          above                         above
                                                                                      prescribed
                                  three percent above the               SECDEF                        SECDEF
                                                                                     end strength
                                  SECDEF prescribed end                prescribed                    prescribed
                                  strength for that fiscal year.      end strength                  end strength
 4.1-1b: Percent variance in      4.1-1b: For each fiscal year, the
 Reserve component end            DoD Reserve component end            +/-2% from    -1.7% below     +/-2% from
 strength.                        strength will not vary by more        SECDEF         SECDEF         SECDEF
                                  than two percent from the            prescribed     prescribed     prescribed
                                  SECDEF prescribed end               end strength   end strength   end strength
                                  strength for that fiscal year.
 4.1-2: Percent of deployable     4.1-2: By FY 2010, DoD will
 Armed Forces without any         sustain the percent of                >87% of        85% of
                                                                                                      >90% of
 deployment- limiting medical     deployable Armed Forces              deployable    deployable
                                                                                                     deployable
 condition.                       without any deployment-limiting        Armed         Armed
                                                                                                    Armed Forces
                                  medical condition to equal to or       Forces        Forces
                                  greater than 92 percent.
 Strategic Objective 4.4:       Improve workforce skills to meet mission requirements.
 4.4-2: Percent of deployed       4.4-2: By FY 2012, 80 percent
 combat units receiving joint     of deployed combat units will
                                                                                                      72% or
 training in Joint National       participate in joint training at       Not         70% of units
                                                                                                     greater of
 Training Center (JNTC) -         JNTC-accredited programs prior       available       trained
                                                                                                    units trained
 accredited programs prior to     to arriving in theater.
 arriving in theater.




Section 1                                                             Management’s Discussion and Analysis
                                                         15
Department of Defense Agency Financial Report 2008
Strategic Goal 5: Achieve Unity of Effort                  equipment, technology, and training. A single
                                                           key outcome provides for an increase in the
This goal focuses on building the capacity of              number of various technological and security
international partners in fighting the Global              reviews of goods and services proposed for
War on Terror by improving access to                       transfer to international partners.


 STRATEGIC GOAL 5: ACHIEVE UNITY OF EFFORT
 Strategic Objective 5.1:      Build capacity of international partners in fighting the war on terror.
                                                                      Annual Performance Targets/Results
                                   Strategic Plan Long-term
   Performance Measures                                              FY 2007        FY 2007         FY 2008
                                     Performance Targets
                                                                      Target        Results          Target
 5.1-1: Annual number of        5.1-1: Beginning in FY 2007,
 Technology Security Actions    DoD will increase the number of
 (TSAs) processed.              reviews of relevant technologies
                                                                     102,059        116,017          118,337
                                involving transfers to
                                international partners by
                                two percent per year.


ANALYSIS OF SYSTEMS, CONTROLS,                             Federal Managers’ Financial Integrity Act
AND LEGAL COMPLIANCE                                       The Federal Managers’ Financial Integrity Act
Management Assurances                                      (FMFIA) of 1982 requires agencies to establish
                                                           internal controls and financial systems that
The Department’s management is committed                   ensure the integrity and protection of federal
to addressing DoD weaknesses, as identified                programs and operations. In addition, FMFIA
in evaluations and assessments of its                      requires the head of each agency to provide
management        systems,    controls,   and              an annual assurance statement outlining what
processes. The DoD’s overall goal is to                    the agency has done to meet this requirement,
improve its operations by focusing on                      including details of remaining material
ensuring effective internal controls, systems              weaknesses.       OMB      Circular    A-123,
conformance with federal requirements, and                 “Management’s Responsibility for Internal
the ability to produce accurate, timely, and               Control” provides specific requirements to
reliable financial and performance data for                agencies for conducting management’s
reporting.                                                 assessments of internal controls. For FMFIA
                                                           reporting results, see Section 3: Other
                                                           Accompanying Information.




Section 1                                                          Management’s Discussion and Analysis
                                                      16
Department of Defense Agency Financial Report 2008

ANNUAL ASSURANCE STATEMENT 





SECTION 1                                        Management’s Discussion and Analysis
                                        17
Department of Defense Agency Financial Report 2008
Federal Financial Management Improvement
Act of 1996

The     Federal     Financial     Management
Improvement Act (FFMIA) requires certain
federal agencies, including DoD, to report on
conformance      with     Federal    Financial
Management System Requirements, Federal
Accounting Standards, and the U.S. Standard
General Ledger at the transaction level.
The Department’s Inspector General and the
audit agencies within the Military Services
have     reported   on     the   Department’s
noncompliance with the Act’s requirements.
The Department’s non-compliance is largely
due to the legacy financial management                Shiite pilgrims walk across Sarafiyah Bridge on their

systems in use by the Department’s                    way to the Kadhamiyah shrine in Baghdad, Iraq. The

Components. These systems, for the most               bridge was destroyed last year by insurgents and

                                                      reopened to traffic in early 2008

part, do not comply with the wide range of                               DoD photo by Staff Sgt. Lorie Jewell, U.S. Army – July 2008
requirements for systems compliance and,
therefore, do not provide the necessary               reporting requirements for agencies with
assurances to rely on information contained           programs that possess a significant risk of
either in the core financial system or in the         improper payments and for reporting on the
mixed     systems     that   provide   source         results of recovery auditing activities. For
transactional information. The Business               FY 2008 IPIA reporting results, see Section 3:
Enterprise Architecture is the Department’s           Other Accompanying Information.
blueprint providing the business rules and
controls for complying with the Act’s                 OTHER MANAGEMENT INFORMATION,
requirements. The Financial Improvement and           INITIATIVES, AND ISSUES
Audit Readiness Plan and the Enterprise               Looking Forward: Challenges for 2008 and
Transition Plan provide the approach and              Beyond
plan for reaching unqualified audit opinions
and FFMIA compliance.                                 The 2006 Quadrennial Defense Review
                                                      (QDR) provided new direction for accelerating
Improper    Payments      Information     Act         the transformation of the Department to focus
Reporting                                             more on the needs of Combatant
The Improper Payments Information Act                 Commanders and to better develop joint
(IPIA) of 2002, as implemented by OMB                 capabilities rather than individual, parallel
Circular A-123, Appendix C, “Requirements             programs. The QDR was designed to serve
for Effective Measurement and Remediation             as a catalyst to spur the Department’s
of Improper Payments,” requires federal               continuing adaptation and reorientation to a
agencies to review their programs and                 joint force that is more agile, more rapidly
activities, and identify those susceptible to         deployable, and more capable against the
significant improper payments. The National           wider range of threats.
Defense Authorization Act (PL 107-107)                The essence of capabilities-based planning is
established the requirement for government            to identify capabilities that adversaries could
agencies to carry out cost-effective programs         employ and capabilities that could be
for identifying and recovering overpayments           available to the United States, then evaluate
made to contractors, also known as “recovery          their interaction, rather than over-optimize the
auditing.” The OMB established specific               joint force for a limited set of threat scenarios.


SECTION 1                                                     Management’s Discussion and Analysis
                                                 18
Department of Defense Agency Financial Report 2008
The goal is to manage the Department                     current and planned surveillance capabilities
increasingly through the use of joint capability         and programs. This included a transparent
portfolios. Doing so should improve the                  review of capabilities at all levels of
Department’s ability to meet the needs of the            classification. Viewing capabilities across the
President and Combatant Commanders.                      entire portfolio of assets enabled decision-
                                                         makers to make informed choices about how
Moving toward a more “demand-driven”
                                                         to reallocate resources among previously
approach reduces program redundancy,
                                                         stovepiped programs, to deliver needed
improves       joint     interoperability,   and
                                                         capabilities to the joint force more rapidly and
streamlines      acquisition    and     budgeting
                                                         efficiently.
processes. The Department is continuing to
shift from stovepiped vertical programs to               The Department is building on these initial
more transparent and horizontally-integrated             efforts    to    integrate   tasks,   people,
programs. Just as the U.S. forces operate                relationships, technologies, and associated
jointly, DoD recognized that horizontal                  resources more effectively across the
integration must become an organizing                    Department’s many activities. By shifting the
principle for the Department’s investment and            focus from Service-specific programs to joint
enterprisewide functions. These reforms will             capabilities, the Department should be better
not occur overnight, and care must be taken              positioned to understand the implications of
not to weaken what works effectively during              investment and resource trade-offs among
the transition to a more cross-cutting                   competing priorities. As a first step, the
approach. However, the complex strategic                 Department will manage four capability areas
environment of the 21st century demands                  using a capability portfolio concept: Joint
greater integration of forces, organizations             Command and Control, Joint Net-Centric
and processes, and closer synchronization of             Operations, Joint Logistics, and Battlespace
actions.                                                 Awareness. As lessons are learned, the
                                                         Department will expand this approach to other
Aligning Authority and Accountability
                                                         capability areas.
through Joint Capability Portfolios
Most of the Department’s resources are                   Summary
provided through the Military Services. This
                                                         Reshaping the Defense enterprise is a difficult
arrangement can lead to both gaps and
                                                         task.    The structures     and   processes
redundancies within capability areas as each
                                                         developed over the past half-century were
Service attempts to supply a complete
                                                         forged during the Cold War and are
warfighting package rather than organize to
                                                         strengthened by success. However, the
depend on capabilities provided by other
                                                         strategic landscape of the 21st century
Military Departments. To optimize capabilities
                                                         demands excellence across a broader set of
for the joint warfighter, the Department is
                                                         national security challenges. With change
working to reorient its processes around joint
                                                         comes turmoil, and achieving a desired vision
capability portfolios. In the acquisition realm,
                                                         requires determination and perseverance
the Department has already instituted several
                                                         within the Department and, more importantly,
joint capability reviews. These reviews look
                                                         in cooperation with Congress. As the
across major force programs to assess
                                                         Department emphasizes agility, flexibility,
needed investments in specific capability
                                                         responsiveness, and effectiveness in the
portfolio areas, such as integrated air and
                                                         operational    forces,   the    Department’s
missile defense, land attack weapons and
                                                         organizations, processes, and practices must
electronic warfare.
                                                         change to embody these characteristics and
The QDR used such a portfolio approach to                maximize support to the joint warfighter and
evaluate surveillance capabilities. The                  the Commander in Chief.
Department began by accounting for all of its


SECTION 1                                                       Management’s Discussion and Analysis
                                                    19
Department of Defense Agency Financial Report 2008

Section 2: Financial Information
MESSAGE FROM THE ACTING CHIEF FINANCIAL OFFICER




SECTION 2                                            Financial Information
                                        20
Department of Defense Agency Financial Report 2008

INDEPENDENT AUDITOR’S REPORT 





SECTION 2                                            Financial Information
                                        21
Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        22 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        23 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        24 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        25 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        26 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        27 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        28 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        29 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        30 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        31 

Department of Defense Agency Financial Report 2008




SECTION 2                                            Financial Information
                                        32 

Department of Defense Agency Financial Report 2008

PRINCIPAL FINANCIAL STATEMENTS                                   both the proprietary (federal accounting
AND NOTES                                                        standards) and budgetary resources of the
                                                                 Department. The Department’s financial
The financial statements of the Department
                                                                 management environment is large and
include four principal statements listed in
                                                                 complex, includes an asset base of $1.7 trillion,
Figure 2-1.
                                                                 and more than 3 million military and civilian
The statements, presented in Section 2,                          employees on installations in every state and
Financial Information, reflect the aggregate                     around the world.
financial posture of the Department and include


 Figure 2-1. Four Principal Financial Statements
 Statement               What Information It Provides
 Balance Sheet           Reflects the Department’s financial position as of the statement date (September 30, 2008). The
                         assets are the amount of future economic benefits owned or managed by the Department. The
                         liabilities are amounts owed by the Department. The net position is the difference between the
                         assets and liabilities.
 Statement of Net Cost   Shows separately the components of the net cost of the Department’s operations for the period. Net
                         cost is equal to the gross cost incurred by the Department less any exchange revenue earned from
                         its activities.
 Statement of Changes    Presents the sum of the cumulative results of operations since inception and unexpended
 in Net Position         appropriations provided to the Department that remain unused at the end of the fiscal year. The
                         statement focuses on how the net cost of operations is financed. The resulting financial position
                         represents the difference between assets and liabilities as shown on the consolidated balance sheet.
 Statement of            Provides information about how budgetary resources were made available as well as their status at
 Budgetary Resources     the end of the period. It is the only financial statement exclusively derived from the Department’s
                         budgetary general ledger in accordance with budgetary accounting rules.




SECTION 2                                                                                          Financial Information
                                                            33
Department of Defense Agency Financial Report 2008

 Department of Defense Consolidated Balance Sheet
 Agency Wide                                                                                       Dollars in Millions
                                                                                2008           Restated 2007
                                                                             Consolidated      Consolidated
 ASSETS (Note 2)
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                                       $    468,396.9    $        396,530.7
   Investments (Note 4)                                                           394,508.5             333,711.0
   Accounts Receivable (Note 5)                                                     1,326.2               1,412.9
   Other Assets (Note 6)                                                            1,282.9               1,212.5
   Total Intragovernmental Assets                                            $    865,514.5    $        732,867.1
 Cash and Other Monetary Assets (Note 7)                                            2,804.8               2,591.1
 Accounts Receivable, Net (Note 5)                                                  7,784.5               7,451.4
 Loans Receivable (Note 8)                                                            236.0                 212.2
 Inventory and Related Property, Net (Note 9)                                     236,027.7             224,948.7
 General Property, Plant and Equipment, Net (Note 10)                             514,876.3             474,530.5
 Investments (Note 4)                                                               1,861.5               1,412.3
 Other Assets (Note 6)                                                             29,005.0              28,166.9
 Stewardship Property, Plant & Equipment (Note 10)
 TOTAL ASSETS                                                                $ 1,658,110.3     $     1,472,180.2

  LIABILITIES (Note 11)
  Intragovernmental:
    Accounts Payable (Note 12)                                                      1,687.4                1,911.5
    Debt (Note 13)                                                                    262.6                  307.0
    Other Liabilities (Note 15)                                                    11,709.8               11,420.8
    Total Intragovernmental Liabilities                                      $     13,659.8    $          13,639.3
  Accounts Payable (Note 12)                                                       32,095.2               28,695.5
  Military Retirement and Other Federal Employment Benefits
 (Note 17)                                                                       1,984,605.4         1,874,679.5
  Environmental and Disposal Liabilities (Note 14)                                  70,505.9            72,489.9
  Loan Guarantee Liability (Note 8)                                                     24.5                25.0
  Other Liabilities (Note 15)                                                       34,107.6            29,286.4
 Commitments & Contingencies (Note 16)
  TOTAL LIABILITIES                                                          $ 2,134,998.4     $     2,018,815.6

  NET POSITION
  Unexpended Appropriations - Earmarked Funds (Note 23)                                 4.9                8.1
  Unexpended Appropriations - Other Funds                                         446,864.3          378,190.7
  Cumulative Results of Operations - Earmarked Funds                          (1,345,925.0)      (1,280,107.2)
  Cumulative Results of Operations - Other Funds                                  422,167.7          355,273.0
  TOTAL NET POSITION                                                         $ (476,888.1)     $   (546,635.4)

  TOTAL LIABILITIES AND NET POSITION                                         $ 1,658,110.3     $     1,472,180.2




The accompanying notes are an integral part of these financial statements.


SECTION 2                                                                                Financial Information
                                                                        34
Department of Defense Agency Financial Report 2008

 Department of Defense Consolidated Statement of Net Cost
 Agency Wide                                                                                      Dollars in Millions

                                                                                2008          Restated 2007
                                                                             Consolidated     Consolidated
  Program Costs
   Gross Costs                                                               $   732,319.4    $        646,987.0
   (Less: Earned Revenue)                                                        (56,272.5)            (45,575.6)
   Net Program Costs                                                         $   676,046.9    $        601,411.4
  Net Cost of Operations                                                     $   676,046.9    $        601,411.4




The accompanying notes are an integral part of these financial statements.


SECTION 2                                                                               Financial Information
                                                                        35
Department of Defense Agency Financial Report 2008

 Department of Defense Consolidated Statement of Changes in Net Position
 Agency Wide                                                                                                                                                                                                                   Dollars in Millions
                                                                                                                                                                     Restated           Restated             Restated               Restated
                                                                                  2008                 2008                  2008               2008
 For Periods ended September 30, 2008 and 2007                                                                                                                        2007                2007                 2007                  2007
                                                                             Earmarked Funds     All Other Funds         Eliminations        Consolidated
                                                                                                                                                                 Earmarked Funds    All Other Funds        Eliminations           Consolidated

   Cumulative Results Of Operations
   Beginning Balances                                                         $ (1,211,821.2)    $                   $                       $   (926,139.6)      $ (1,206,769.4)   $                  $                         $    (900,150.8)
                                                                                                     285,681.6                       0                                                  306,618.6                     0
   Adjustments:
     Changes in accounting principles                                                        0                 0                        0                  0                    0         (4,230.9)                       0             (4,230.9)
     Corrections of errors                                                                   0           1,305.4                        0            1,305.4                    0                 0                       0                     0
   Beginning balances, as adjusted                                            $ (1,211,821..2)   $                   $                       $   (924,834.2)      $ (1,206,769.4)   $                  $                         $    (904,381.7)
                                                                                                     286,987.0                       0                                                  302,387.7                     0

   Budgetary Financing Sources:
     Appropriations used                                                                  3.2         662,422.0                          0        662,425.2                  3.3         581,262.3                        0            581,265.6
     Nonexchange revenue                                                              3,634.8              84.6                          0          3,719.4              3,076.9               19.5                       0              3,096.4
     Donations and forfeitures of cash and cash equivalents                              34.1                  0                         0             34.1                 63.8                  0                       0                 63.8
     Transfers(in/out without reimbursement)                                          (718.6)             877.6                          0            159.0                200.2             (78.4)                       0                121.8
                                                                                            0              (1.0)                         0             (1.0)                   0                  0                       0                    0
   Other
   Other Financing Sources (Non-Exchange)
     Donations and forfeitures of property                                                   0               1.5                     0                    1.5                   0              13.8                    0                     13.8
     Transfers(in/out without reimbursement )                                         (436.1)              384.9                     0                 (51.2)              243.3            (230.5)                    0                     12.8
     Imputed financing                                                                       0          16,098.1              11,923.2               4,174.9                    0         14,813.4              10,392.1                  4,421.3
                                                                                        (12.1)           6,674.0                     0               6,661.9               (21.8)         (8,014.8)                    0                (8,036.6)
   Other
   Total Financing Sources                                                    $       2,505.3    $                   $                       $                    $      3,565.7    $                  $                         $
                                                                                                                             11,923.2                                                                          10,392.1
                                                                                                     686,541.7                                   677,123.8                              587,785.3                                    580,958.9
   Net Cost of Operations                                                            50,377.1         637,593.0              11,923.2              676,046.9             8,617.5          603,186.0            10,392.1                601,411.4
   Net Change                                                                 $    (47,871.8)    $     48,948.7      $                       $                    $                 $    (15,400.7)    $                         $    (20,452.5)
                                                                                                                                     0              1,076.9                                                           0
   Cumulative Results of Operations                                           $ (1,259,693.0)    $                   $                       $   (923,757.3)          (5,051.8)
                                                                                                                                                                  $ (1,211,821.2)   $    286,987.0     $                         $   (924,834.2)
                                                                                                     335,935.7                       0                                                                                0

   Unexpended Appropriations
   Beginning Balances                                                                     8.1         378,190.7                          0        378,198.8                 11.4         307,698.0                        0            307,709.4
   Adjustments:
     Changes in accounting principles                                                       0                    0                      0                    0                 0            3,745.5                       0               3,745.5
   Beginning balances, as adjusted                                            $           8.1    $                   $                       $                    $         11.4    $                  $                         $
                                                                                                     378,190.7                       0           378,198.8                              311,443.5                     0              311,454.9
   Budgetary Financing Sources:
     Appropriations received                                                                 0         742,587.3                         0         742,587.3                    0         653,684.9                       0             653,684.9
     Appropriations transferred (in/out)                                                     0           (434.4)                         0           (434.4)                    0            (190.2)                      0                (190.2)
     Other adjustments                                                                       0        (11,057.3)                         0        (11,057.3)                    0          (5,485.2)                      0              (5,485.2)
     Appropriations used                                                                 (3.2)       (662,422.0)                         0       (662,425.2)                (3.3)       (581,262.3)                       0           (581,265.6)
   Total Budgetary Financing Sources                                          $         (3.2)    $     68,673.6      $                       $     68,670.4       $         (3.3)   $     66,747.2     $                         $      66,743.9
                                                                                                                                     0                                                                                0
   Unexpended Appropriations                                                  $           4.9    $                   $                       $                    $           8.1   $                  $                         $
                                                                                                     446,864.3                       0           446,869.2                              378,190.7                     0              378,198.8
   Net Position                                                               $ (1,259,688.1)    $                   $                       $   (476,888.1)      $ (1,211,813.1)   $                  $                         $   (546,635.4)
                                                                                                     782,800.0                       0                                                  665,177.7                     0



The accompanying notes are an integral part of these financial statements.


SECTION 2                                                                                                                                                                                                                     Financial Information
                                                                                                                                36
Department of Defense Agency Financial Report 2008

                                                                             Budgetary                       Nonbudgetary
Department of Defense Combined                                           Financing Accounts               Financing Accounts
Statement Of Budgetary Resources
Agency Wide                                                                                Restated                 Restated
                                                                        2008                               2008
                                                                                             2007                     2007
Dollars in Millions                                                   Combined                           Combined
                                                                                           Combined                 Combined
Budgetary Resources
Unobligated balance, brought forward,
                                                                    $        111,980.6 $     85,778.0 $      25.5 $        31.5
October 1
Recoveries of prior year unpaid obligations                                   49,744.1       44,862.5           0              0
Budget authority
 Appropriation                                                               859,403.8      741,888.3           0            0
 Borrowing authority                                                                 0              0         130        371.4
 Contract authority                                                           78,927.8       68,668.0           0            0
Spending authority from offsetting
collections
 Earned:
    Collected                                                                174,493.0      164,627.1        53.9          13.6
                                                                                791.8        (1,277.6)          0              0
Change in receivables from federal sources
 Change in unfilled customer orders:
    Advance received                                                        753.2               448.9           0            0
    Without advance from federal sources                                  5,679.1             5,994.0        12.6         53.5
 Expenditure transfers from trust funds                                      766                    0           0            0
 Subtotal                                                           $ 1,120,814.7 $         980,348.7 $     196.5 $      438.5
Nonexpenditure transfers, net, anticipated
                                                                               (264.1)         (111.3)          0              0
and actual
Temporarily not available pursuant to
                                                                         (59,949.4)         (33,819.5)          0              0
Public Law
Permanently not available                                               (85,156.8)    (74,763.9)            (27.6)        (1.8)
Total Budgetary Resources                                           $ 1,137,169.1 $ 1,002,294.5 $           194.4 $      468.2
Status of Budgetary Resources
Obligations incurred:
 Direct                                                                811,662.0            719,463.4       168.1        442.7
 Reimbursable                                                          189,837.4            170,850.3           0            0
 Subtotal                                                          $ 1,001,499.4 $          890,313.7 $     168.1 $      442.7
Unobligated balance:
 Apportioned                                                           120,047.8      98,585.7                0.3          0.2
 Exempt from apportionment                                               1,060.7       1,050.5                  0            0
 Subtotal                                                          $ 121,108.5 $      99,636.2 $              0.3 $        0.2
Unobligated balance not available                                       14,561.2      12,344.6               26.0         25.3
Total status of budgetary resources                                $ 1,137,169.1 $ 1,002,294.5 $            194.4 $      468.2




The accompanying notes are an integral part of these financial statements.


SECTION 2                                                                                                  Financial Information
                                                                        37
Department of Defense Agency Financial Report 2008

                                                                             Budgetary                       Nonbudgetary
 Department of Defense Combined                                          Financing Accounts               Financing Accounts
 Statement of Budgetary Resources
 Agency Wide                                                                             Restated                     Restated
                                                                        2008                            2008
                                                                                           2007                         2007
 Dollars in Millions                                                  Combined                        Combined
                                                                                         Combined                     Combined
 Change in Obligated Balance:
 Obligated balance, net
  Unpaid obligations, brought forward,
  October 1                                                             372,558.6        321,809.1           768.0         378.5
  Less: Uncollected customer payments from
                                                                        (60,131.3)       (55,414.9)        (130.4)         (76.9)
  federal sources, brought forward, October 1
  Total unpaid obligated balance                                     $ 312,427.3 $ 266,394.2 $               637.6 $       301.6
 Obligations incurred net                                             1,001,499.4   890,313.7                168.1         442.7
 Less: Gross outlays                                                  (892,195.4) (794,701.2)                (63.2)        (53.1)
 Less: Recoveries of prior year unpaid
                                                                        (49,744.1)       (44,862.5)              0             0
 obligations, actual
 Change in uncollected customer payments
                                                                             (6,470.9)    (4,716.4)          (12.6)        (53.5)
 from federal sources
 Obligated balance, net, end of period
  Unpaid obligations                                                    432,118.5        372,559.1           872.9         768.1
  Less: Uncollected customer payments
                                                                        (66,602.2)        (60,131.3        (143.0)        (130.4)
  (+/-) from federal sources
  Total, unpaid obligated balance, net,
                                                                     $ 365,516.3 $ 312,427.8          $      729.9    $    637.7
  end of period
 Net Outlays
 Net Outlays:
  Gross outlays                                                         892,195.4   794,701.2                  63.2          53.1
  Less: Offsetting collections                                        (176,012.2) (165,076.0)                (53.9)        (13.6)
  Less: Distributed offsetting receipts                                (70,247.6)  (48,272.0)                     0             0
  Net Outlays                                                        $ 645,935.6 $ 581,353.2          $         9.3   $      39.5




The accompanying notes are an integral part of these financial statements.


SECTION 2                                                                                                  Financial Information
                                                                        38
Department of Defense Agency Financial Report 2008

Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Department of Defense, as required by the Chief Financial Officers Act of
1990, expanded by the Government Management Reform Act of 1994, and other appropriate
legislation. The financial statements have been prepared from the books and records of the
Department in accordance with, and to the extent possible, U.S. generally accepted accounting
principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board
(FASAB), OMB Circular No. A-136, "Financial Reporting Requirements," and the "DoD Financial
Management Regulation.” The accompanying financial statements account for all resources for
which the Department is responsible unless otherwise noted. Information relative to classified
assets, programs, and operations is excluded from the statements or otherwise aggregated and
reported in such a manner that it is not discernable.
The Department is unable to fully implement all elements of USGAAP and OMB Circular No.
A-136 due to limitations of financial and nonfinancial management processes and systems
that support the financial statements. The Department derives reported values and information
for major asset and liability categories largely from nonfinancial systems, such as inventory
and logistics systems. These systems were designed to support reporting requirements for
maintaining accountability over assets and reporting the status of federal appropriations rather
than preparing financial statements in accordance with USGAAP. The Department continues
to implement process and system improvements addressing these limitations.
The Office of Management and Budget requires financial statements of the following Department
reporting activities to undergo audits: Army General Fund, Army Working Capital Fund, Navy
General Fund, Navy Working Capital Fund, Air Force General Fund, Air Force Working Capital
Fund, Military Retirement Fund, and U.S. Army Corps of Engineers (Civil Works).
In addition, the Department requires the Medicare-Eligible Retiree Health Care Fund, Marine
Corps General and Working Capital Funds, and the following Defense Agencies to prepare
internal stand-alone auditable financial statements: Defense Logistics Agency, Defense Finance
and Accounting Service, Defense Information Systems Agency, Defense Contract Audit
Agency, Defense Commissary Agency, Defense Security Service, Defense Threat Reduction
Agency, Defense Advanced Research Projects Agency, Chemical and Biological Defense
Program, Missile Defense Agency, Services Medical Activity, TRICARE Management Activity,
and U.S. Special Operations Command.
The Department has 13 auditor-identified material weaknesses: (1) Accounts Payable, (2)
Accounting Entries, (3) Environmental Liabilities, (4) Government Property and Materiel in
Possession of Contractors, (5) Intragovernmental Eliminations, (6) Operating Materiel and
Supplies, (7) Reconciliation of Net Cost of Operations to Budget (formerly Statement of
Financing), (8) Statement of Net Cost, (9) Financial Management Systems, (10) Fund Balance
with Treasury, (11) General Property, Plant, and Equipment, (12) Inventory, and (13) Accounts
Receivable. Refer to Section 3: Other Accompanying Information for additional details relative to
the Department’s challenges and recognized weaknesses.




SECTION 2                                                                  Financial Information
                                               39
Department of Defense Agency Financial Report 2008

1.B. Mission of the Reporting Entity
The Department of Defense was established by the National Security Act of 1947. The
Department provides the military forces needed to deter war and protect the security of our
country. Since the creation of America’s first army in 1775, the Department and predecessor
organizations have evolved into a global presence with a worldwide infrastructure dedicated to
defending the United States by deterring and defeating aggression and coercion in critical regions.
The Department of Defense includes the Military Departments and the Defense Agencies. The
Military Departments consist of the Army, the Navy (of which the Marine Corps is a component),
and the Air Force. The Defense Agencies provide support services commonly used throughout
the Department.
1.C. Appropriations and Funds
The Department receives appropriations and funds as general, working capital (revolving), trust,
special, and deposit funds. The Department uses these appropriations and funds to execute
missions and subsequently report on resource usage.
General Funds are used for financial transactions funded by congressional appropriations,
including personnel, operation and maintenance, research and development, procurement, and
military construction.
Working Capital Funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus
finances operations and transactions that flow through the fund. The WCF resources the goods
and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for use
without further congressional action. At various times, Congress provides additional
appropriations to supplement the WCF as an infusion of cash when revenues are inadequate to
cover costs within the corpus.
Trust funds contain receipts and expenditures of funds held in trust by the government for use in
carrying out specific purposes or programs in accordance with the terms of the donor, trust
agreement, or statute. Special fund accounts are used to record government receipts reserved
for a specific purpose. Certain trust and special funds may be designated as earmarked funds.
Earmarked funds are financed by specifically identified revenues, required by statute to be used
for designated activities, benefits or purposes, and remain available over time. The Department
is required to separately account for and report on the receipt, use and retention of revenues
and other financing sources for earmarked funds.
Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not Department funds, and as such, are not available for
the Department’s operations. The Department is acting as an agent or custodian for funds
awaiting distribution.
The Department is a party to allocation transfers with other federal entities as a transferring
(parent) or receiving (child) entity. Allocation transfers are an entities’ legal delegation of
authority to obligate budget authority and outlay funds to another entity. Generally, all financial
activity related to allocation transfers (e.g., budget authority, obligations, outlays) is reported in
the financial statements of the parent entity. Exceptions to this general rule apply to specific
funds for which OMB has directed that all activity be reported in the financial statements of the
child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive Office of
the President (EOP), and all other funds specifically designated by OMB. Based on an
agreement with OMB, funds for Security Assistance programs are reported separately from the
Department's financial statements and notes beginning in the 3rd Quarter, FY 2008.

SECTION 2                                                                      Financial Information
                                                 40
Department of Defense Agency Financial Report 2008
The Department receives allocation transfers from the following agencies: Departments of
Agriculture, Interior, Energy, and Transportation; the Appalachian Regional Commission; and
the Federal Highway Administration.
Additionally, the Department receives allocation transfers from certain funds meeting the OMB
exception and all related activity is included in the Department’s financial statements. The
exceptions reported by the Department include South Dakota Terrestrial Wildlife Habitat
Restoration, Inland Waterways and Harbor Maintenance, and the EOP other than funds
executed by Defense Security Cooperation Agency (DSCA) for Security Assistance.
As the parent, the Department allocates funds to the Departments of Transportation and
Agriculture, and reports related activity in these financial statements.
1.D. Basis of Accounting
For FY 2008, the Department’s financial management systems are unable to meet all full
accrual accounting requirements. Many of the Department’s financial and nonfinancial feeder
systems and processes were designed and implemented prior to the issuance of USGAAP.
These systems were not designed to collect and record financial information on the full accrual
accounting basis as required by USGAAP. Most of the Department’s financial and nonfinancial
legacy systems were designed to record information on a budgetary basis.
The Department is determining the actions required to bring financial and nonfinancial feeder
systems and processes into compliance with USGAAP. One such action is the current revision
of accounting systems to record transactions based on the U.S. Standard General Ledger
(USSGL). Until all Department financial and nonfinancial feeder systems and processes are
able to collect and report financial information as required by USGAAP, the Department’s
financial data will be derived from budgetary transactions (obligations, disbursements, and
collections), from nonfinancial feeder systems, and accruals made for major items such as
payroll expenses, accounts payable, and environmental liabilities.
1.E. Revenues and Other Financing Sources
The Department receives congressional appropriations as financing sources for general funds
that expire annually, on a multiyear basis, or do not expire. When authorized by legislation,
these appropriations are supplemented by revenues generated by sales of goods or services.
The Department recognizes revenue as a result of costs incurred for goods and services
provided to other federal agencies and the public. Full-cost pricing is the Department’s standard
policy for services provided as required by OMB Circular A-25, "User Charges." The
Department recognizes revenue when earned within the constraints of its current system
capabilities. In some instances, revenue is recognized when bills are issued.
Depot Maintenance and Ordnance WCF activities recognize revenue according to the
percentage of completion method. Supply Management WCF activities recognize revenue from
the sale of inventory items.
The Department does not include nonmonetary support provided by U.S. allies for common
defense and mutual security in amounts reported in the Statement of Net Cost and Note 21,
“Reconciliation of Net Cost of Operations to Budget.” The U.S. has cost sharing agreements
with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.




SECTION 2                                                                  Financial Information
                                               41
Department of Defense Agency Financial Report 2008

1.F. Recognition of Expenses
For financial reporting purposes, the Department’s policy requires the recognition of operating
expenses in the period incurred. Current financial and nonfinancial feeder systems were not
designed to collect and record financial information on the full accrual accounting basis.
Estimates are made for major items such as payroll expenses, accounts payable, environmental
liabilities, and unbilled revenue. In the case of Operating Materiel and Supplies (OM&S),
operating expenses are generally recognized when the items are purchased. Efforts are
underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be reported in expenses when consumed. Due to system
limitations, in some instances expenditures for capital and other long-term assets may be
recognized as operating expenses. The Department continues to implement process and
system improvements to address these limitations.
1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the Department cannot accurately identify intragovernmental transactions by
customer because the Department’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the Department provide summary seller-side
balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
Department accounting offices. In most cases, the buyer-side records are adjusted to agree with
the Department’s seller-side balances and are then eliminated. The volume of
intragovernmental transactions is so large that reconciliations cannot be accomplished
effectively. The Department is developing long-term system improvements to ensure accurate
intragovernmental information, including developing sufficient up-front edits and controls,
eliminating the need for reconciliations.
The U.S. Treasury’s “Federal Intragovernmental Transactions Accounting Policies Guide” and
Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the
Financial Report of the United States Government,” provide guidance for reporting and
reconciling intragovernmental balances. While the Department is unable to fully reconcile
intragovernmental transactions with all federal agencies, the Department is able to reconcile
balances pertaining to investments in federal securities, borrowings from the U.S. Treasury and
the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the
Department of Labor, and benefit program transactions with the Office of Personnel
Management.
The Department’s proportionate share of public debt and related expenses of the Federal
government is not included. The Federal government does not apportion debt and related costs
to federal agencies. The Department’s financial statements do not report any public debt,
interest, or source of public financing, whether from issuance of debt or tax revenues. Generally,
financing for the construction of the Department’s facilities is obtained through appropriations.
To the extent this financing ultimately may have been obtained through the issuance of public
debt, interest costs have not been capitalized since the U.S. Treasury does not allocate such
costs to the Department.




SECTION 2                                                                   Financial Information
                                               42
Department of Defense Agency Financial Report 2008

1.H. Transactions with Foreign Governments and International Organizations
Each year, the Department sells defense articles and services to foreign governments and
international organizations under the provisions of the Arms Export Control Act of 1976. Under
the provisions of this Act, the Department has authority to sell defense articles and services to
foreign countries and international organizations generally at no profit or loss to the Federal
government. Payment in U.S. dollars is required in advance.
1.I. Funds with the U.S. Treasury
The Department’s monetary resources are maintained in U.S. Treasury accounts. The
disbursing offices of Defense Finance and Accounting Service, the Military Departments, the
U.S. Army Corps of Engineers, and the Department of State’s financial service centers process
the majority of the Department’s cash collections, disbursements, and adjustments worldwide.
Each disbursing station prepares monthly reports to the U.S. Treasury of checks issued,
electronic fund transfers, interagency transfers, and deposits.
In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The
U.S. Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT)
account. On a monthly basis, the Department's FBWT is adjusted to agree with the
U.S. Treasury's accounts.
1.J. Foreign Currency
Cash is the total of cash resources under the control of the Department, which includes coin,
paper currency, negotiable instruments, and amounts held for deposit in banks and other
financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.
The majority of cash and all foreign currency is classified as “nonentity” and is restricted.
Amounts reported consist primarily of cash and foreign currency held by disbursing officers to
carry out their paying, collecting, and foreign currency accommodation exchange missions.
Cash seized during Operation Iraqi Freedom is restricted to assist the Iraqi people and support
the restoration of Iraq.
The Department conducts a significant portion of operations overseas. Congress established a
special account to handle the gains and losses from foreign currency transactions for five
general fund appropriations: operation and maintenance, military personnel, military
construction, family housing operation and maintenance, and family housing construction. The
gains and losses are calculated as the variance between the exchange rate current at the date
of payment and a budget rate established at the beginning of each fiscal year. Foreign currency
fluctuations related to other appropriations require adjustments to the original obligation amount
at the time of payment. The Department does not separately identify foreign currency fluctuation
transactions.




SECTION 2                                                                   Financial Information
                                               43
Department of Defense Agency Financial Report 2008

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable,
claims receivable, and refunds receivable. Allowances for uncollectible accounts due from the
public are based upon an analysis of collection experience by fund type. The Department does
not recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance
with dispute resolution procedures defined in the Intragovernmental Business Rules published
in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.
1.L. Direct Loans and Loan Guarantees
The Department operates a direct loan and loan guarantee program authorized by the National
Defense Authorization Act for FY 1996 (Public Law (PL) 104-106, Section 2801). The Act
includes a series of authorities that allow the Department to work with the private sector to
renovate military housing. The Department’s goals are to obtain private capital to leverage
government dollars, make efficient use of limited resources, and use a variety of private sector
approaches to build and renovate military housing faster and at a lower cost to the American
taxpayers.
The Act also provides the Department with a variety of authorities to obtain private sector
financing and expertise to improve military housing. The Department uses these authorities
individually or in combination. They include guarantees (both loan and rental),
conveyance/leasing of existing property and facilities, differential lease payments, investments
(both limited partnerships and stock/bond ownership), and direct loans.
The National Defense Authorization Act for FY 2005 (PL 108-375, Section 2805) provided
permanent authorities to the Military Housing Privatization Initiative (MHPI).
The Department operates the Armament Retooling and Manufacturing Support Initiative under
Title 10 United States Code 4551-4555. This loan guarantee program is designed to encourage
commercial use of inactive government facilities. The revenue generated from property rental
offsets the cost of maintaining these facilities.
The Department administers the Foreign Military Financing program on behalf of the EOP. This
program is authorized by sections 23 and 24 of the Arms Export Control Act of 1976, as
amended, PL 90-629, as amended, and section 503(a). This program provides loans to help
countries purchase U.S. produced weapons, defense equipment, services, or military training.
The direct loans and loan guarantees related to Foreign Military Sales are not included in these
financial statements as of the 3rd Quarter, FY 2008, per the Department’s agreement with OMB.
The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991.
1.M. Inventories and Related Property
The Department values approximately 65 percent of resale inventory using the moving average
cost method. An additional 15 percent (fuel inventory) is reported using the first-in-first-out
method. The Department reports the remaining 20 percent of resale inventories at an
approximation of historical cost using latest acquisition cost adjusted for holding gains and
losses. The latest acquisition cost method is used because legacy inventory systems were
designed for materiel management rather than accounting. Although these systems provide
visibility and accountability over inventory items, they do not maintain historical cost data
necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.”
Additionally, these systems cannot produce financial transactions using the USSGL, as required

SECTION 2                                                                  Financial Information
                                              44
Department of Defense Agency Financial Report 2008
by the Federal Financial Management Improvement Act of 1996 (PL 104-208). The Department
is continuing to transition the balance of the inventories to the moving average cost method
through the use of new inventory systems. Most transitioned balances were not baselined to
auditable historical cost and remain noncompliant with SFFAS No. 3.
The Department manages only military or government-specific materiel under normal conditions.
Materiel is a unique term that relates to military force management, and includes items such as
ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair parts, and support
equipment. Items commonly used in and available from the commercial sector are not managed
in the Department’s materiel management activities. Operational cycles are irregular, and the
military risks associated with stock-out positions have no commercial parallel. The Department
holds materiel based on military need and support for contingencies. The Department does not
attempt to account separately for “inventory held for sale” and “inventory held in reserve for future
sale” based on SFFAS No. 3 definitions, unless otherwise noted.
Related property includes OM&S and stockpile materiel. OM&S, including munitions not held for
sale, are valued at standard purchase price. The Department uses both the consumption
method and the purchase method of accounting for OM&S. Items that are centrally managed
and stored, such as ammunition and engines, are generally recorded using the consumption
method and are reported on the Balance Sheet as OM&S. When current systems cannot fully
support the consumption method, the Department uses the purchase method. Under this
method, materiel and supplies are expensed when purchased. During FY 2008, the Department
expensed significant amounts using the purchase method because the systems could not
support the consumption method or management deemed that the item was in the hands of the
end user. This is a material weakness for the Department and long-term system corrections are
in process. Once the proper systems are in place, these items will be accounted for under the
consumption method of accounting.
The Department determined that the recurring high dollar-value of OM&S in need of repair is
material to the financial statements and requires a separate reporting category. Many high-
dollar items, such as aircraft engines, are categorized as OM&S rather than military equipment.
The Department recognizes condemned materiel as “excess, obsolete, and unserviceable.”
The cost of disposal is greater than the potential scrap value, therefore, the net value of
condemned materiel is zero. Potentially redistributable materiel, classified in previous years as
“excess, obsolete, and unserviceable,” is included in the “held for use” or “held for repair”
categories.
Inventory available and purchased for resale includes consumable spare and repair parts, and
repairable items owned and managed by the Department. This inventory is retained to support
military or national contingencies. Inventory held for repair is damaged inventory that requires
repair to make it suitable for sale. Often, it is more economical to repair these items rather than
to procure them. The Department often relies on weapon systems and machinery no longer in
production. As a result, the Department supports a process that encourages the repair and
rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and
armed military force. Work in process balances include: (1) costs related to the production or
servicing of items, including direct material, labor, and applied overhead; (2) the value of
finished products or completed services that are yet to be placed in service; and (3) munitions in
production and depot maintenance work with associated costs incurred in the delivery of
maintenance services.




SECTION 2                                                                      Financial Information
                                                 45
Department of Defense Agency Financial Report 2008

1.N. Investments in U.S. Treasury Securities
The Department reports investments in U.S. Treasury securities at cost, net of amortized
premiums or discounts. Premiums or discounts are amortized over the term of the investments
using the effective interest rate method or another method that yields similar results. The
Department’s intent is to hold investments to maturity unless they are needed to finance claims
or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or
losses on these securities.
The Department invests in nonmarketable market-based U.S. Treasury securities. These
securities are issued by the Treasury’s Bureau of Public Debt to federal agencies. They are not
traded on any securities exchange but mirror the prices of particular U.S. Treasury securities
traded in the government securities market.
The Department’s net investments are held by various trust and special funds. These funds
include the Military Retirement Fund; Medicare-Eligible Retiree Health Care Fund; Other
Defense Organizations General Fund trust and special funds; donations (gift funds); and the
United States Army Corps of Engineers (USACE) South Dakota Terrestrial Habitat Restoration,
Inland Waterways, and Harbor Maintenance Trust Fund accounts.
Other investments represent joint ventures with private developers constructing or improving
military housing on behalf of the Department under the authority of the MHPI, authorized by
PL 104-106, Section 2801. These investments do not require market value disclosure. The
Department’s potential losses on these ventures are limited to the amounts invested.
1.O. General Property, Plant and Equipment
The Department uses the estimated historical cost for valuing military equipment. The
Department identified the universe of military equipment by accumulating information relating to
program funding and associated military equipment, equipment useful life, program acquisitions,
and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposal information.
The Department’s General Property, Plant, and Equipment (General (PP&E)) capitalization
threshold is $100 thousand except for real property, which is $20 thousand. The Department
has not fully implemented the threshold for real property. Therefore, the Department is primarily
using the capitalization threshold of $100 thousand for General PP&E and most real property.
With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the Department’s capitalization threshold. The Department
also requires the capitalization of improvements to existing General PP&E assets if the
improvements equal or exceed the Department’s capitalization threshold and extend the useful
life or increase the size, efficiency, or capacity of the asset. The Department depreciates all
General PP&E, other than land, on a straight-line basis.
The WCF capitalizes all General PP&E used in the performance of the mission, whether or not
the assets meet the definition of any other General PP&E category.
The USACE Civil Works General PP&E is capitalized at historical acquisition cost plus
capitalized improvements when an asset has a useful life of two or more years and the
acquisition cost exceeds $25 thousand. The exception is buildings and structures related to
hydropower projects which are capitalized regardless of cost.
When it is in the best interest of the government, the Department provides government property
to contractors to complete contract work. The Department either owns or leases such property,

SECTION 2                                                                  Financial Information
                                               46
Department of Defense Agency Financial Report 2008
or it is purchased directly by the contractor for the government based on contract terms. When
the value of contractor-procured General PP&E meets or exceeds the Department’s
capitalization threshold, federal accounting standards require that it be reported on the
Department’s Balance Sheet.
The Department developed policy and a reporting process for contractors with government
furnished equipment that provides appropriate General PP&E information for financial statement
reporting. The Department requires that entities maintain, in their property systems, information
on all property furnished to contractors. These actions are structured to capture and report the
information necessary for compliance with federal accounting standards.
1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the
Department’s policy is to record advances or prepayments in accordance with USGAAP. As
such, payments made in advance of the receipt of goods and services should be reported as an
asset on the Balance Sheet. The Department’s policy is to expense and/or properly classify
assets when the related goods and services are received. The Department has not fully
implemented this policy primarily due to system limitations.
1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment purchase of
property (a capital lease), and the value equals or exceeds the current capitalization threshold,
the Department records the applicable asset as though purchased, with an offsetting liability,
and depreciates it. The Department records the asset and liability at the lesser of the present
value of the rental and other lease payments during the lease term (excluding portions
representing executory costs paid to the lessor) or the asset’s fair market value. The discount
rate for the present value calculation is either the lessor’s implicit interest rate or the
government’s incremental borrowing rate at the inception of the lease. The Department, as the
lessee, receives the use and possession of leased property, for example real estate or
equipment, from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risks of ownership. Payments for operating leases are
expensed over the lease term as they become payable.
Office space and leases entered into by the Department in support of contingency operations
are the largest component of operating leases based on costs gathered from existing leases,
General Services Administration bills, and interservice support agreements. Future year
projections use the consumer price index.
1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere on the
Department’s Balance Sheet.
The Department conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on the
contractor that long-term contracts can cause, the Department may provide financing payments.
Contract financing payments are defined in the Federal Acquisition Regulation, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the
government. Contract financing payment clauses are incorporated in the contract terms and
conditions and may include advance payments, performance-based payments, commercial
advances and interim payments, progress payments based on cost, and interim payments
under certain cost reimbursement contracts. It is the Department’s policy to record certain
contract financing payments as other assets.

SECTION 2                                                                  Financial Information
                                               47
Department of Defense Agency Financial Report 2008
Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of
completion. The Defense Federal Acquisition Regulation Supplement authorizes progress
payments based on a percentage or stage of completion only for construction of real property,
shipbuilding and ship conversion, alteration, or repair. Progress payments for real property and
ships are reported as construction-in-progress.
1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by
SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The Department recognizes contingent liabilities when past events
or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist, but there is at least a reasonable possibility of incurring a loss or additional losses.
Examples of loss contingencies include the collectibility of receivables, pending or threatened
litigation, and possible claims and assessments. The Department’s risk of loss and resultant
contingent liabilities arise from pending or threatened litigation or claims and assessments due
to events such as aircraft, ship and vehicle accidents; medical malpractice; property or
environmental damages; and contract disputes.
Other liabilities arise as a result of anticipated disposal costs for the Department’s assets. This
type of liability has two components: nonenvironmental and environmental. Consistent with
SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” recognition of an anticipated
environmental disposal liability begins when the asset is placed into service. Based on the
Department’s policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities of the
Federal Government,” nonenvironmental disposal liabilities are recognized when management
decides to dispose of an asset. The Department recognizes nonenvironmental disposal
liabilities for military equipment nuclear-powered assets when placed into service. These
amounts are not easily distinguishable and are developed in conjunction with environmental
disposal costs.
1.T. Accrued Leave
The Department reports liabilities for military leave and accrued compensatory and annual leave
for civilians. Sick leave for civilians is expensed when taken. The liability is based on current pay
rates.
1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.
Unexpended appropriations represents amounts of budget authority that are unobligated and
have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred.
Cumulative results of operations represent the net difference between expenses and losses,
and financing sources (including appropriations, revenue, and gains), since inception. Beginning
with FY 1998, cumulative results of operations also include donations and transfers in and out of
assets that were not reimbursed.



SECTION 2                                                                      Financial Information
                                                 48
Department of Defense Agency Financial Report 2008
1.V. Treaties for Use of Foreign Bases
The Department has the use of land, buildings, and other overseas facilities that are obtained
through various international treaties and agreements negotiated by the Department of State.
The Department purchases capital assets overseas with appropriated funds, however, the host
country retains title to the land and capital improvements. Treaty terms generally allow the
Department continued use of these properties until the treaties expire. In the event treaties or
other agreements are terminated, use of the foreign bases is prohibited and losses are recorded
for the value of any nonretrievable capital assets. The settlement due to the U.S. or host nation
is negotiated and takes into account the value of capital investments and may be offset by the
cost of environmental cleanup.
1.W. Comparative Data
The Department’s financial statements and notes are presented on a comparative basis.
1.X. Unexpended Obligations
The Department obligates funds to provide goods and services for outstanding orders not yet
delivered. Unless title has passed, the financial statements do not reflect a liability for the
payment of goods and services not yet delivered. Unexpended obligations includes both
obligations for which goods and services have been delivered (title passed) and a liability
recognized, and obligations for which no delivery has occurred and no liability recognized. The
balance of unexpended obligations appears immediately before net outlays in the Statement of
Budgetary Resources, and is referred to as “Total, unpaid obligated balances, net, end of
period.”
1.Y. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements
and collections matched at the transaction level to specific obligations, payables, or receivables
in the source systems and those reported by the U.S. Treasury.
Supported disbursements and collections are evidenced by collaborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.
The Department’s policy is to allocate supported undistributed disbursements and collections
between federal and nonfederal categories based on the percentage of distributed federal and
nonfederal accounts payable and accounts receivable. Unsupported, undistributed
disbursements are recorded in accounts payable. Unsupported, undistributed collections are
recorded in other liabilities.




SECTION 2                                                                   Financial Information
                                               49
Department of Defense Agency Financial Report 2008

Note 2. Nonentity Assets

 Nonentity Assets                                                                  Dollars in Millions

                                                                                 Restated
 As of September 30                                        2008
                                                                                   2007
 Intragovernmental Assets
      Fund Balance with Treasury                    $             1,170.2   $              1,399.5
      Accounts Receivable                                             0.1                      0.9
      Total Intragovernmental Assets                $             1,170.3   $              1,400.4
 Nonfederal Assets
      Cash and Other Monetary Assets                $            2,681.8    $            2,442.7
      Accounts Receivable                                        5,054.6                 5,144.9
      Other Assets                                                 183.4                   186.0
      Total Nonfederal Assets                       $            7,919.8    $            7,773.6
 Total Nonentity Assets                             $            9,090.1    $            9,174.0
 Total Entity Assets                                         1,649,020.2             1,463,006.2
 Total Assets                                       $        1,658,110.3    $        1,472,180.2


Nonentity assets are assets for which the Department maintains stewardship accountability and
reporting responsibility but are not available for the Department’s normal operations.
Intragovernmental Fund Balance with Treasury (FBWT) consists of deposit funds, seized Iraqi
cash, and the Development Fund for Iraq (DFI). Deposit funds are generally used to record
amounts held temporarily until paid to the appropriate party. Humanitarian relief and
reconstruction deposit funds are funds held for expenditures on behalf of the Iraqi people.
Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces and restricted for
support of the Iraqi people. The DFI consists of proceeds from Iraqi oil sales, repatriated assets
from the United States and other nations, and deposits from unencumbered oil-for-food
proceeds. DFI funds are restricted for Iraqi infrastructure and other Iraqi support needs.
Nonfederal Cash and Other Monetary Assets primarily consists of cash held by Disbursing
Officers to carry out payment, collection, and foreign currency accommodation exchange
missions.
Nonfederal Accounts Receivable consists of amounts due for canceled year appropriations; and
interest, fines and penalties due on debt. Generally, the Department cannot use the collections
and must distribute them to the U.S. Treasury. The Department has specific statutory authority
to retain collections from certain canceled year accounts receivable as entity assets.
Nonfederal Other Assets primarily consists of an Advance Payment Pool Agreement with a
nonprofit educational institution to finance research and development projects.




SECTION 2                                                                   Financial Information
                                               50
Department of Defense Agency Financial Report 2008

Note 3. Fund Balance with Treasury

 Fund Balance with Treasury                                                            Dollars in Millions

                                                                                     Restated
                                                               2008
 As of September 30                                                                   2007
 Fund Balance
      Appropriated Funds                               $          455,876.7     $           382,107.3
      Revolving Funds                                                 8,978.8                 11,021.1
      Trust Funds                                                     1,818.5                  1,019.0
      Special Funds                                                    436.4                      396.5
      Other Fund Types                                                1,286.5                  1,986.8
      Total Fund Balance                               $          468,396.9     $           396,530.7
 Fund Balance Per Treasury Versus Agency
      Fund Balance per Treasury                        $          473,736.8     $           399,862.9
      Fund Balance per Agency                                     468,396.9                 396,530.7

 Reconciling Amount                                    $              5,339.9   $              3,332.2

The Department restated the FY 2007 balance in appropriated funds by $1.3 billion. On
September 30, 2007, the military payroll due for disbursement on October 1st was processed
one day early. The payroll was not actually paid to the soldiers until October 1st even though it
appeared as disbursed in the Department’s system. Since the processing of the payroll and the
actual outlays for the payroll crossed over two fiscal years, the outlays in both fiscals years were
incorrectly stated (overstated in FY 2007 and understated in FY 2008) and required correction.
The restated amount of $1.3 billion impacted the Balance Sheet and Statement of Budgetary
Resources.
Other Fund Types primarily consist of deposit funds, receipt accounts, clearing accounts, and
Development Fund for Iraq.
The Department shows a reconciling net difference of $5.3 billion with the U.S. Treasury. This
includes $5.1 billion in canceled appropriations, $268.4 million in unavailable receipt accounts,
and ($29.2) million in allocation transfers.

 Status of Fund Balance with Treasury                                                  Dollars in Millions

 As of September 30
                                                                                     Restated
                                                               2008                   2007
 Unobligated Balances
    Appropriated Funds                                 $          121,096.4     $            99,165.6
    Revolving Funds                                               401,136.6                 338,321.9
    Obligated Balance not yet Disbursed                           432,553.3                 373,327.3
    Nonbudgetary FBWT                                               1,060.8                   1,359.6
    NonFBWT Budgetary Accounts                                  (487,450.2)               (415,643.7)
 Total Fund Balance                                    $          468,396.9     $           396,530.7



SECTION 2                                                                       Financial Information
                                                51
Department of Defense Agency Financial Report 2008
The Status of Fund Balance with Treasury is the reconciliation between budgetary and
proprietary accounts at Treasury. It consists of unobligated and obligated balances. The
balances reflect the budgetary authority remaining for disbursement against current or future
obligations.
Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The
unavailable balance consists primarily of funds invested in U.S. Treasury securities that are
temporarily precluded from obligation by law. Certain unobligated balances are restricted for
future use and are not apportioned for current use. Unobligated balances for trust fund accounts
are restricted for use by the public law that established the funds.
Obligated Balance not yet Disbursed represents funds that have been obligated for goods and
services not received, and those received but not paid.
Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit
funds, receipt accounts, clearing accounts, and nonentity FBWT.
NonFBWT Budgetary Accounts reduces the Status of FBWT and consists of investments in
U.S. Treasury securities, unfilled customer orders without advance, contract and borrowing
authority, and receivables.
Note 4. Investments and Related Interest

 Investments and Related Interest                                                                     Dollars in Millions
                                                                        2008
                                                                       Amortized
                                                         Amortization             Investments, Market Value
                                           Cost                       (Premium) /
                                                           Method                     Net       Disclosure
As of September 30                                                     Discount
Intragovernmental Securities
Nonmarketable,
Market-Based
 Military Retirement Fund    $             255,722.1     See Below    $ (5,423.8)     $ 250,298.3 $ 240,912.7
 Medicare-Eligible Retiree
                                           135,483.4     See Below        (2,683.7)       132,799.7         127,002.4
 Health Care Fund
 US Army Corps of
                                               4,790.4   See Below           (26.0)         4,764.4            4,909.9
 Engineers
 Other Funds                                   2,382.0   See Below           (19.6)         2,362.4            2,391.2
Total Nonmarketable,
                             $             398,377.9                  $ (8,153.1)     $ 390,224.8 $ 375,216.2
Market-Based
Accrued Interest                               4,283.7                                      4,283.7            4,283.7
Total Intragovernmental
                             $             402,661.6                  $ (8,153.1)     $ 394,508.5 $ 379,499.9
Securities
Other Investments
Total Other Investments      $                 1,861.5                $        0.0    $     1,861.5                 N/A
Amortization Method Used: Effective Interest




SECTION 2                                                                                  Financial Information
                                                            52
Department of Defense Agency Financial Report 2008

 Investments and Related Interest                                                                     Dollars in Millions
                                                                         2007
                                                                       Amortized
                                                         Amortization             Investments, Market Value
                                           Cost                       (Premium) /
                                                           Method                     Net       Disclosure
As of September 30                                                     Discount
Intragovernmental Securities
  Nonmarketable,
  Market-Based
    Military Retirement Fund $             222,030.5      See Below   $ (6,666.2)     $ 215,364.3 $ 212,242.6
    Medicare-Eligible
                                           110,206.3      See Below       (1,762.9)       108,443.4        106,692.8
    Retiree Health Care Fund
    US Army Corps of
                                               4,058.5    See Below          (44.1)         4,014.4           4,043.1
    Engineers
    Other Funds                                2,039.0    See Below          (11.5)         2,027.5           2,040.2
  Total Nonmarketable,
                             $             338,334.3                  $ (8,484.7)     $ 329,849.6 $ 325,018.7
  Market-Based
 Accrued Interest                              3,861.4                                      3,861.4           3,861.4
 Total Intragovernmental
                             $             342,195.7                  $ (8,484.7)     $ 333,711.0 $ 328,880.1
 Securities
Other Investments
 Total Other Investments     $                 1,412.3                $        0.0    $     1,412.3                N/A
Amortization Method Used: Effective Interest



Most of the Department’s earmarked funds are invested in non-marketable, market-based
securities that fluctuate in tandem with the current selling price of the equivalent marketable
security on the open market. These securities are purchased with the intent to hold until
maturity, thus balances are not adjusted to market value.
The Federal government does not set aside assets to pay future benefits and expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited in the
U.S. Treasury, which uses the cash for general government purposes. The U.S. Treasury
securities are issued to the earmarked funds as evidence of earmarked fund receipts and are an
asset to the Department and a liability to the U.S. Treasury. Because the Department of
Defense and the U.S. Treasury are both part of the Federal government, these assets and
liabilities offset each other from the standpoint of the Federal government as a whole.
Therefore, they do not represent an asset or a liability in the U.S. Governmentwide financial
statements.
The U.S. Treasury securities provide the Department with authority to draw upon the U.S.
Treasury to make future benefit payments or other expenditures. When the Department requires
redemption of these securities, the Federal government finances the securities out of
accumulated cash balances by raising taxes or other receipts, borrowing from the public or
repaying less debt, or curtailing other expenditures. The Federal government uses the same
method to finance all other expenditures.
Other Funds primarily consists of $1.7 billion in investments of the DoD Education Benefits
Trust Fund and $511.6 million in investments of the Voluntary Separation Incentive Trust Fund.




SECTION 2                                                                                   Financial Information
                                                            53
Department of Defense Agency Financial Report 2008

Note 5. Accounts Receivable

Accounts Receivable                                                                        Dollars in Millions

                                                                                                Restated
                                                           2008
                                                                                                 2007
                                                        Allowance            Accounts         Accounts
                                         Gross
                                                       For Estimated        Receivable,      Receivable,
 As of September 30                    Amount Due
                                                       Uncollectibles          Net              Net
   Intragovernmental
                                   $        1,326.2                N/A    $      1,326.2    $         1,412.9
   Receivables
   Nonfederal Receivables
                                            8,170.8             (386.3)          7,784.5              7,451.4
   (From the Public)
Total Accounts Receivable          $        9,497.0    $        (386.3)   $      9,110.7    $         8,864.3

Accounts receivable represent the Department’s claim for payment from other entities. The
Department only recognizes an allowance for uncollectible amounts from the public. Claims with
other federal agencies are resolved in accordance with the Intragovernmental Business Rules.
Note 6. Other Assets
 Other Assets                                                                                Dollars in Millions

                                                                                           Restated
 As of September 30                                                  2008
                                                                                            2007
 Intragovernmental Other Assets
      Advances and Prepayments                             $                1,158.0   $               1,087.6
      Other Assets                                                            124.9                     124.9
      Total Intragovernmental Other Assets                 $                1,282.9   $               1,212.5
 Nonfederal Other Assets
      Outstanding Contract Financing Payments                             27,312.1                  26,152.0
      Advances and Prepayments                                              1,282.8                   1,549.6
      Other Assets (With the Public)                                          410.1                     465.3
      Total Nonfederal Other Assets                        $              29,005.0    $             28,166.9
 Total Other Assets                                         $             30,287.9    $             29,379.4


The Department restated the FY 2007 balance in Nonfederal Other Assets by $1.3 billion. The
Department incorrectly reported $1.3 billion of contract financing payments as expenses rather
than assets in FY 2007. Refer to Note 25, Restatements, for additional details.
Intragovernmental Other Assets represents the Department’s right to approximately 6 million
barrels of crude oil held by the Department of Energy.
The balance of outstanding contract financing payments includes $25.9 billion in contract
financing payments and an additional $1.4 billion in estimated future payments to the contractor
upon delivery and government acceptance of a satisfactory product.




SECTION 2                                                                             Financial Information
                                                      54
Department of Defense Agency Financial Report 2008
Contract terms and conditions for certain types of contract financing payments convey rights to
the Department that protect the contract work from state or local taxation, liens or attachment by
the contractor's creditors, transfer of property, or disposition in bankruptcy. However, these
rights should not be misconstrued to mean that ownership of the contractor’s work has
transferred to the Federal government. The Federal government does not have the right to take
the work, except as provided for in contract clauses related to termination or acceptance, and
the Department is not obligated to make payment to the contractor until delivery and
acceptance.
The balance in Other Assets (With the Public) includes $183.1 million for an Advance Payment
Pool Agreement with nonprofit institutions and $182 million for inventory returned to vendors
pending credit.
Note 7. Cash and Other Monetary Assets

 Cash and Other Monetary Assets                                                      Dollars in Millions

 As of September 30
                                                                                     Restated
                                                                    2008              2007
 Cash                                                          $       1,421.3   $         1,470.1
 Foreign Currency                                                      1,383.5                1,121.0

 Total Cash, Foreign Currency, and Other Monetary Assets       $       2,804.8   $            2,591.1


Cash (except for $123.1 million in undeposited collections) and Foreign Currency represent
nonentity assets, and are restricted and unavailable for use in the Department's mission.
Note 8. Direct Loan and Loan Guarantees
Direct Loan and Loan Guarantee Programs
The Department operates the following direct loan and loan guarantee programs:
•	   Military Housing Privatization Initiative (MHPI).
•	   Armament Retooling and Manufacturing Support Initiative (ARMS).
The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan

guarantee commitments made after FY 1991. 

Direct loans are reported at the net present value of the following projected cash flows: 

•	   Loan disbursements.
•	   Repayments of principal.
•	   Payments of interest and other payments over the life of the loan after adjusting for
     estimated defaults, prepayments, fees, penalties, and other recoveries.
Loan guarantee liabilities are reported at their net present value. The cost of loan guarantees is
the net present value of the following estimated projected cash flows:
•	   Payments by the Department to cover defaults and delinquencies, interest subsidies, or
     other payments; offset by
•	   Payments to the Department including origination and other fees, penalties, and recoveries.




SECTION 2	                                                                    Financial Information
                                                  55
Department of Defense Agency Financial Report 2008
Military Housing Privatization Initiative
The MHPI includes both direct loan and loan guarantee programs. The loan guarantee program
is authorized by the National Defense Authorization Act for FY 1996 (PL 104-106, Section 2801)
and includes a series of authorities that allow the Department to work with the private sector to
renovate and build military family housing. The MHPI accelerates the construction of new
housing, built to market standards, and leverages private sector capital. The Department
provides protection to the private sector partner against specific risks, such as base closure or
member deployment. One of the goals of the Department is to obtain private sector capital to
leverage government dollars. The Department provides protection to the private sector partner
against specific risks, such as base closure or member deployment.
Armament Retooling and Manufacturing Support Initiative
The ARMS Initiative, authorized by Title 10 United States Code 4551-4555, is a loan guarantee
program designed to encourage commercial use of the Army's inactive ammunition plants
through incentives for businesses willing to locate to a government ammunition production
facility. The production capacity of these facilities is greater than current military requirements,
however, this capacity may be needed by the military in the future. Revenues from property
rentals are used to help offset the overhead costs for the operation, maintenance, and
environmental cleanup at the facilities.
In an effort to preclude any additional loan liability, the Army instituted an ARMS loan guarantee
moratorium in FY 2004. The Army continues to operate under the moratorium and does not
anticipate new loans.


 Summary of Direct Loans and Loan Guarantees                                         Dollars in Millions

 As of September 30, 2008 and 2007
                                                                                   Restated
                                                            2008                    2007
 Loans Receivable
 Direct Loans:
  Military Housing Privatization Initiative          $               236.0   $                  212.1
  Total Direct Loans                                 $               236.0   $                  212.1
 Defaulted Loan Guarantees:
  Armament Retooling & Manufacturing
  Support Initiative                                                   0.0                        0.1
  Total Default Loan Guarantees                      $                 0.0   $                    0.1
 Total Loans Receivable                              $               236.0   $                  212.2
 Summary of Direct Loans and Loan Guarantees                                         Dollars in Millions

 As of September 30, 2008 and 2007
                                                                                   Restated
                                                            2008                    2007
 Loan Guarantee Liability
  Military Housing Privatization Initiative          $                22.2   $                    24.7
  Armament Retooling & Manufacturing
  Support Initiative                                                   2.3                         0.3
  Total Loan Guarantee Liability                     $                24.5   $                    25.0




SECTION 2                                                                     Financial Information
                                                56
Department of Defense Agency Financial Report 2008

 Direct Loans Obligated                                                                                  Dollars in Millions

                                                                                                       Restated
 As of September 30, 2008 and 2007                                        2008
                                                                                                        2007
 Direct Loans Obligated After FY 1991
 (Present Value Method):
    Military Housing Privatization Initiative
    Loans Receivable Gross                                      $                  339.6       $                    308.0
    Allowance for Subsidy Cost (Present Value)                                   (103.6)                            (95.9)
    Value of Assets Related to Direct Loans                                        236.0                            212.1
    Total Direct Loans Receivable                               $                  236.0       $                    212.1


Loans receivable, net, or value of assets related to loans, is not the same as the proceeds the
Department would expect to receive from selling the loans.


 Total Amount of Direct Loans Disbursed                                                                  Dollars in Millions

                                                                                                       Restated
 As of September 30, 2008 and 2007                                        2008
                                                                                                        2007
 Direct Loan Programs
    Military Housing Privatization Initiative                   $                     31.7     $                      11.9
    Total Direct Loans Disbursed                                $                     31.7     $                      11.9




 Subsidy Expense for Direct Loan by Program
As of September 30, 2008 and 2007                                                                        Dollars in Millions

2008                                   Interest        Defaults               Fees             Other            Total
                                      Differential
New Direct Loans Disbursed:
  Military Housing Privatization      $         12.6   $            3.0   $          0.0   $       0.0      $        15.6
  Initiative
2007 Restated                          Interest            Defaults           Fees             Other            Total
                                      Differential
New Direct Loans Disbursed:
  Military Housing Privatization      $          2.1   $            1.3   $          0.0   $       0.0      $           3.4
  Initiative




SECTION 2                                                                                       Financial Information
                                                           57
Department of Defense Agency Financial Report 2008

 Subsidy Expense for Direct Loan by Program
 As of September 30, 2008 and 2007                                                                  Dollars in Millions

                                         Modifica-     Interest   Technical     Total
2008                                                     Rate                                               Total
                                          tions      Reestimates Reestimates Reestimates

Direct Loan Modifications and Reestimates:
   Military Housing Privatization $              0.0 $          (0.8) $            (2.2) $    ( 3.0) $        ( 3.0)
   Initiative
                                      Modifica-        Interest   Technical     Total
2007 Restated                                            Rate                                              Total
                                       tions                     Reestimates Reestimates
                                                     Reestimates
Direct Loan Modifications and Reestimates:
   Military Housing Privatization $              0.0 $          (7.3) $            (8.2) $    ( 15.5) $       ( 15.5)
   Initiative
                                          2008        Restated
                                                       2007
Total Direct Loan Subsidy Expense:
   Military Housing Privatization    $        12.6 $          ( 12.1)
   Initiative


 Subsidy Rate for Direct Loans by Program                                                            Dollars in Millions

                                                      Interest                      Fees and
 As of September 30, 2008 and 2007                                      Defaults      other       Other        Total
                                                     Differential                   Collections
 Budget Subsidy Rates for Direct Loans
   Military Housing Privatization Initiative             25.25%         18.25%          0.00%     0.00%      43.50%

Subsidy rates pertain to the loan agreements contracted during the current fiscal year. These
rates cannot be applied to the direct loans disbursed during the current reporting year to yield
the subsidy expense. The subsidy expense for new loans disbursed in the current year could
result from disbursement of loans from both current and prior year loan agreements. The
subsidy expense reported in the current year also includes reestimates.


 Schedule for Reconciling Subsidy Cost Allowance Balances
 for Post FY1991 Direct Loans                                                                        Dollars in Millions

                                                                            2008                   Restated
 As of September 30, 2008 and 2007                                                                  2007
 Beginning Balance, Changes, and Ending Balance:
 Beginning Balance of the Subsidy Cost Allowance                  $                    95.9   $                 104.6

 Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
   Interest Rate Differential Costs                                                    12.6                         2.1
   Default Costs (Net of Recoveries)                                                    3.0                         1.3
 Total of the above Subsidy Expense Components                    $                    15.6   $                     3.4




SECTION 2                                                                                     Financial Information
                                                         58
Department of Defense Agency Financial Report 2008

Schedule for Reconciling Subsidy Cost Allowance Balances
for Post FY1991 Direct Loans                                                          Dollars in Millions

                                                            2008                    Restated
As of September 30, 2008                                                             2007
Adjustments
  Subsidy Allowance Amortization                                       (4.9)                      (3.6)
  Other                                                                  0.0                        7.0
Total of the above Adjustment Components                $              (4.9)   $                    3.4

Ending Balance of the Subsidy Cost Allowance            $           106.6      $                 111.4
before Reestimate

Add or Subtract Subsidy Reestimate by Component
  Interest Rate Reestimate                                             (0.8)                      (7.3)
  Technical/Default Reestimate                                         (2.2)                      (8.2)
Total of the above Reestimate Components                               (3.0)                     (15.5)

 Ending Balance of the Subsidy Cost Allowance           $           103.6      $                   95.9




Defaulted Guaranteed Loans                                                            Dollars in Millions
As of September 30, 2008                                 2008                 2007
Defaulted Guaranteed Loans from Post-FY 1991 Guarantees (Present Value Method):

Armament Retooling & Manufacturing Support Initiative
   Defaulted Guaranteed Loans Receivable, Gross         $              15.1    $                   14.4
  Allowance for Subsidy Cost (Present Value)                        (15.1)                       (14.3)
Total Value of Assets Related to Defaulted              $                0.0   $                    0.1
Guaranteed Loans Receivable



Guaranteed Loans Outstanding                                                          Dollars in Millions
                                               Outstanding Principal      Amount of Outstanding
                                               of Guaranteed Loans,
                                                                           Principal Guaranteed
As of September 30, 2008                            Face Value
Guaranteed Loans Outstanding
Military Housing Privatization Initiative      $                499.1     $                      499.1 

Armament Retooling & Manufacturing                                 3.1                              2.6
Support Initiative
Total Guaranteed Loans Outstanding             $                502.2     $                      501.7




SECTION 2                                                                      Financial Information
                                                   59
Department of Defense Agency Financial Report 2008

 Liabilities for Loan Guarantees                                                                Dollars in Millions

 As of September 30, 2008 and 2007                                      2008                         2007
 Liabilities for Loan Guarantee from Post FY 1991
 (Present Value):
   Military Housing Privatization Initiative                    $                 22.2     $                  24.7
   Armament Retooling & Manufacturing Support Initiative                           2.3                         0.3
   Total Loan Guarantee Liability                               $                 24.5     $                  25.0



 Subsidy Expense for Loan Guarantees by Program                                                Dollars in Millions
 As of September 30, 2008 and 2007

                                         Modifica-      Interest   Technical     Total
                 2008                     tions           Rate    Reestimates Reestimates                 Total
                                                      Reestimates
Modifications and Reestimate:
  Military Housing Privatization     $          0.0 $       (0.9) $       (2.9) $          ( 3.8) $         ( 3.8)
  Initiative
 Armament Retooling &                           0.0           0.4          1.7                 2.1             2.1
  Manufacturing Support Initiative
  Total                              $          0.0   $     ( 0.5) $    ( 1.2) $    ( 1.7)             $ ( 1.7)
                                         Modifica-      Interest    Technical     Total
                 2007                                     Rate                                            Total
                                          tions       Reestimates  Reestimates Reestimates
Modifications and Reestimate:
 Military Housing Privatization   $             0.0    $      0.0 $       (0.2)      $     ( 0.2)     $ ( 0.2)
 Initiative
 Armament Retooling &                           0.0           2.1         (1.1)                1.0             1.0
 Manufacturing Support Initiative
 Total                            $       0.0  $       2.1          $   ( 1.3)       $         0.8    $       0.8
                                     2008         2007
Total Loan Guarantee Subsidy Expense:
  Military Housing Privatization   $    ( 3.8)   $ ( 0.2)
  Initiative
  Armament Retooling &                    2.1          1.0
  Manufacturing Support Initiative
  Total                            $    ( 1.7) $       0.8


There are no new loan guarantees in FY 2008.




SECTION 2                                                                                Financial Information
                                                      60
Department of Defense Agency Financial Report 2008

 Schedule for Reconciling Loan Guarantee Liability Balances
 for Post-FY 1991 Loan Guarantees                                                  Dollars in Millions
 As of September 30, 2008                                    2008                  2007
 Beginning Balance, Changes, and Ending Balance:
 Beginning Balance of the Loan Guarantee Liability       $          25.0    $                   36.8

 Adjustments
   Foreclosed Property and Loans Acquired                             0.7                        2.3
   Claim Payments to Lenders                                        (0.8)                     (15.3)
   Interest Accumulation on the Liability Balance                     1.3                        0.6
   Other                                                              0.0                      (0.2)
 Total of the above Adjustments                          $            1.2   $                 (12.6)

 Ending Balance of the Loan Guarantee Liability
 before Reestimates                                      $          26.2    $                   24.2

 Add or Subtract Subsidy Reestimates by Component
   Interest Rate Reestimate                                         (0.5)                        2.1
   Technical/Default Reestimate                                     (1.2)                      (1.3)
 Total of the above Reestimate Components         $                 (1.7)   $                    0.8

 Ending Balance of the Loan Guarantee Liability          $          24.5    $                   25.0


Administrative Expenses
Administrative Expenses are limited to separately identified expenses for administrating pre-
FY 1992 and post-FY 1991 direct loans and loan guarantee programs. The Department does
not maintain a separate program to capture the expenses related to direct loans and loan
guarantees for MHPI. Administrative expenses for ARMS represent a fee paid to U.S.
Department of Agriculture, Rural Business Cooperative.


Note 9. Inventory and Related Property

 Inventory and Related Property                                                    Dollars in Millions

 As of September 30                                          2008                  2007
 Inventory, Net                                          $      86,600.1    $             84,191.0
 Operating Materiel & Supplies, Net                            148,663.6                139,871.2
 Stockpile Materiel, Net                                           764.0                    886.5
 Total Inventory and Related Property                    $     236,027.7    $           224,948.7




SECTION 2                                                                   Financial Information
                                                    61
Department of Defense Agency Financial Report 2008

     Inventory, Net                                                                                             Dollars in Millions

                                                               2008                                2007
                                        Inventory,                                                                  Valuation
                                                          Revaluation         Inventory,        Inventory,           Method
                                          Gross
    As of September 30                                    Allowance              Net               Net
                                          Value
    Inventory Categories
       Available and Purchased
                               $ 101,121.2 $                  (30,735.0)      $ 70,386.2       $ 61,080.7            LAC,MAC
       for Resale
      Held for Repair                       25,684.0          (10,195.2)            15,488.8       22,473.9          LAC,MAC
      Excess, Obsolete, and
                                              7,761.3          (7,761.3)                 0.0              0.0               NRV
      Unserviceable
      Raw Materiel                            103.5                  0.0           103.5            100.1 MAC,SP,LAC
      Work in Process                         621.6                  0.0           621.6            536.3         AC
    Total Inventory, Net                $ 135,291.6 $         (48,691.5)      $ 86,600.1       $ 84,191.0
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses      NRV = Net Realizable Value
    SP = Standard Price                                                                MAC = Moving Average Cost
    AC = Actual Cost



Restrictions
There are few restrictions on the use, sale, or disposition of inventory. However, some
restrictions do exist, and they include the following:
•      War reserve materiel valued at $2.3 billion;
•      Commissary items valued at $386.4 million held for purchase by authorized patrons; and
•      Dispositions pending litigation or negotiation valued at $5.4 million.
There are no known restrictions on inventory disposition as related to environmental or other
liabilities.
General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale by the
Defense Working Capital Funds. Inventory is tangible personal property that is:
•      Held for sale, or held for repair and eventual sale;
•      In the process of production for sale; or
•      To be consumed in the production of goods for sale or in the provision of service for a fee.
The Department assigns inventory items to a category based upon the type and condition of the
asset.




SECTION 2                                                                                             Financial Information
                                                                 62
Department of Defense Agency Financial Report 2008

 Operating Materiel and Supplies, Net                                                                           Dollars in Millions

                                                            2008                                   2007
                                        OM&S,                                                                      Valuation
                                                       Revaluation                                                  Method
                                        Gross                              OM&S, Net        OM&S, Net
As of September 30                                     Allowance
                                        Value
OM&S Categories
  Held for Use                       $ 131,648.7 $              (0.0)      $ 131,648.7      $ 123,958.0 SP, LAC, MAC
  Held for Repair                       18,374.0            (1,359.1)         17,014.9         15,913.2 SP, LAC, MAC
  Excess, Obsolete, and
                                           3,598.6          (3,598.6)                0.0                  0.0                NRV
  Unserviceable
Total OM&S                           $ 153,621.3 $          (4,957.7)      $ 148,663.6      $ 139,871.2
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
 SP = Standard Price                                                               MAC = Moving Average Cost

Restrictions
Some munitions included in Operating Materiel and Supplies (OM&S) are restricted due to
condition. Restricted munitions are considered obsolete or unserviceable when they cannot be
expected to meet performance requirements. Obsolete and unserviceable OM&S may be used
in emergency combat situations in which no other suitable munitions are immediately available.
General Composition of OM&S
The OM&S includes spare and repair parts, ammunition, tactical missiles, aircraft configuration
pods, and centrally-managed aircraft engines held for consumption. The Department assigns
OM&S items into a category based upon the type and condition of the asset.
 Stockpile Materiel, Net                                                                                        Dollars in Millions

                                                           2008                                2007
                            Stockpile,                  Allowance           Stockpile        Stockpile             Valuation
                              Materiel                  for Gains           Materiel,        Materiel,              Method
As of September 30            Amount                     (Losses)              Net              Net
Stockpile Material Categories
    Held for Sale           $     734.6 $                           0.0    $      734.6     $        857.2            AC, LCM
    Held in Reserve for
                                   29.4                             0.0             29.4              29.3            AC, LCM
    Future Sale
Total Stockpile Material    $     764.0 $                           0.0    $      764.0     $        886.5
 Legend for Valuation Methods:
 AC = Actual Cost                                                  LCM = Lower of Cost or Market


Restrictions
Materiel held by the National Defense Stockpile (NDS) is restricted until relieved by
Congressional action and made available for sale on the open market. Stockpile materiel may
not be disposed except for: (1) necessary upgrading, refining, or processing; (2) necessary
rotation to prevent deterioration; (3) determination as excess with potential financial loss if
retained; or (4) authorization by law.
Since 1994, the NDS has voluntarily suspended mercury sales. The suspension was in
response to concerns raised by the U.S. Environmental Protection Agency regarding the


SECTION 2                                                                                            Financial Information
                                                              63
Department of Defense Agency Financial Report 2008
accumulation of mercury in the global environment. The Requirements Report to Congress
proposes additional restrictions on the use of beryllium metal and quartz.
Before selling any materiel, Congress must enact specific enabling legislation (e.g., the National
Defense Authorization Act). When authorized to offer materiel for sale, NDS removes the
materiel from Materiel Held in Reserve and reclassifies these items as Materiel Held for Sale.
The estimated market price of the stockpile materiel held for sale as of 4th Quarter, FY 2008, is
$1.6 billion.
General Composition of Stockpile Materiel
The Department holds strategic and critical stockpile materiel due to statutory requirements for
use in national defense, conservation, or national emergencies.
Note 10. General PP&E, Net

General PP&E, Net                                                                                      Dollars in Millions

                          Depreciation/                                         (Accumulated              Prior
                                              Service      Acquisition                        Net Book
                          Amortization                                          Depreciation/            FY Net
                                               Life          Value                             Value
As of September 30          Method                                              Amortization)          Book Value
Major Asset Classes
Land                            N/A             N/A          $ 10,522.3                  N/A $ 10,522.3 $ 10,509.6
Buildings,
Structures, and                 S/L           20 or 40           180,196.7        (105,262.3)    74,934.4     71,844.0
Facilities
Leasehold                                      Lease
                                S/L                                 587.1             (391.5)      195.6           228.4
Improvements                                    term

Software                        S/L          2-5 or 10             8,894.9          (5,529.0)     3,365.9       3,512.3

General Equipment               S/L           5 or 10             75,324.1         (52,835.1)    22,489.0     22,094.3

Military Equipment              S/L           Various            714,246.2        (333,900.0)   380,346.2    346,321.2
Assets Under                                   Lease
                                S/L                                 953.5             (536.0)      417.5           481.3
Capital Lease1                                  term
Construction-in-
                                N/A             N/A               22,548.9               N/A     22,548.9     19,480.5
Progress
Other                                                                    57.7           (1.2)        56.5           58.9
Total
                                                           $ 1,013,331.4 $ (498,455.1) $514,876.3 $474,530.5
General PP&E
 1
  Note 15 for additional information on Capital Leases
Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable

Heritage Assets and Stewardship Land
The Federal Accounting Standards Advisory Board’s SFFAS No. 29, “Heritage Assets and
Stewardship Land,” requires note disclosures for these types of assets. The Department’s policy
is to preserve its heritage assets, which are items of historical, cultural, educational, or artistic
importance.
Heritage assets within the Department consist of buildings and structures, archeological sites,
and museum collections. The Department defines these as:

SECTION 2                                                                                       Financial Information
                                                            64
Department of Defense Agency Financial Report 2008
•	    Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on,
      the National Register of Historic Places, including Multi-Use Heritage Assets.
•	    Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible
      for or are listed on the National Register of Historic Places in accordance with Section 110
      National Historical Preservation Act.
•	    Museum Collection Items. Items which are unique for one or more of the following reasons:
      historical or natural significance; cultural, educational, or artistic importance; or significant
      technical or architectural characteristics.
The Department holds the following quantities of heritage assets at September 30, 2008.

 Categories                                                 Measure Quantity         As of 9/30/08
 Buildings and Structures                                        Each                           22,108
 Archeological Sites                                             Site                           27,158
 Museum Collection Items
                                                                 Each                          117,196
 (Objects, not including fine art)
 Museum Collection Items (Objects, fine art)                     Each                           10,550

In FY 2008, the Department acquired 111 fine art objects and 4,009 other museum collection
items through donation.
The Department’s Stewardship Land consists mainly of mission-essential land acquired by
donation or devise. Stewardship Land data for FY 2008 is not yet available due to limitations of
the Department’s financial and nonfinancial management processes and systems that feed into
the financial statements. The Department held the following acres of land as of
September 30, 2007.

     Facility                                                                      As of 9/30/07
                 Predominant Land Use Categories
      Code                                                                        (Acres in Thousands)

 9110            Government Owned Land                                                         8,068.8
 9111            State Owned Land (Stewardship Land)                                             142.0
 9120            Withdrawn Public Land (Stewardship Land)                                     16,137.5
 9130            Licensed and Permitted Land                                                   2,818.8
 9140            Public Land (Stewardship Land)                                                  705.7
 9210            Land Easement                                                                   496.1
 9220            In-leased Land                                                                  819.9
 9230            Foreign Land                                                                    613.7
                 Grand Total                                                                  29,802.5
                 Total – All Other Lands                                                      12,817.3
                 Total – Stewardship Lands                                                    16,985.2

The mission of the Department is to provide the military forces necessary to deter war and
protect the security of the United States. In that mission, the Department, with minor
exceptions, uses most of the buildings and stewardship land in its daily activities and includes
the buildings on the Balance Sheet as multi-use heritage assets (capitalized and depreciated).




SECTION 2	                                                                       Financial Information
                                                   65
Department of Defense Agency Financial Report 2008

Other Disclosures
The Department has use of overseas land, buildings, and other facilities obtained through
international treaties and agreements negotiated by the Department of State. Treaty covenants
restrict the Department’s use and disposal of real property (land and buildings) located outside
the United States.
The Department does not have the acquisition value for all General PP&E and uses several
cost methodologies to provide General PP&E values for financial statement reporting purposes.
Other primarily consists of assets awaiting disposal and the projected FY 2009 forest product
sales.

 Assets Under Capital Lease                                                             Dollars in Millions

 As of September 30                                           2008                      2007
 Entity as Lessee, Assets Under Capital Lease
      Land and Buildings                              $               654.9     $                  719.5
      Equipment                                                       298.6                        263.2
      Accumulated Amortization                                       (536.0)                     (501.4)
      Total Capital Leases                            $               417.5     $                  481.3


Note 11. Liabilities Not Covered by Budgetary Resources
 Liabilities Not Covered by Budgetary Resources                                         Dollars in Millions

                                                                                        Restated
 As of September 30                                             2008
                                                                                         2007
 Intragovernmental Liabilities
      Accounts Payable                                    $               0.7       $               3.3
      Debt                                                               12.1                      12.7
      Other                                                           9,751.2                   6,986.1
      Total Intragovernmental Liabilities                 $           9,764.0       $           7,002.1
 Nonfederal Liabilities
      Accounts Payable                                                  670.4                      461.8
      Military Retirement and Other Federal Employment
                                                                 1,599,400.6              1,547,796.2
     Benefits
      Environmental Liabilities                                     66,870.0                 68,718.8
      Other Liabilities                                             17,253.7                 13,904.4
      Total Nonfederal Liabilities                        $      1,684,194.7        $     1,630,881.2
 Total Liabilities Not Covered by Budgetary Resources     $      1,693,958.7        $     1,637,883.3
 Total Liabilities Covered by Budgetary Resources         $        441,039.7        $       380,932.3
 Total Liabilities                                        $      2,134,998.4        $     2,018,815.6
Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional
action is needed before budgetary resources can be provided.
Intragovernmental Accounts Payable and Nonfederal Accounts Payable primarily represent
liabilities in canceled appropriations that, if paid, will be disbursed using funds current in the
year of disbursement.

SECTION 2                                                                       Financial Information
                                                66
Department of Defense Agency Financial Report 2008
Debt consists primarily of borrowing from the U.S. Treasury for capital improvements to the
Washington Aqueduct Project. Arlington County and Falls Church, Virginia, will complete
reimbursement to the Department by 2023.
Intragovernmental Liabilities Other primarily consists of $8.0 billion in custodial liabilities for
nonentity assets. The amounts collected cannot be used by the Department and must be
returned to the U.S. Treasury. Intragovernmental Liabilities Other also includes $1.4 billion in
unfunded Federal Employees Compensation Act liabilities not due during FY 2008.
Military Retirement and Other Federal Employment Benefits consists of various employee
actuarial liabilities not due and payable during the current fiscal year. These liabilities primarily
consists of $903.8 billion in pension liabilities and $686.2 billion in health benefit liabilities. Refer
to Note 17, Military Retirement and Other Federal Employment Benefits, for additional details
and disclosures.
Environmental Liabilities represents the Department’s liability for existing and anticipated
environmental cleanup and disposal.
Nonfederal Liabilities Other primarily consists of $8.9 billion in unfunded annual leave,
$5.2 billion in contingent liabilities, and $2.0 billion in expected expenditures for disposal of
conventional munitions.
Note 12. Accounts Payable

Accounts Payable                                                                           Dollars in Millions

As of September 30
                                                          2008                                Restated
                                                                                               2007
                                                       Interest,
                                      Accounts       Penalties, and
                                                                            Total              Total
                                       Payable       Administrative
                                                         Fees
Intragovernmental Payables           $    1,687.4                 N/A   $     1,687.4     $        1,911.5
Nonfederal Payables
(To the Public)                          32,094.0                 1.2        32,095.2             28,695.5
Total Accounts Payable               $   33,781.4    $            1.2   $    33,782.6     $      30,607.0

Accounts Payable include amounts owed to federal and nonfederal entities for goods and
services received by the Department. The Department’s systems do not track intragovernmental
transactions by customer at the transaction level. Therefore, buyer-side balances are adjusted
to agree with internal seller-side accounts receivable. Accounts Payable was adjusted by
reclassifying amounts between federal and nonfederal entities. Intradepartmental reciprocal
balances were then eliminated.
In FY 2007, the Department recognized accounts payable balances of the Mechanization of
Contract Administration Services system at gross value without reduction for partial and
progress payments and non-accounts payable records, thus overstating nonfederal accounts
payable. The overstated balance for FY 2007 was undeterminable due to system limitations,
therefore, no correction was made. The FY 2008 ending balance is properly reported net of
partial and progress payments and non-accounts payable records of $923.9 million.




SECTION 2                                                                           Financial Information
                                                    67
Department of Defense Agency Financial Report 2008

Note 13. Debt
 Debt                                                                                            Dollars in Millions

                                                                                            Restated
                                                  2008
                                                                                             2007
                                 Beginning         Net             Ending             Net             Ending
 As of September 30               Balance       Borrowing          Balance         Borrowing          Balance
Agency Debt
(Intragovernmental)
     Debt to the Treasury    $        236.3 $              9.4 $        245.7 $             27.4 $           236.3
     Debt to the Federal
                                       70.7           (53.8)                16.9       (102.5)                 70.7
     Financing Bank
Total Debt                   $        307.0 $         (44.4) $          262.6 $        ( 75.1) $             307.0
The Department’s debt consists of interest and principal payments due to the U.S. Treasury and
the Federal Financing Bank. The Department borrows funds for the Washington Aqueduct
Project, the U.S. Navy Afloat Prepositioning Force Program, the Military Housing Privatization
Initiative, and the Armament Retooling and Manufacturing Support Program.
    The Department must pay the debt on direct loans if borrowers (e.g. county or city
    governments, ship owners, or housing builders) default. For loan guarantees, the
    Department must pay the amount of outstanding principal guaranteed.
Note 14. Environmental Liabilities and Disposal Liabilities

 Environmental Liabilities and Disposal Liabilities                                              Dollars in Millions

                                                                   2008 
                              2007
                                               Current         Noncurrent
As of September 30                                                                  Total              Total
                                               Liability        Liability
 Environmental Liabilities–Nonfederal
  Accrued Environmental Restoration 

  Liabilities 

   Active Installations—Installation 

   Restoration Program (IRP) and 

   Building Demolition and Debris 

   Removal (BD/DR) 
                       $      1,184.2 $         7,689.3 $         8,873.5 $           9,137.8
   Active Installations—Military Munitions
   Response Program (MMRP)                          117.3           4,917.8           5,035.1             5,404.7
   Formerly Used Defense Sites-IRP &
   BD/DR                                            169.0           3,064.2           3,233.2            3,814.0
   Formerly Used Defense Sites--MMRP                100.9          14,758.1          14,859.0           14,696.8
  Other Accrued Environmental
  Liabilities—Non-BRAC
   Environmental Corrective Action                    89.2            723.6             812.8               918.4
   Environmental Closure Requirements                 25.6          1,842.5           1,868.1             1,024.8
   Environmental Response at
   Operational Ranges                                 19.3            185.4             204.7                209.6
   Asbestos                                            7.1            421.5             428.6                  0.0
   Non-Military Equipment                              1.6             87.6              89.2                  0.0
   Other                                              43.7          1,074.5           1,118.2                742.9


SECTION 2                                                                              Financial Information
                                                    68
Department of Defense Agency Financial Report 2008

 Environmental Liabilities and Disposal Liabilities                                                Dollars in Millions

                                                                  2008                                   2007
                                                Current         Noncurrent
As of September 30                                                                   Total               Total
                                                Liability        Liability
  Base Realignment and Closure
  Installations
    Installation Restoration Program                 657.1             3,115.5         3,772.6              3,952.2
    Military Munitions Response Program               73.7             1,001.3         1,075.0              1,028.7
    Environmental Corrective Action /
    Closure Requirements                               30.5             342.3              372.8               163.3
  Environmental Disposal for Military
  Equipment / Weapons Programs
    Nuclear Powered Military Equipment /
    Spent Nuclear Fuel                               164.2            12,091.5        12,255.7            12,883.0
    Non-Nuclear Powered Military
    Equipment                                             0.2            38.9               39.1                  0.0
    Other National Defense Weapons
    Systems                                               1.5           195.9              197.4               205.1
  Chemical Weapons Disposal
  Program
    Chemical Agents and Munitions
    Destruction (CAMD)                             1,242.6             9,394.1        10,636.7            18,308.6
    CAMD Assembled Chemical
    Weapons Assessment (ACWA)                        509.3             5,124.9         5,634.2                 0.0
 Total Environmental Liabilities            $      4,437.0 $          66,068.9 $      70,505.9 $          72,489.9
The above note schedule was recategorized in FY 2008 for clarity.
Other Accrued Environmental Liabilities, Non-BRAC, Other primarily consists of remediation
related to Formerly Utilized Sites Remedial Action Program (FUSRAP). The USACE is
responsible for FUSRAP, which remediates radiological contamination from the Department of
Energy’s U.S. Atomic Energy and Weapons Program.
 Environmental Disclosures                                                                         Dollars in Millions

 As of September 30                                                       2008                       2007
 Intragovernmental Liabilities
   The unrecognized portion of the estimated total cleanup
   costs associated with general property, plant, and             $              1,953.9     $              1,589.1
   equipment.
   Changes in total cleanup costs due to changes in laws,
                                                                                   223.3                      (12.7)
   regulations, and/or technology.
   Portion of the changes in estimated costs due to
   changes in laws and technology that is related to prior                        (35.0)                        (4.4)
   periods.
The table provides additional environmental disclosures required by SFFAS No. 5, “Accounting
for Liabilities of the Federal Government.” Not all Components of the Department are able to
compile the necessary information for the disclosures above, thus the amounts reported may
not accurately reflect the Department’s total unrecognized costs associated with general plant,
property, and equipment; and cleanup costs associated with changes in laws, regulations and
technology. The Department is implementing procedures to address these deficiencies.

SECTION 2                                                                                  Financial Information
                                                     69
Department of Defense Agency Financial Report 2008
Other Disclosures
Types of Environmental Liabilities and Disposal Liabilities Identified
The Department has cleanup requirements for DERP sites at active installations, BRAC
installations, Formerly Used Defense Sites, sites at active installations that are not covered by
DERP, weapons systems programs, and chemical weapons disposal programs. The weapons
systems programs consist of chemical weapons disposal, nuclear-powered aircraft carriers,
nuclear-powered submarines, and other nuclear ships. All cleanup is done in coordination with
regulatory agencies, other responsible parties, and current property owners.
Applicable Laws and Regulations for Cleanup Requirements
The Department is required to clean up contamination resulting from past waste disposal
practices, leaks, spills, and other past activity that created a public health or environmental risk.
The Department accomplishes this effort in coordination with regulatory agencies and, if
applicable, other responsible parties and current property owners. The Department is also
required to recognize closure and post-closure costs for its General PP&E and environmental
corrective action costs for current operations. Each of the Department’s major reporting entities
is responsible for tracking and reporting all required environmental information related to
environmental restoration costs, other accrued environmental costs, disposal costs of weapons
systems, and environmental costs related to BRAC actions that have taken place.
The Department follows the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA) and the Superfund Amendment and Reauthorization Act to clean up
DERP-eligible contamination. Contamination cleanup that is not eligible for DERP is performed
in accordance with the Resource Conservation and Recovery Act (RCRA) or other applicable
federal or state laws. The CERCLA and RCRA require the Department to clean up
contamination in coordination with regulatory agencies, current owners of property damaged by
the Department, and third parties that have a partial responsibility for the environmental
restoration. Failure to comply with agreements and legal mandates puts the Department at risk
of incurring fines and penalties.
The cleanup requirements for nuclear-powered aircraft carriers, submarines, and other nuclear
ships are based on laws that affect the Department’s conduct of environmental policy and
regulations. The Atomic Energy Act of 1954, as amended, assures the proper management of
source, special nuclear, and byproduct materiel. As in all cases with nuclear power, the
Department coordinates actions with the Department of Energy. The Nuclear Waste Policy Act
of 1982 requires all owners and generators of high-level nuclear waste and spent nuclear fuel to
pay their respective shares of the full cost of the program. Finally, the Low-Level Radioactive
Waste Policy Amendments Act of 1986 provides for the safe and efficient management of low-
level radioactive waste.
The Chemical Weapons Disposal Program is based on FY 1986 National Defense Authorization
Act (PL 99-145, as amended) that directed the Department to destroy the unitary chemical
stockpile in accordance with the requirements of the Chemical Weapons Convention Treaty.
The Army, as Executive Agent within the Department, provides policy, direction, and oversight
for both the Chemical Stockpile Program and the Nonstockpile Chemical Materiel Project. As
such, the Army is responsible for the safe and economical disposal of the U.S. stockpile of lethal
and incapacitating chemical warfare agents and munitions.




SECTION 2                                                                      Financial Information
                                                 70
Department of Defense Agency Financial Report 2008
Methods for Assigning Total Cleanup Costs to Current Operating Periods
The Department uses engineering estimates and independently validates models to estimate
environmental costs. The models are contained within the Remedial Action Cost Engineering
Requirements and the Normalization of Data System. The Department validates the models in
accordance with DoD Instruction 5000.61 and primarily uses the models to estimate the
liabilities based on data received during a preliminary assessment and initial site investigation.
The Department primarily uses engineering estimates after obtaining extensive data during the
remedial investigation/feasibility phase of the environmental project.
Once the environmental cost estimates are complete, the Department complies with accounting
standards to assign costs to current operating periods. The Department has already expensed
the costs for cleanup associated with General PP&E placed into service before October 1, 1997,
unless the costs are intended to be recovered through user charges. If the costs are to be
recovered through user charges, the Department expenses cleanup costs associated with that
portion of the asset life that has passed since the General PP&E was placed into service. The
Department systematically recognizes the remaining cost over the remaining life of the asset.
For General PP&E placed into service after September 30, 1997, the Department expenses
associated environmental costs systematically over the life of the asset using two methods:
physical capacity for operating landfills, and life expectancy in years for all other assets. The
Department expenses the full cost to clean up contamination for Stewardship PP&E at the time
the asset is placed into service.
Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due
to Inflation, Deflation, Technology, or Applicable Laws and Regulations
The Department had changes in estimates resulting from overlooked or previously unknown
contaminants, reestimation based on different assumptions, and lessons learned.
Environmental liabilities may change in the future due to changes in laws and regulation,
changes in agreements with regulatory agencies, and advances in technology.
Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported
Environmental Liabilities
The environmental liabilities for the Department are based on accounting estimates, which
require certain judgments and assumptions that are reasonable based upon information
available at the time the estimates are calculated. The actual results may materially vary from
the accounting estimates if agreements with regulatory agencies require remediation to a
different degree than anticipated when calculating the estimates. Liabilities can be further
affected if investigation of the environmental sites reveals contamination levels that differ from
the estimate parameters.
The Army has a liability to take environmental restoration and corrective action for buried
chemical munitions and agents, however, it is unable to estimate at this time because the extent
of the buried chemical munitions and agents is unknown. The Department is also unable to
provide a complete estimate for FUSRAP. The Department has ongoing studies and will update
its estimate as additional liabilities are identified. In addition, not all Components of the
Department recognize environmental liabilities associated with General PP&E due to process
and system limitations.
The Department is in the process of determining the extent of the liabilities at installations that
are realigning or closing as a result of BRAC requirements, in particular those liabilities
associated with unexploded ordnance on training ranges. In addition, the Department has the
potential to incur costs for restoration initiatives in conjunction with returning overseas Defense
facilities to host nations. The Department is unable to provide a reasonable estimate at this time
because the extent of required restoration is unknown.

SECTION 2                                                                    Financial Information
                                                71
Department of Defense Agency Financial Report 2008

Note 15. Other Liabilities

 Other Liabilities                                                                              Dollars in Millions

                                                                                                  Restated
                                                                  2008 

                                                                                                   2007
                                               Current 
      Noncurrent

As of September 30                                                                   Total           Total
                                               Liability
      Liability

 Intragovernmental
    Advances from Others                   $        736.9     $        0.0       $      736.9 $           308.9
    Deposit Funds and Suspense Account
                                                    829.2                  0.0          829.2          1,181.6
    Liabilities
   Disbursing Officer Cash                        2,856.0                  0.0        2,856.0          2,619.7
   Judgment Fund Liabilities                        167.7                  0.1          167.8             167.5
   FECA Reimbursement to the
                                                    548.0            847.1            1,395.1          1,387.6
   Department of Labor
   Custodial Liabilities                          3,513.8          1,619.4            5,133.2          5,236.6
   Employer Contribution and
                                                    377.7                  0.0          377.7             281.8
   Payroll Taxes Payable
   Other Liabilities                                213.9                  0.0          213.9             237.1
   Total Intragovernmental Other
                                           $      9,243.2 $        2,466.6       $ 11,709.8 $         11,402.8
   Liabilities
 Nonfederal
   Accrued Funded Payroll and Benefits            8,143.1                  0.0        8,143.1          7,478.9
   Advances from Others                           3,144.4                  0.0        3,144.4          2,426.3
   Deposit Funds and Suspense Accounts              325.2                  0.0          325.2               59.9
   Nonenvironmental Disposal Liabilities
     Military Equipment (Nonnuclear)                  7.7            244.5              252.2            271.2
     Excess/Obsolete Structures                     116.2            616.6              732.8            663.0
     Conventional Munitions Disposal                  0.0          2,043.0            2,043.0          1,284.1
   Accrued Unfunded Annual Leave                  9,025.9              0.0            9,025.9          8,708.1
   Capital Lease Liability                              3.8          142.5              146.3             183.5
   Contract Holdbacks                               558.9             11.3              570.2             812.9
   Employer Contribution and Payroll
                                                  1,844.1                  0.0        1,844.1          1,565.9
   Taxes Payable
   Contingent Liabilities                         1,216.5          5,968.0            7,184.5          5,050.6
   Other Liabilities                                695.4              0.5              695.9            782.0
   Total Nonfederal Other Liabilities      $     25,081.2 $        9,026.4       $   34,107.6 $       29,286.4
 Total Other Liabilities                   $     34,324.4 $       11,493.0       $   45,817.4 $       40,707.2




SECTION 2                                                                              Financial Information
                                                   72
Department of Defense Agency Financial Report 2008
The Department restated the FY 2007 balance in accrued funded payroll and benefits by $1.3
billion. On September 30, 2007, the military payroll due for disbursement on October 1st was
processed one day early. The payroll was not actually paid to the soldiers until October 1st even
though it appeared as disbursed in the Department’s system. Since the processing of the payroll
and the actual outlays for the payroll crossed over two fiscal years, the outlays in both fiscals
years were incorrectly stated (overstated in FY 2007 and understated in FY 2008) and required
correction. The restated amount of $1.3 billion impacted the Balance Sheet and Statement of
Budgetary Resources.
Intragovernmental Other Liabilities primarily consists of unemployment compensation liabilities.
Contingent Liabilities includes $1.4 billion in estimated future contract financing payments. In
accordance with contract terms, specific rights to the contractors’ work vests with the Federal
government when a specific type of contract financing payment is made. This action protects
taxpayer funds in the event of contract nonperformance. These rights should not be
misconstrued as rights of ownership. The Department is under no obligation to pay contractors
for amounts greater than the amounts authorized in contracts until delivery and government
acceptance. Due to the probability the contractors will complete their efforts and deliver
satisfactory products, and because the amount of potential future payments are estimable, the
Department has recognized a contingent liability for estimated future payments that are
conditional pending delivery and government acceptance.
Nonfederal Other Liabilities primarily consists of accrued estimates for repairs and cargo
expenses.
 Capital Lease Liability                                                            Dollars in Millions

                                           2008 — Asset Category                           2007
                             Land and
 As of September 30                        Equipment       Other          Total           Total
                             Buildings
Future Payments Due
  2008                       $       0.0 $       0.0 $          0.0   $       0.0    $         50.9
  2009                              43.9         1.5            0.0          45.4              45.4
  2010                              43.9         0.0            0.0          43.9              43.9
  2011                              41.3         0.0            0.0          41.3              41.3
  2012                              15.5         0.0            0.0          15.5              15.5
  2013                              11.1         0.0            0.0          11.1               0.0
  After 5 Years                     17.3         0.0            0.0          17.3              28.6
  Total Future Lease
                             $    173.0 $        1.5 $          0.0   $     174.5    $       225.6
  Payments Due
  Less: Imputed Interest
                                    28.2         0.0            0.0          28.2              42.1
  Executory Costs
Net Capital Lease Liability $     144.8 $        1.5 $          0.0   $     146.3    $       183.5
Capital Lease Liabilities Covered by Budgetary Resources                    123.9            150.8
Capital Lease Liabilities Not Covered by Budgetary Resources                 22.4             32.7




SECTION 2                                                                   Financial Information
                                               73
Department of Defense Agency Financial Report 2008

Note 16. Commitments and Contingencies
Legal Contingencies
The Department is a party in various administrative proceedings and legal actions related to
claims for environmental damage, equal opportunity matters, and contractual bid protests. The
Department has accrued contingent liabilities for legal actions where the Office of General
Counsel (OGC) considers an adverse decision probable and the amount of loss is measurable.
In the event of an adverse judgment against the Government, some of the liabilities may be
payable from the U.S. Treasury Judgment Fund. The Department records Judgment Fund
liabilities in Note 12, Accounts Payable, and in Note 15, Other Liabilities.
In FY 2008, the Department reported 55 legal actions with individual claims greater than the
Department's FY 2008 materiality threshold of $114.4 million. The total of these 55 actions is
approximately $2.6 trillion. Of this amount, the OGC determined that claims totaling
approximately $21.9 billion are classified "reasonably possible," $13.4 billion are classified
"remote," and $2.5 trillion are classified "unable to determine the probability of loss." The
Department also had a number of potential claims that individually did not meet the
Department's materiality threshold but did meet the individual Components’ thresholds. These
claims are disclosed in the Components’ financial statements.
Other Commitments and Contingencies
Undelivered orders for open (unfilled or unreconciled) contracts citing cancelled appropriations,
for which the Department may incur a contractual commitment for payment, total $978.3 million.
The Department is a party in numerous individual contracts that contain clauses, such as price
escalation, award fee payments, or dispute resolution, that may result in a future outflow of
expenditures. Currently, the Department has limited automated system processes by which it
captures or assesses these potential contingent liabilities, therefore, the amounts reported may
not fairly present the Department’s contingent liabilities.
Contingencies considered both measurable and probable have been recognized as liabilities.
Refer to Note 15, Other Liabilities, for further details.
Note 17. Military Retirement and Other Federal Employment Benefits

 Military Retirement and Other Federal Employment Benefits                                Dollars in Millions

                                                                                              Restated
                                                       2008                                    2007
                                               Assumed (Less: Assets
                                                                            Unfunded
                                 Liabilities    Interest Available to                         Liabilities
 As of September 30                                                         Liabilities
                                               Rate (%) Pay Benefits)
Pension and Health
Actuarial Benefits
  Military Retirement        $   1,150,748.8         5.75 $ (246,956.7) $    903,792.1 $ 1,025,320.6
  Pensions
  Military Retirement Health       317,967.9         5.75             0.0    317,967.9          317,332.8
  Benefits
  Military Medicare-Eligible       500,195.7         5.75     (131,941.1)    368,254.6          516,479.2
  Retiree Benefits
  Total Pension and Health $     1,968,912.4                $ (378,897.8) $ 1,590,014.6 $ 1,859,132.6
  Actuarial Benefits



SECTION 2                                                                        Financial Information
                                                74
Department of Defense Agency Financial Report 2008

 Military Retirement and Other Federal Employment Benefits                                                   Dollars in Millions

                                                                      2008                                       Restated
                                                                                                                  2007
                                                         Assumed     (Less: Assets
                                                                                               Unfunded
                                        Liabilities    Interest Rate Available to                                Liabilities
 As of September 30                                                                            Liabilities
                                                            (%)      Pay Benefits)
Other Actuarial Benefits
  FECA                                      6,862.2                 4.4                  0.0       6,862.2            6,830.1
  Voluntary Separation                      1,146.0                 4.5           (501.5)            644.5            1,250.5
  Incentive Programs
  DoD Education Benefits                    1,959.2                 4.5         (1,817.3)            141.9            1,858.2
  Fund
  Total Other Actuarial             $       9,967.4                       $    (2,318.8 ) $        7,648.6 $          9,938.8
  Benefits
Other Federal Employment $                  5,725.6                       $     (3,988.2) $        1,737.4 $          5,608.1
Benefits
Total Military Retirement
and Other Federal                   $ 1,984,605.4                         $ (385,204.8) $ 1,599,400.6 $ 1,874,679.5
Employment Benefits
 Actuarial Cost Method Used: Aggregate Entry-Age Method
 Assumptions: See Below
 Market Value of Investments in Market-based and Marketable Securities: $374.5 billion


Military Retirement Pensions
The Military Retirement Fund (MRF) is a defined benefit plan authorized by PL 98-94 to provide
funds used to pay annuities and pensions to retired military personnel and their survivors. The
Department of Defense Retirement Board of Actuaries approves the long-term economic
assumptions for inflation, salary, and interest. The actuaries calculate the actuarial liabilities
annually using economic assumptions and actual experience (e.g., mortality and retirement
rates). Due to reporting deadlines, the current year actuarial present value of projected plan
benefits rolls forward from the prior year’s valuation results. The actuaries used the following
assumptions to calculate the FY 2008 roll-forward amount:

 Military Retirement Pensions                          Inflation                   Salary                    Interest
 Fiscal Year 2008                                 2.3% (actual)               3.5% (actual)                   5.75%
 Fiscal Year 2009                                 6.2% (estimated)            3.9% (estimated)                5.75%
 Long Term                                        3.0%                        3.75%                           5.75%

Historically, the initial unfunded liability of the program was amortized over a 50-year period.
Effective FY 2008, the initial unfunded liability will be paid over a 42-year period to ensure the
annual payments cover the interest on the unfunded actuarial liablity, with the last payment
expected to be made October 1, 2025. All subsequent gains and losses experienced are
amortized over a 30-year period.




SECTION 2                                                                                           Financial Information
                                                              75
Department of Defense Agency Financial Report 2008

 Change in MRF Actuarial Liability                                                                   Dollars in Billions
 Actuarial Liability as of September 30, 2007                                             $                1,025.3
 Expected Normal Cost for FY 2008                                                                              18.9
 Plan Amendment Liability                                                                                       8.1
 Assumption Change Liability                                                                                   60.1
 Expected Benefit Payments for FY 2008                                                                       (45.7)
 Interest Cost for FY 2008                                                                                     60.7
 Actuarial (gains)/losses due to changes in trend assumptions                                                  23.3
 Actuarial Liability as of September 30, 2008                                             $                1,150.7
 Change in Actuarial Liability                                                            $                  125.4
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $243.7
 Assumed Interest Rate: 5.75%


Military Retirement Health Benefits (MRHB)
The MRHB are post-retirement benefits the Department provides to non-Medicare-eligible
military retirees and other eligible beneficiaries through private sector health care providers and
Department Medical Treatment Facilities. The actuaries calculate the actuarial liabilities
annually using assumptions and actual experience. For the FY 2008 actuarial liability
calculation, the actuaries used the following assumptions:

 Military Retirement Health Benefits                                      FY 2007 –            Ultimate Rate
 (MRHB) Medical Trend                                                      FY 2008                FY 2032
 Medicare Inpatient (Direct Care)                                                 5.65%                   6.25%
 Medicare Outpatient (Direct Care)                                                3.33%                   6.25%
 Medicare Prescriptions (Direct Care)                                             3.00%                   6.25%
 Medicare Inpatient (Purchased Care)                                              6.65%                   6.25%
 Medicare Outpatient (Purchased Care)                                             4.33%                   6.25%
 Medicare Prescriptions (Purchased Care)                                          8.55%                   6.25%
 Non-Medicare Inpatient (Direct Care)                                             4.00%                   6.25%
 Non-Medicare Outpatient (Direct Care)                                            4.00%                   6.25%
 Non-Medicare Prescriptions (Direct Care)                                         4.00%                   6.25%
 Non-Medicare Inpatient (Purchased Care)                                          5.34%                   6.25%
 Non-Medicare Outpatient (Purchased Care)                                        10.45%                   6.25%
 Non-Medicare Prescriptions (Purchased Care)                                      7.43%                   6.25%
 U.S. Family Health Plan (USFHP) (Purchased Care)                                10.00%                   6.25%




SECTION 2                                                                                     Financial Information
                                                             76
Department of Defense Agency Financial Report 2008

 Change in MHRB Actuarial Liability                                                                      Dollars in Billions
 Actuarial Liability as of September 30, 2007 (Department preMedicare +
 all Uniformed Services Medicare cost-benefit effect)                                       $                    317.3
 Expected Normal Cost for FY 2008                                                                                  10.5
 Expected Benefit Payments for FY 2008                                                                           (10.2)
 Interest Cost for FY 2008                                                                                         19.4
 Actuarial (gains)/losses due to other factors                                                                    (4.8)
 Actuarial (gains)/losses due to changes in trend assumptions                                                    (14.2)
 Actuarial Liability as of September 30, 2008 (Department
 preMedicare + all Uniformed Services Medicare cost-benefit effect)                         $                    318.0
 Change in Actuarial Liability                                                              $                      0.7
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Assumed Interest Rate: 5.75%



Medicare-Eligible Retiree Health Care Fund (MERHCF) Benefits
In accordance with PL 106-398, MERHCF accumulates funds to finance the health care
program liabilities of Medicare-eligible retirees for all the Uniformed Services and specific
Medicare-eligible beneficiaries. The DoD MERHCF Board of Actuaries approves the long-term
assumptions for medical trends and interest. The actuaries calculate the actuarial liabilities
annually using actual experience (e.g., mortality and retirement rates, direct care costs,
purchased care). Due to reporting deadlines, the current year actuarial present value of
projected plan benefits rolls forward from the prior year’s results. The actuaries used the
following assumptions to calculate the FY 2008 roll-forward amount:
 Medicare-Eligible Retiree Health Care Fund                                   FY 2007 –               Ultimate Rate
 (MERHCF) Benefits — Medical Trend                                             FY 2008                   FY 2032
 Medicare Inpatient (Direct Care)                                                         5.65%                    6.25%
 Medicare Inpatient (Purchased Care)                                                      6.65%                    6.25%
 Medicare Outpatient (Direct Care)                                                        3.33%                    6.25%
 Medicare Outpatient (Purchased Care)                                                     4.33%                    6.25%
 Medicare Prescriptions (Direct Care)                                                     3.00%                    6.25%
 Medicare Prescriptions (Purchased Care)                                                  8.55%                    6.25%
 USFHP (Purchased Care)                                                                  10.00%                    6.25%
 Change in MERHCF Actuarial Liability                                                                    Dollars in Billions
 Actuarial Liability as of September 30, 2007
 (all Uniformed Services Medicare)                                                                $              516.5
 Expected Normal Cost for FY 2008                                                                                  10.1
 Expected Benefit Payments for FY 2008                                                                            (8.5)
 Interest Cost for FY 2008                                                                                         31.3
 Actuarial (gains)/losses due to other factors                                                                    (5.3)
 Actuarial (gains)/losses due to changes in trend assumptions                                                    (43.9)
 Actuarial Liability as of September 30, 2008
 (all Uniformed Services Medicare)                                                                $              500.2
 Change in Actuarial Liability                                                                    $              (16.3)
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $128.5 billion
 Assumed Interest Rate: 5.75%


SECTION 2                                                                                         Financial Information
                                                              77
Department of Defense Agency Financial Report 2008
The MERHCF liability includes Medicare liabilities for all Uniformed Services. The $500.2 billion
liability includes $489.0 billion for the Department, $10.0 billion for the Coast Guard, $1.1 billion
for the Public Health Service and $71.0 million for National Oceanic and Atmospheric
Association (NOAA). The FY 2008 contributions from each of the Uniformed Services were
$11.2 billion from the Department, $272.1 million from the Coast Guard, $36.6 million from the
Public Health Service, and $1.8 million from NOAA.
Federal Employees Compensation Act (FECA)
The Department of Labor (DOL) annually determines the liability for future workers’
compensation benefits, which includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred-but-not-
reported claims. The liability is determined using historical benefit payment patterns related to a
specific incurred period to predict the final payment related to that period. Consistent with past
practice, these projected annual benefit payments have been discounted to present value using
the Office of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes
and bonds. A 4.37 percent interest rate was assumed for year one and 4.77 percent was
assumed for year two and thereafter.
The DOL calculates this liability using wage inflation factors (cost of living adjustments or
COLAs) and medical inflation factors (consumer price index medical or CPIM). The actual rates
for these factors for charge back year (CBY) 2008 were also used to adjust the methodology’s
historical payments to current year constant dollars. The compensation COLAs and CPIMs used
in the projections for various charge back years were as follows:
                  Federal Employees — Compensation Act (FECA)
              CBY                    COLA                     CPIM
              2008                             3.03%                            4.71%
              2009                             3.87%                            4.01%
              2010                             2.73%                            3.86%
              2011                             2.20%                            3.87%
              2012                             2.23%                            3.93%
              2013+                            2.30%                            3.93%

The model’s resulting projections were analyzed by DOL to ensure the estimates were reliable.
The analysis was based on four tests: (1) a sensitivity analysis of the model of economic
assumptions, (2) a comparison of the percentage change in the liability amount by agency to the
percentage change in the actual incremental payments, (3) a comparison of the incremental
paid losses (the medical component in particular) in CBY 2008 (by injury cohort) to the average
pattern observed during the prior three charge back years, and (4) a comparison of the
estimated liability per case in the 2008 projection to the average pattern for the projections for
the most recent three years.
Voluntary Separation Incentive (VSI) Program
PL 102-190 established the VSI Program to reduce the number of military personnel on active
duty. The VSI Board of Actuaries approved the assumed annual interest rate of 4.5 percent
used to calculate the actuarial liability. Since the VSI Program is no longer offered, the actuarial
liability calculated annually is expected to continue to decrease with benefit outlays and
increase with interest cost. Market Value of Investments in Market-based and Marketable
Securities: $545.0 million



SECTION 2                                                                      Financial Information
                                                 78
Department of Defense Agency Financial Report 2008
DoD Education Benefits Fund (EBF)
PL 98-525 established the EBF program to recruit and retain military members and aid in the
readjustment of military members to civilian life. The actuaries calculate the actuarial liability
annually based on the assumed interest rate of 4.5 percent that was approved by the EBF
Board of Actuaries. Market Value of Investments in Market-based and Marketable Securities:
$1.8 billion
Other Federal Employment Benefits
Other Federal Employment Benefits primarily consists of accrued pensions and annuities, and
an estimated liability for incurred-but-not-reported medical claims not processed prior to fiscal
year end.
Note 18. General Disclosures Related to the Statement of Net Cost

 General Disclosures Related to the Statement of Net Cost                             Dollars in Millions

                                                                                     Restated
 As of September 30                                             2008
                                                                                      2007
 Intragovernmental Costs                                  $         26,771.0     $          27,060.9
 Public Costs                                                     705,548.4               619,926.1
 Total Costs                                              $       732,319.4      $        646,987.0
 Intragovernmental Earned Revenue                                 (29,652.6)              (20,450.0)
 Public Earned Revenue                                            (26,619.9)              (25,125.6)
 Total Earned Revenue                                     $       (56,272.5)     $        (45,575.6)
 Net Cost of Operations                                   $       676,046.9      $        601,411.4

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal government supported by appropriations or other means. The intent of the SNC is to
provide gross and net cost information related to the amount of output or outcome for a given
program or organization administered by a responsible reporting entity. The Department’s
current processes and systems do not capture and report accumulated costs for major
programs based upon performance measures as required by the Government Performance and
Results Act. The Department is reviewing available data and developing a cost reporting
methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS)
No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government.”
Intragovernmental costs and revenues represent transactions made between two reporting
entities within the Federal government. Public costs and revenues are exchange transactions
made between the reporting entity and a nonfederal entity.
The Department’s systems do not track intragovernmental transactions by customer at the
transaction level. Buyer-side expenses are adjusted to agree with internal seller-side revenues.
Expenses are generally adjusted by reclassifying amounts between federal and nonfederal
expenses. Intradepartmental reciprocal balances are then eliminated.
The SNC presents information based on budgetary obligation, disbursement, and collection
transactions, as well as data from nonfinancial feeder systems. Amounts are adjusted for
accruals such as payroll expenses, accounts payable, and environmental liabilities. The General
Fund data is generally derived from budgetary transactions (obligations, disbursements, and
collections), data from nonfinancial feeder systems, and accruals made for major items. While
Working Capital Funds generally record transactions on an accrual basis, the systems do not
always capture actual costs in a timely manner.

SECTION 2                                                                      Financial Information
                                               79
Department of Defense Agency Financial Report 2008
Imputed costs totaling $4.2 billion equal imputed financing. The imputed costs are included
within Gross Costs.
The majority of the Department’s accounting systems do not capture information relative to
heritage assets separately and distinctly from normal operations. However, the Department was
able to identify $31.4 thousand in FY 2008 costs for acquiring, constructing, improving,
reconstructing or renovating heritage assets.
The Department recognized a prior period adjustment of $1.3 billion and restated net cost of
operations. During FY 2007, the Department incorrectly reported $1.3 billion of contract
financing payments as expenses rather than assets. Refer to Note 25, Restatements, for
additional details.
Note 19. Disclosures Related to the Statement of Changes in Net Position
The Department recognized a prior period adjustment, which impacted the Statement of
Changes in Net Position. During FY 2007, the Department incorrectly recognized $1.3 billion of
contract financing payments as expenses rather than assets. The prior period adjustment
reduced the net cost of operations by $1.3 billion, and increased the cumulative results of
operations by the same amount. The resulting impact is as if the contract financing payments
had been properly capitalized and not expensed in FY 2007. Refer to Note 25, Restatements,
for further details.
Other Financing Sources, Other consists primarily of adjustments to reconcile budgetary and
proprietary trial balances. Due to financial system limitations, the Department adjusts for these
unreconciled differences. In the SCNP, offsetting balances for intradepartmental activity
between Earmarked Funds and All Other Funds are reported on the same lines. The
Eliminations column contains all appropriate elimination entries, which net to zero within each
respective line, except for intraentity imputed financing costs.
Earmarked Cumulative Results of Operations ending balance on the SCNP does not agree with
the Earmarked Cumulative Results reported on the Balance Sheet because the cumulative
results on the Balance Sheet are presented net of eliminations.
The Appropriations Received on the SCNP do not match the Appropriations on the Statement of
Budgetary Resources due to trust fund appropriations and special fund receipts. The difference
of $116.8 billion is primarily related to the Military Retirement Fund and the Medicare-Eligible
Retiree Health Care Fund appropriations. In order to preserve visibility with the President’s
Budget, these appropriations are effectively reported twice on the SBR; they are reported once
by the Military Departments and Defense Agencies as appropriated and once by the individual
trust funds as receipts. Refer to Note 20, Disclosures Related to the Statement of Budgetary
Resources, for further details.




SECTION 2                                                                  Financial Information
                                               80
Department of Defense Agency Financial Report 2008

Note 20. Disclosures Related to the Statement of Budgetary Resources
 Disclosures Related to the Statement of Budgetary Resources                       Dollars in Millions
                                                                                      Restated
 As of September 30, 2008                                            2008
                                                                                       2007
 Net Amount of Budgetary Resources Obligated for Undelivered
                                                                 $    407,362.0   $     349,757.7
 Orders at the End of the Period.

Restatements and adjustments to beginning balance of budgetary resources
The Department restated the balance in gross outlays by $1.3 billion to correct a timing
difference. On September 30, 2007, the military payroll due for disbursement on October 1st
was processed one day early. The payroll was not actually paid to the soldiers until October 1st
even though it appeared as disbursed in the Department’s system. Since the processing of the
payroll and the actual outlays for the payroll crossed over two fiscal years, the outlays in both
fiscals years were incorrectly stated (overstated in FY 2007 and understated in FY 2008) and
required correction. The restated amount of $1.3 billion impacted the Balance Sheet and
Statement of Budgetary Resources.
Also, in FY 2007 the Department presented a combined report of the DoD financial statements
and the financial statements of certain programs of the Executive Office of the President (EOP).
In FY 2008, it was determined that DoD would report on EOP programs administered by DoD
separately from the DoD financial statements. This change in reporting resulted in a
restatement of the Department’s prior year balances. Refer to Note 25, Restatements, for
further details.

Reconciliation Differences
Appropriations Received on the Statement of Budgetary Resources (SBR) exceeds
Appropriations Received on the Statement of Changes in Net Position by $116.8 billion. This
difference represents trust and special fund receipts reported as exchange revenue on the
Statement of Net Cost and included in appropriations on the SBR. In accordance with Office of
Management and Budget guidance, $90.0 billion of General Fund appropriations received by
the Department are also recognized on the SBR as appropriations received for trust and special
funds.
The Statement of Budgetary Resources comparative column (FY 2007) includes $83.4 million
more in budget authority than reported in the actual FY 2007 column of the President’s Budget
for FY 2009. The difference is primarily due to the Treasury’s amortized payments for the
unfunded actuarial liabilities of the Medicare-Eligible Retiree Health Care Fund and the Military
Retirement Fund. The President’s Budget does not include these payments. Also, the
payments are reported twice in the Department’s SBR as described above.
The Statement of Budgetary Resources comparative column (FY 2007) also includes $634
million less in obligations than reported in the actual FY 2007 column of the President’s Budget
for FY 2009. The Department of the Navy corrected the understatement of obligations in
FY 2007 prior to completion of input for the President’s Budget, however, the SBR was not
corrected until FY 2008. This correction also created a difference in available funds.




SECTION 2                                                                   Financial Information
                                                81
Department of Defense Agency Financial Report 2008

Permanent Indefinite Appropriations
The Department of Defense received the following permanent indefinite appropriations:
•	   Department of the Army General Gift Fund (10 USC 2601(b)(1))
•	   Department of the Navy General Gift Fund (10 USC 2601(b)(2))
•	   Department of the Air Force General Gift Fund (10 USC 2601 (b)(3))
•	   Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
•	   United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
•	   Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
•	   Midshipmen’s Store (10 USC 6971B)
•	   Burdensharing Contributions Account (10 USC 2350j)
•	   Forest Program (10 USC 2665)
•	   DoD Base Closure Account (10 USC 2687)
•	   Medicare-Eligible Retiree Health Care Fund (MERHCF) (10 USC 1111)
•	   Military Retirement Fund (MRF) (10 USC 1461)
•	   Education Benefits Fund (10 USC 2006)
•	   Host Nation Support for U.S. Relocation Activities (10 USC 2350k)
•	   National Defense Sealift Fund (10 USC 2218)
•	   Environmental Restoration, Navy (10 USC 2702)
•	   Hydraulic Mining Debris Reservoir (33 USC 683)
•	   Maintenance and Operation of Dams and Other Improvements of Navigable Waters (16
     USC 810(a))
•	   Payments to States (33 USC 701c-3)
•	   Wildlife Conservation (16 USC 670-670(f))
•	   Ainsworth Bequest (31 USC 1321)
•	   DoD Family Housing Improvement Fund (10 USC 2883 (a))
•	   DoD Military Unaccompanied Housing Improvement Fund (10 USC 2883 (a))
•	   Voluntary Separation Incentive Fund (10 USC 1175(h))
•	   Rivers & Harbors Contributed Funds (33 USC 560, 701h)
The above permanent indefinite appropriations cover a wide variety of purposes to help the
Department accomplish its missions. These purposes include: (1) military retirees health care
benefits, retirement and survivor pay, and education benefits for veterans; (2) environmental,
coastal, and wildlife habitat restoration, and water resources maintenance; (3) costs associated
with the closure or realignment of military installations; (4) relocation of armed forces to a host
nation; (5) separation payments for foreign nationals; (6) the construction, purchase, alteration,
and conversion of sealift vessels; and (7) upkeep of libraries and museums.




SECTION 2	                                                                   Financial Information
                                                 82
Department of Defense Agency Financial Report 2008
Apportionment Categories for Obligations incurred
The Department reported the following amounts of direct obligations: (1) $604.2 billion in
category A; (2) $161.9 billion in category B; and (3) $45.7 billion in exempt from
apportionment. The Department reported the following amounts of reimbursable obligations:
(1) $38.6 billion in category A; (2) $151.1 billion in category B; and (3) $141.0 million in
exempt from apportionment. Category A relates to appropriations for a specific period of time
(e.g., Military Personnel appropriation), and category B relates to appropriations for a specific
project (e.g., Military Construction appropriation).
Legal Arrangements Affecting the Use of Unobligated Balances
A portion of the Department’s unobligated balances represent trust fund receipts collected in the
current fiscal year that exceed the amount needed to pay benefits or other valid obligations.
These receipts are temporarily precluded from obligation by law due to a benefit formula or
other limitation. The receipts, however, are assets of the funds and are available for obligation
as needed in the future. The Department operates within the constraints of fiscal law and has
no additional legal arrangements affecting the use of unobligated balances.
Other Disclosures
Effective FY 2007, OMB Circular No. A-136 “Financial Reporting Requirements” required
entities to report programs administered on behalf of the Executive Office of the President.
Based upon additional guidance from OMB, effective 3rd Quarter, FY 2008, the Department
reports the Foreign Military Sales program separately from the basic financial statements. The
effect reduced Obligated Balances Brought Forward by $65.0 billion, Unobligated Balances
Brought Forward by $43.9 million, Net Amount of Budgetary Resources Obligated for
Undelivered Orders at the End of the Period by $2.3 billion, and Available Borrowing and
Contract Authority at the End of the Period by $32.2 billion.
The President’s budget for FY 2010 has not yet been published. The budget is expected to be
published in February 2009, and will be available at:
http://www.defenselink.mil/comptroller/defbudget.
The SBR includes intraentity transactions because the statements are presented as combined.
The Department utilizes borrowing authority for the Military Housing Privatization Initiative and
the Armament Retooling and Manufacturing Support Initiative. Borrowing authority is used in
accordance with OMB Circular A-129, “Managing Federal Credit Programs.”
The Department received additional funding of $190.5 billion to cover obligations incurred above
baseline operations primarily in support of the Global War on Terror and disaster relief.




SECTION 2                                                                  Financial Information
                                               83
Department of Defense Agency Financial Report 2008

Note 21. Reconciliation of Net Cost of Operations to Budget

 Reconciliation of Net Cost of Operations to Budget                                       Dollars in Millions

                                                                                           Restated
 As of September 30, 2008 and 2007                                       2008
                                                                                              2007
 Resources Used to Finance Activities
 Budgetary Resources Obligated:
      Obligations incurred                                          $   1,001,667.5   $        890,756.4
      Less: Spending authority from offsetting collections and          (232,293.7)          (214,722.0)
      recoveries (-)
      Obligations net of offsetting collections and recoveries      $    769,373.8    $        676,034.4
      Less: Offsetting receipts (-)                                      (70,247.6)            (48,272.0)
      Net Budgetary Resources Obligated                             $    699,126.2    $        627,762.4
 Other Resources:
      Donations and forfeitures of property                                     1.5                    13.8
      Transfers in/out without reimbursement (+/-)                           (51.2)                    12.8
      Imputed financing from costs absorbed by others                       4,174.9               4,421.3
      Other (+/-)                                                           6,661.9             (8,036.6)
      Net other resources used to finance activities                $     10,787.1    $         (3,588.7)
 Total resources used to finance activities                         $    709,913.3    $        624,173.7
 Resources Used to Finance Items not Part of the Net Cost of
 Operations
 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided:
      Undelivered Orders (-)                                             (57,575.7)            (51,370.2)
      Unfilled Customer Orders                                              6,444.9               6,496.4
 Resources that fund expenses recognized in prior                        (29,958.6)            (34,595.5)
 Periods (-)
 Budgetary offsetting collections and receipts that do not affect           2,562.6               1,976.2
 Net Cost of Operations
 Resources that finance the acquisition of assets (-)                   (139,518.3)            (92,336.0)




SECTION 2                                                                       Financial Information
                                                     84
Department of Defense Agency Financial Report 2008

 Reconciliation of Net Cost of Operations to Budget                                       Dollars in Millions

                                                                                           Restated
 As of September 30, 2008 and 2007                                      2008
                                                                                              2007
 Other resources or adjustments to net obligated resources
 that do not affect Net Cost of Operations:
       Less: Trust or Special Fund Receipts Related to exchange              (10.0)                  (10.0)
       in the Entity’s Budget (-)
       Other (+/-)                                                        (5,306.6)               8,010.1
 Total resources used to finance items not part of the Net          $   (223,361.7)   $      (161,829.0)
 Cost of Operations
 Total resources used to finance the Net Cost of Operations         $    486,551.6    $        462,344.7
 Components of the Net Cost of Operations that will not
 Require or Generate Resources in the Current Period
 Components Requiring or Generating Resources in Future
 Period:
      Increase in annual leave liability                                     646.0                1,866.1
      Increase in environmental and disposal liability                     1,813.2                2,615.0
      Upward/Downward reestimates of credit subsidy                           (1.7)                  (4.1)
      expense (+/-)
      Increase in exchange revenue receivable from the public (-)            (24.7)                 (23.3)
      Other (+/-)                                                        139,220.3               91,873.1
 Total components of Net Cost of Operations that will               $    141,653.1    $          96,326.8
 Require or Generate Resources in future periods
 Components not Requiring or Generating Resources:
 Depreciation and amortization                                            37,690.3               27,287.0
 Revaluation of assets or liabilities (+/-)                                8,154.5                6,073.3
 Other (+/-)
       Trust Fund Exchange Revenue                                       (46,429.9)            (39,246.6)
       Cost of Goods Sold                                                  64,716.5              56,125.0
       Operating Material and Supplies Used                                25,695.8              30,590.5
       Other                                                             (41,985.0)            (38,089.3)
 Total Components of Net Cost of Operations that will not           $      47,842.2   $          42,739.9
 Require or Generate Resources
 Total components of Net Cost of Operations that will not           $    189,495.3    $        139,066.7
 Require or Generate Resources in the current period
 Net Cost of Operations                                             $    676,046.9    $        601,411.4

Due to the Department’s financial system limitations, budgetary data do not agree with
proprietary expenses and capitalized assets. The difference between budgetary and proprietary
data is a previously identified deficiency. The following adjustments (absolute value) were made
to balance the Reconciliation of Net Cost of Operations to the Statement of Net Cost:

                                                                            (Amounts in millions)
Resources that Finance the Acquisition of Assets                                          $4,258.8
Revaluation of Assets or Liabilities                                                       2,530.0
Total Amount                                                                              $6,788.8
The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined
instead of consolidated due to intraagency budgetary transactions not being eliminated:


SECTION 2                                                                       Financial Information
                                                  85
Department of Defense Agency Financial Report 2008
•   Obligations Incurred
•   Less: Spending Authority from Offsetting Collections and Recoveries
•   Obligations Net of Offsetting Collections and Recoveries
•   Less: Offsetting Receipts
•   Net Obligations
•   Undelivered Orders
•   Unfilled Customer Orders
Other Resources, Other and Other Resources or Adjustments to Net Obligated Resources that
Do Not Affect Net Cost of Operations, Other primarily consist of nonexchange gains and losses
necessary to reconcile the proprietary and budgetary accounts and losses on disposition of
assets. Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net
Cost of Operations, Other also consists of $1.3 billion in prior period adjustments to correct
costs expensed that should have been capitalized as other assets in FY 2007. Refer to Note
25, Restatements, for further details.
Components Requiring or Generating Resources in Future Period, Other primarily consists of
future funded expenses for the current year change in actuarial liabilities of $135.3 billion. Refer
to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
disclosures.
Components not Requiring or Generating Resources, Other primarily consists of other
expenses not requiring budgetary resources, cost capitalization offsets, and applied overhead.
Note 22. Disclosures Related to Incidental Custodial Collections

The Department collected $4.3 million of incidental custodial revenues generated primarily from
the collection of fines, penalties, and forfeitures. These funds are not available for use by the
Department. At the end of each fiscal year, the accounts are closed and the balances rendered
to the U.S. Treasury.




SECTION 2                                                                     Financial Information
                                                86
Department of Defense Agency Financial Report 2008
Note 23. Earmarked Funds
Earmarked Funds                                                                                   Dollars in Millions
                                                                  2008
                                             Medicare-
                              Military        Eligible          Other
                             Retirement       Retiree         Earmarked        Eliminations             Total
                               Fund         Health Care         Funds
As of September 30                             Fund
Balance Sheet
Assets
 Fund balance with
                              $      17.5   $           5.0   $    2,237.7     $           0.0      $     2,260.2
 Treasury
 Investments                    253,046.7       134,291.6          7,170.2                 0.0          394,508.5
 Accounts and Interest
                                     24.5              12.5         551.2                (5.8)               582.4
 Receivable
 Other Assets                         0.0           0.0          1,999.5                   0.0          1,999.5
Total Assets                  $ 253,088.7   $ 134,309.1       $ 11,958.6           $     (5.8)      $ 399,350.6
Liabilities and Net Position
 Military Retirement Benefits
 and Other Federal            1,154,108.1       500,819.2          3,105.3                 0.0      1,658,032.6
 Employment Benefits
 Other Liabilities                    1.8          199.8            810.3               (85.7)               926.2
Total Liabilities           $1,154,109.9    $ 501,019.0       $    3,915.6     $        (85.7) $1,658,958.8
 Unexpended
                                      0.0               0.0              4.9               0.0                  4.9
 Appropriations
 Cumulative Results of
                              (901,021.2)    (366,709.9)           8,038.1         (86,232.0)      (1,345,925.0)
 Operations
Total Liabilities and Net
                            $ 253,088.7     $ 134,309.1       $   11,958.6     $ (86,317.7)        $ 313,038.7
Position

Statement of Net Cost
 Program Costs                171,077.5        (8,429.7)          2,252.9        (2,524.3)            162,376.4
 Less Earned Revenue          (80,659.5)      (32,657.2)        (1,206.9)        89,991.0             (24,532.6)
 Net Program Costs              90,418.0      (41,086.9)          1,046.0        87,466.7             137,843.8
Net Cost of Operations      $ 90,418.0      $ (41,086.9)      $   1,046.0      $ 87,466.7           $ 137,843.8

Statement of Changes in Net Position
 Net Position Beginning of
                             (810,603.2)   (407,796.8)              6,586.9                 0.0 (1,211,813.1)
 the Period 

 Net Cost of Operations 
       90,418.0    (41,086.9)              1,046.0            87,466.7         137,843.8
 Budgetary Financing
                                     0.0           0.0              2,950.3             1,229.6             4,179.9
 Sources 

 Other Financing Sources 
           0.0           0.0              (448.2)          5.1       ( 443.1)
Change in Net Position     $ (90,418.0) $     41,086.9 $            1,456.1 $ (86,232.0) $ (134,107.0)
Net Position End of Period $ (901,021.2) $ (366,709.9) $            8,043.0 $ (86,232.0) $(1,345,920.1)



SECTION 2                                                                              Financial Information
                                                  87
Department of Defense Agency Financial Report 2008

Earmarked Funds                                                                                       Dollars in Millions

                                                                        2007
                                                 Medicare-
                                Military          Eligible            Other
                               Retirement         Retiree           Earmarked        Eliminations            Total
                                 Fund           Health Care           Funds
As of September 30                                 Fund
Balance Sheet
Assets
Fund balance with Treasury      $        20.4   $         5.0       $    1,961.4      $         0.0     $     1,986.8
Investments                         218,085.0       109,549.1            6,076.8                0.0         333,710.9
Accounts and Interest
                                       143.1                 10.3         515.2             (151.8)              516.8
Receivable
Other Assets                            0.0             0.0            2,214.8                  0.0         2,214.8
Total Assets                    $ 218,248.5     $ 109,564.4         $ 10,768.2       $      (151.8)     $ 338,429.3
Liabilities and Net Position
Military Retirement Benefits
and Other Federal               1,028,850.7         517,104.6            3,108.7                0.0     1,549,064.0
Employment Benefits
Other Liabilities                         1.0           256.6            1,072.6            (133.8)           1,196.4
Total Liabilities              $1,028,851.7     $ 517,361.2         $    4,181.3 $          (133.8) $1,550,260.4
Unexpended Appropriations                 0.0                 0.0              8.1              0.0                  8.1
Cumulative Results of
                                (810,603.2)     (407,796.8)              6,578.8         (68,286.0)     (1,280,107.2)
Operations
Total Liabilities and Net
                               $ 218,248.5      $ 109,564.4         $   10,768.2 $ (68,419.8) $ 270,161.3
Position

Statement of Net Cost
Program Costs                    105,253.0          (13,945.8)          3,175.1           (2,542.8)    91,939.5
Less Earned Revenue              (53,311.2)         (31,539.3)        (1,014.3)           70,427.7   (15,437.1)
Net Program Costs                  51,941.8         (45,485.1)          2,160.8           67,884.9     76,502.4
Net Cost of Operations         $ 51,941.8 $         (45,485.1)      $   2,160.8 $         67,884.9 $ 76,502.4

Statement of Changes in Net Position
Net Position Beginning of the
                                (758,661.4)  (453,467.9)                 5,371.4                 0.0 (1,206,757.9)
Period
Net Cost of Operations             51,941.8   (45,485.1)                 2,160.8            67,884.9      76,502.4
Budgetary Financing Sources             0.0        186.0                 3,154.8             (414.2)       2,926.6
Other Financing Sources                 0.0          0.0                   221.5                13.1         234.6
Change in Net Position        $ (51,941.8) $    45,671.1 $               1,215.5 $        (68,286.0) $ (73,341.2)
Net Position End of Period $ (810,603.2) $ (407,796.8) $                 6,586.9 $        (68,286.0) $(1,280,099.1)




SECTION 2                                                                                   Financial Information
                                                      88 

Department of Defense Agency Financial Report 2008

Abnormal Balances
The abnormal balance of $8.4 billion in program costs for the Medicare-Eligible Retiree Health
Care Fund (MERHCF) is due to a $16.3 billion decrease in MERHCF actuarial liability, which
was updated September 30, 2008. This decrease was caused by changes in the actuarial
assumptions, new assumptions, experience, and assumed discount rate. This decrease is offset
by $7.9 billion in normal benefit expenses.
Other Disclosures
The Statement of Federal Financial Accounting Standards (SFFAS) No. 27, “Identifying and
Reporting Earmarked Funds,” requires the disclosure of Earmarked Funds separate from All
Other Funds on the Statement of Changes in Net Position (SCNP) and Balance Sheet. Funds
must meet three criteria to be classified as earmarked: (1) a statute committing use of
specifically-identified revenues for designated purposes, (2) explicit authority to retain the
revenues, and (3) a requirement to account and report on the revenues. The Department’s
earmarked funds are either special or trust funds and use both receipt and expenditure
accounts to report activity to the U.S. Treasury. There have been no changes in legislation that
significantly changed the purposes of the funds.
The Total column is shown as consolidated and relates only to Earmarked Funds. The
Eliminations column includes eliminations associated with Earmarked Funds and excludes the
offsetting eliminations from All Other Funds. This exclusion causes assets to not equal liabilities
and net position in the note. However, the amounts in the Total column equal the amounts
reported for Earmarked Funds on the Balance Sheet.
The SFFAS No. 27 requires the presentation of gross amounts of Earmarked Funds separate
from All Other (nonearmarked) Funds. Cumulative Results of Operations ending balances for
Earmarked Funds on the SCNP do not agree with the Cumulative Results of Operations for
Earmarked Funds reported on the Balance Sheet because the Cumulative Results of
Operations on the Balance Sheet are presented net of eliminations, whereas the SCNP
presents Cumulative Results of Operations gross.
Military Retirement Fund, 10 United States Code (USC) 1461. The MRF accumulates funds in
order to finance, on an actuarially sound basis, the liabilities of the Department’s military
retirement and survivor benefit programs. Financing sources for the MRF are interest earnings on
Fund assets, monthly Department contributions, and annual contributions from the U.S. Treasury.
The monthly Department contributions are calculated as a percentage of basic pay. The
contribution from the U.S. Treasury represents the amortization of the unfunded liability for service
performed prior to October 1, 1984, plus the amortization of actuarial gains and losses that have
arisen since then. The U.S. Treasury annual contribution also includes the normal cost amount for
the concurrent receipt provisions of the FY 2004 National Defense Authorization Act.
Medicare-Eligible Retiree Health Care Fund, 10 USC 1111. The MERHCF accumulates funds
to finance, on an actuarially sound basis, liabilities of the Department and the uniformed
services health care programs for qualified Medicare-eligible beneficiaries. Financing sources
for MERHCF are provided primarily through an annual actuarial liability payment from the U.S.
Treasury, annual contributions from each Uniformed Service (Army, Navy, Air Force, Marine
Corps, U.S. Coast Guard, National Oceanic and Atmospheric Administration, and U.S. Public
Health Service) and interest earned from the Fund's investments.




SECTION 2                                                                      Financial Information
                                                 89
Department of Defense Agency Financial Report 2008

Other Earmarked Funds
Special Recreation Use Fees, 16 USC 4061-6a note. The United States Army Corps of
Engineers (USACE) is granted the authority to charge and collect fair and equitable Special
Recreation Use Fees at campgrounds located at lakes or reservoirs that are under the
jurisdiction of USACE. Types of allowable fees include daily use fees, admission fees,
recreational fees, annual pass fees, and other permit type fees. The receipts are used for the
operation and maintenance of the recreational sites.
Hydraulic Mining in California, Debris, 33 USC 683. Operators of hydraulic mines through
which debris flows in part or in whole to a body restrained by a dam or other work erected by the
California Debris Commission are required to pay an annual tax as determined by the
Commission. Taxes imposed under this code are collected and expended under the supervision
of USACE and the direction of the Department of the Army. The funds are used for repayment
of funds advanced by the Federal government or other agencies for construction, restraining
works, settling reservoirs, and maintenance.
Payments to States, Flood Control Act of 1954, 33 USC 701c-3. Seventy-five percent of all
funds received and deposited from the leasing of lands acquired by the United States for flood
control, navigation, and allied purposes (including the development of hydroelectric power) are
returned to the state in which the property is located. USACE collects lease receipts into a
receipt account. Funds are appropriated for the amount of receipts the following fiscal year. The
funds may be expended by the states for the benefit of public schools and public roads of the
counties in which such property is situated, or for defraying any of the expenses of county
government.
Maintenance and Operation of Dams and Other Improvements of Navigable Waters, 16
USC 803(f) and 810. When a reservoir or other improvement is constructed by the U.S., the
Federal Energy Regulatory Commission (FERC) assesses charges against licensees directly
benefited. The statute requires all proceeds from any Indian reservation be placed to the credit of
the Indians of the reservation. All other charges arising from licenses, except those charges
established by the FERC for administrative reimbursement, are paid to the U.S. Treasury and
allocated for specific uses. The Army is allocated 50 percent of charges from all licenses, except
licenses for the occupancy and use of public lands and national forests. These funds are
deposited in a special fund and used for maintenance, operation, and improvement of dams and
other navigation structures that are owned by the United States, or in construction, maintenance,
or operation of headwater, or other improvements to navigable waters of the United States.
Fund for NonFederal Use of Disposal Facilities (for dredged material), 33 USC 2326. Any
dredged material disposal facility under the jurisdiction of, or managed by, the Secretary of the
Army may be used by a nonfederal interest if the Secretary determines that such use will not
reduce the availability of the facility for project purposes. Fees may be imposed to recover
capital, operation, and maintenance costs associated with such use. Any monies received
through collection of fees under this law shall be available to, and used by, the Secretary of the
Army for the operation and maintenance of the disposal facility from which the fees were
collected.
South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund, Public Law 106-53 Sec.
603. Yearly transfers are made from the General Fund of the U.S. Treasury to the Trust Fund
for investment purposes. Investment activity is managed by the Bureau of the Public Debt
(BPD). The BPD purchases and redeems nonmarketable market-based securities. Investments
include one-day certificates, bonds, and notes. When the fund reaches the aggregate amount of
$108 million, withdrawals may be made by USACE for payment to the State of South Dakota.
The state uses the payments to fund annually-scheduled work for wildlife habitat restoration.

SECTION 2                                                                    Financial Information
                                                90
Department of Defense Agency Financial Report 2008
Coastal Wetlands Restoration Trust Fund and Coastal Wetlands Planning, Protection,
and Restoration Act, 16 USC 3951-3956. USACE (along with the Environmental Protection
Agency, and the Fish and Wildlife Service) is granted the authority to work with the State of
Louisiana to develop, review, evaluate, and approve a plan to achieve a goal of "no net loss of
wetlands" in coastal Louisiana. USACE is also responsible for allocating funds among the
named task force members. Federal contributions are established at 75 percent of project costs
or 85 percent if the state has an approved Coastal Wetlands Conservation Plan.
Rivers and Harbors Contributed and Advance Funds, 33 USC 701h, 702f, and 703.
Whenever any state or political subdivision offers to advance funds for a flood control project
duly adopted and authorized by law, the Secretary of the Army may, in his discretion, receive
such funds and expend them in the immediate prosecution of such work. The funding may be
used to construct, improve, and maintain levees, water outlets, flood control, debris removal,
rectification and enlargement of river channels, etc. in the course of flood control and river and
harbor maintenance.
Inland Waterways Trust Fund, 26 USC 9506. This law made the Inland Waterways Trust Fund
available for USACE expenditures for navigation, construction, and rehabilitation projects on
inland waterways. Collections for excise taxes from the public are made into the Trust Fund.
The collections are invested and investment activity is managed by the BPD. The BPD
purchases and redeems nonmarketable market-based securities. Investments include one-day
certificates, bonds, and notes.
Harbor Maintenance Trust Fund, 26 USC 9505. The USACE Civil Works mission is funded by
the Energy and Water Development Appropriations Act. The Water Resources Development Act
of 1986 covers a portion of USACE operations and maintenance costs for deep draft navigation.
The Harbor Maintenance Trust Fund is available for making expenditures to carry out the
functions specified in the Act and for the payment of all expenses of administration incurred by
the U.S. Treasury, USACE, and the Department of Commerce. Collections are made into the
Trust Fund from taxes collected from imports, domestics, passengers, and foreign trade. The
collections are invested and investment activity is managed by the Bureau of Public Debt.
Foreign National Employees Separation Pay Account Trust Fund, 10 USC 1581. This fund
makes payments from amounts obligated by the Secretary of Defense that remain unexpended
for separation pay for foreign national employees of the Department. The foreign national
employees’ separation pay funded by Foreign Military Sales administrative funds is maintained
as a separate fund.
Defense Commissary Agency Surcharge Trust Fund, 10 USC 2685. This fund was
established as the repository for the surcharge on sales of commissary goods paid for by
authorized patrons to finance certain operating expenses and capital purchases of the
Commissary System, which are precluded by law from being paid with appropriated funds. Most
Surcharge revenue is generated by the 5 percent surcharge applied to each sale. These funds
may be used to pay for commissary store-related information technology investments, to
purchase commissary equipment, to finance advance design modifications to prior year
projects, for both minor and major construction projects, and to maintain and repair commissary
facilities and equipment.
Education Benefit Fund, 10 USC 2006. This fund was established to finance, on an actuarially
sound basis, the liabilities of the Department’s education benefit programs for current and
former active duty, guard, and reserve members of the armed forces, and members of the
Coast Guard. Financing sources for the Education Benefit Fund are interest earnings on Fund
assets and monthly Department contributions.


SECTION 2                                                                   Financial Information
                                               91
Department of Defense Agency Financial Report 2008
Voluntary Separation Incentive Fund, 10 USC 1175. This fund was established to finance, on
an actuarially sound basis, the liabilities of the Department’s incentive program for early
separation from military service. Financing sources for the Voluntary Separation Incentive Fund
are interest earnings on Fund assets and annual Department contributions.
Military Housing Privatization Initiative, Public Law 104-106, Section 2801. The Military
Housing Privatization Initiative (MHPI) includes both direct loan and loan guarantee programs, is
authorized by the National Defense Authorization Act for FY 1996, and includes a series of
authorities that allow the Department to work with the private sector to renovate and build
military family housing. The MHPI accelerates the construction of new housing built to market
standard and leverages private sector capital with government dollars. The Department
provides protection to the private sector partner against specific risks, such as base closure or
member deployment.
Armament Retooling and Manufacturing Support Initiative, 10 USC 4551-4555. The
Armament Retooling and Manufacturing Support Initiative is a loan guarantee program designed
to incentivize commercial use of the Army's inactive ammunition plants for businesses willing to
locate to a government ammunition production facility. The production capacity of these facilities
is greater than current military requirements, however, this capacity may be needed in the
future. Revenue from property rentals are used to pay for the operation, maintenance and
environmental cleanup at the facilities.
Note 24. Other Disclosures

Other Disclosures                                                                   Dollars in Millions

                                                     2008 — Asset Category
                                 Land and
 As of September 30                             Equipment             Other              Total
                                 Buildings
Entity as Lessee – Operating Leases
   Future Payments Due
     Fiscal Year 2009          $        309.6 $        38.5 $             174.8    $           522.9
     Fiscal Year 2010                   291.8          35.3               178.7                505.8
     Fiscal Year 2011                   274.2          36.0               186.2                496.4
     Fiscal Year 2012                   244.7          19.9               194.1                458.7
     Fiscal Year 2013                   223.2           5.3               126.0                354.5
     After 5 Years                      364.5           0.0               131.9                496.4
   Total Future Lease
                               $      1,708.0 $       135.0 $             991.7 $           2,834.7
   Payments Due

Operating leases are leases that do not transfer all the benefits and risk of ownership of capital
leases. Payments are charged as expenses over the lease term. Office space is the largest
component of land and building leases. Other leases are generally one-year leases that are not
building or equipment leases. Future year cost projections use the Consumer Price Index.
Subsequent Event
On October 16, 2008 the Cost of Living Adjustment index of 5.8% was issued for the benefits
payments beginning January 1, 2009. The actuarial valuation model used to develop the
actuarial liability included on the balance sheet used the 6.2% projected index at the time the
liability was calculated. The Office of the Actuary estimates the impact of the reduction in the
index caused an overstatement to the actuarial liability of $3.0 billion. This overstatement is

SECTION 2                                                                     Financial Information
                                               92
Department of Defense Agency Financial Report 2008
included in the actuarial liability in the accompanying Balance Sheet and Statement of Net Cost
at September 20, 2008.
Note 25. Restatements
During the reporting period, the Department identified material errors and report presentation
changes. As a result, the Department made prior year changes in accordance with generally
accepted accounting principles.
Corrections Due to Accounting Errors
As a result of ongoing audit readiness efforts, the Department discovered $1.3 billion of contract
financing payments classified as expenses rather than assets due to legacy system
deficiencies. This error impacted other assets, expenses, unexpended appropriations,
cumulative results of operations, and net position. It impacted the Department’s Balance Sheet,
Statement of Net Cost, and Statement of Changes in Net Position. Refer to Note 6, Other
Assets, for additional details and disclosures.
On September 30, 2007, the military payroll due for disbursement on October 1st was
processed one day early. The payroll was not actually paid to the soldiers until October 1st even
though it appeared as disbursed in the Department’s system. Since the processing of the payroll
and the actual outlays for the payroll crossed over two fiscal years, the outlays in both fiscals
years were incorrectly stated (overstated in FY 2007 and understated in FY 2008) and required
correction. The restated amount of $1.3 billion impacted the Balance Sheet and Statement of
Budgetary Resources.
REPORT PRESENTATION CHANGE
At FY 2007, the Department presented a combined report of the DoD financial statements and
the financial statements of certain programs of the Executive Office of the President (EOP).
After consultation and guidance from the Office of Management and Budget (OMB), it was
determined that DoD would report on EOP programs administered by DoD separately from the
DoD financial statements. Based on the OMB Circular No. A-136 "Financial Reporting
Requirements,” it was further determined that only EOP activity resulting from allocation
transfers should be reported within the DoD financial statements. As a result, DoD changed its
financial report presentation to separately report the EOP reporting activity not resulting from
allocation transfers. The DoD continues to report activity resulting from EOP allocation transfers
within the DoD financial statements; and, effective FY 2008, reports other activity executed on
behalf of EOP in a separate report. Refer to the Defense Security Cooperation Agency
Unaudited Financial Statements available on the Comptroller Web site. (See Appendix B.)
Effect on Comparative Balances
The following chart reflects the cumulative effect on the Department’s balances reported in the
comparative period:




SECTION 2                                                                   Financial Information
                                               93
Department of Defense Agency Financial Report 2008

FY 2007 Balance Sheet                                           Dollars in Billions
Fund Balance with Treasury                           $                    (10.6)
Cash and Other Monetary Assets                                            (12.5)
Loans Receivable                                                           (3.0)
Other Assets                                                               (8.0)
Total Assets                                         $                    (34.1)

Debt                                                                       (2.9)
Other Liabilities                                                         (28.9)
Total Liabilities                                    $                    (31.8)

Net Position                                         $                      (2.3)
FY 2007 Statement of Net Cost                                   Dollars in Billions
Gross Costs                                                               (21.1)
Less: Earned Revenue                                                         0.1
Net Cost of Operations                               $                    (21.0)
FY 2007 Statement of Changes in Net Position                    Dollars in Billions

Cumulative Results of Operations
Budgetary Financing Sources:
   Appropriations used                                                      (4.4)
   Nonexchange revenue                                                    (16.6)
Other Financing Sources:
   Transfers–in/out without reimbursement                                       .1
Total Financing Sources                              $                    (20.9)
Net cost of Operations                               $                    (21.0)
Net Change                                           $                          .1
Unexpended Appropriations
Beginning Balances                                   $                      (1.8)
Budgetary Financing Sources:
   Appropriations Received                                                  (5.0)
   Appropriation used                                                         4.4
Total Budgetary Financing Sources                    $                        (.6)

Unexpended Appropriations                            $                      (2.4)
Net Position                                         $                      (2.3)




SECTION 2                                                Financial Information
                                            94
Department of Defense Agency Financial Report 2008

 FY 2007 Statement of Budgetary Resources                                        Dollars in Billions
 Comparative Year Effect for FY 2007
 Appropriation                                            $                                (20.8)
 Contract Authority                                                                        (48.0)
 Spending authority from offsetting collections
   Earned
       Collected                                                                            (0.9)
 Permanently Not Available                                                                   16.6
 Total Budgetary Resources                                $                                (53.1)

 Obligations                                                                               (53.1)
 Total Status of Budgetary Resources                      $                                (53.1)

 Gross Outlays                                                                             (20.3)
 Less: Offsetting Collections                                                                16.7
 Net Outlays                                              $                                 (3.6)


The following chart reflects the cumulative effect on the Department’s balances reported in the
current period:

 FY 2008 Statement of Changes in Net Position                                    Dollars in Billions
 Beginning Balance Change for FY 2008
 Cumulative Results of Operations
 Beginning Balances                                       $                                  (1.3)

 FY 2008 Statement of Budgetary Resources                                        Dollars in Billions
 Beginning Balance Change for FY 2008
 Unpaid Obligations, Brought Forward                      $                                (63.8)




SECTION 2                                                                 Financial Information
                                                  95
Department of Defense Agency Financial Report 2008

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
Federal financial reporting requires DoD to report on its stewardship over certain resources that
cannot be measured in traditional financial reports. These resources do not meet the criteria for
assets and liabilities required to be reported in the financial statements but are important to
understanding the operations and financial condition of DoD at the date of the financial
statements and in subsequent periods.
The Department’s stewardship investments comprise, and are measured in terms of, expense
incurred for: 1) federally-financed but not federally-owned physical property (Nonfederal
Physical Property); and 2) federally-financed research and development (Research and
Development). Information on additional reporting requirements for Nonfederal Physical
Property and Research and Development follows.
Nonfederal Physical Property
The Nonfederal Physical Property investments support the purchase, construction, or major
renovation of physical property owned by state and local governments. In addition, Nonfederal
Physical Property Investments include federally-owned physical property transferred to state
and local governments.
The Department continued transitioning to a new methodology for reporting Nonfederal Physical
Property during 2008. Investment values included in this report are based on Nonfederal Physical
Property outlays (expenditures). Outlays are used because current Department accounting
systems are unable to capture and summarize costs in accordance with federal accounting
standards.
Investments in Research and Development
Investment values included in this report are based on Research and Development outlays
(expenditures). Outlays are used because current Department accounting systems are unable to
capture and summarize costs in accordance with federal accounting standards. The Department
continues to improve its methodology for reporting this information. Research and Development
(R&D) programs are classified in the following categories: Basic Research, Applied Research and
Development. Therefore, the amounts reported in the Investments in R&D table show outlays
from FY 2006 – FY 2008 for all DoD Components. The definition for each type of Research and
Development Category and Subcategories are explained below.
Basic Research is the systematic study to gain knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without specific applications, processes, or
products in mind. Basic Research involves the gathering of a fuller knowledge or understanding
of the subject under study. Major outputs are scientific studies and research papers.


 Nonfederal Physical Property
 Department of Defense Consolidated — Nonfederal Physical Property
 Yearly Investments in State and Local Governments
 For Fiscal Years 2008 through 2004                                                                 Dollars in Millions
              Categories                               2008           2007       FY 2006     FY 2005       FY 2004
 Transferred Assets:
     National Defense Mission Related                $ 1,169.2       $ 1,051.0   $ 1,295.5   $ 1,394.7    $ 4,483.7
 Funded Assets:
     National Defense Mission Related                     19.6             2.8         8.5        8.3          18.3
 Total                                               $ 1,188.8       $ 1,053.8   $ 1,304.0   $ 1403.0     $ 4,502.0

SECTION 2                                                                                    Financial Information
                                                              96 

Department of Defense Agency Financial Report 2008
Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the practical
application of such knowledge or understanding for the purpose of meeting a recognized need.
This research points toward specific military needs with a view toward developing and
evaluating the feasibility and practicability of proposed solutions and determining their
parameters. Major outputs are scientific studies, investigations, and research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system to include
non-system-specific development efforts.
Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development consists of the five stages defined in the Investments is R&D table.
Advanced Technology Development is the systematic use of the knowledge or understanding
gained from research and directed toward proof of technological feasibility and assessment of
operational and productibility rather than directed toward the development of hardware for
service use. It employs demonstration activities intended to prove or test a technology or
method.
Advanced Component Development and Prototypes evaluates integrated technologies in as
realistic an operating environment as possible to assess the performance or cost reduction
potential of advanced technology. Programs in this phase are generally system specific. Major
outputs of Advanced Component Development and Prototypes are hardware and software
components, or complete weapon systems, ready for operational and developmental testing
and field use.


 Investments in Research and Development (R&D)
 Department of Defense Consolidated
 Yearly Investments in Research and Development
 For the Current and Four Preceding Fiscal Years                                         Dollars in Millions
          Categories                   2008         2007        FY 2006    FY 2005 (1)     FY 2004 (1)
 Basic Research                     $ 1,526.4      $ 1,331.2   $ 1,086.8    $ 1,107.2         $ 1,037.7

 Applied Research                      3,169.7       4,462.0     3,787.0       3,757.5           3,461.3

 Development
     Advanced Technology
                                       5,977.9       6,019.7     5,737.4       5,795.2           5,057.0
     Development
     Advanced Component
     Development and                 15,410.6       14,109.6    11,906.9     12,793.3           10,944.6
     Prototypes
     System Development
                                     18,052.9       16,737.8    13,209.8     12,253.1           10,834.8
     and Demonstration
     Research,
     Development, Test
                                       5,471.0       4,705.4     3,736.0       3,590.6           3,405.6
     and Evaluation
     Management Support
     Operational Systems
                                     20,246.7       13,535.1     5,509.8       5,334.6           5,134.1
     Development
 Totals:                            $69,855.2      $60,900.8   $44,973.7    $44,631.5         $39,875.1
 (1) Total amount available for obligations


SECTION 2                                                                        Financial Information
                                                        97 

Department of Defense Agency Financial Report 2008
System Development and Demonstration concludes the program or project and prepares it for
production. It consists primarily of preproduction efforts, such as logistics and repair studies.
Major outputs are weapons systems finalized for complete operational and developmental
testing.
Research, Development, Test, and Evaluation Management Support is support for installations
and operations for general research and development use. This category includes costs
associated with test ranges, military construction maintenance support for laboratories,
operation and maintenance of test aircraft and ships, and studies and analyses in support of the
Research and Development program.
Operational Systems Development is concerned with development projects in support of
programs or upgrades still in engineering and manufacturing development, which have received
approval for production, and for which production funds have been budgeted in subsequent
fiscal years.

REQUIRED SUPPLEMENTARY INFORMATION
Heritage Assets

 Heritage Assets
                                                                  2008
For Fiscal Year Ended                Measure       As of                                   As of
                                                                Additions   Deletions
September 30, 2008                   Quantity    10/1/2007                               9/30/2008
 Categories
 Buildings and Structures            Each              17,117       6,675       1,684        22,108
 Archeological Sites                 Each              27,955       1,411       2,208        27,158
 Museum Collection Items
                                     Each             113,269       4,012          85      117,196
 (Objects, Not Including Fine Art)
 Museum Collection Items
                                     Each              10,446         206         102        10,550
 (Fine Art)
Heritage Assets are items of historical, natural, and cultural, educational, or artistic significance
(e.g. aesthetic) or items with significant architectural characteristics. Heritage Assets are
expected to be preserved indefinitely. FY 2008 categories are as follows:
Buildings and Structures. Buildings and structures that are listed on, or eligible for listing on,
the National Register of Historic Places, including Multi-Use Heritage Assets.
Archeological Sites. Sites that have been identified, evaluated, and determined to be eligible
for or are listed on the National Register of Historic Places.
Museums Collection Items. Items which are unique for one or more of the following reasons:
historical or natural significance; cultural, educational or artistic importance; or significant
technical or architectural characteristics. Museum collection items are divided into two
subcategories: fine art and objects. Fine art includes paintings, sculptures, and other three-
dimensional art. Objects are current use, excess, obsolete, or condemned materiel; war
trophies; and personal property, such as uniforms, medals, or diaries, and military equipment.




SECTION 2                                                                      Financial Information
                                                 98
Department of Defense Agency Financial Report 2008

Stewardship Land

    Stewardship Land
    For Fiscal Year Ended September 30, 2007                                                             (Acres in Thousands)
    Facility                                                  As of                                                As of
                        Facility Title                                        Additions         Deletions
     Code                                                   10/1/2006                                            9/30/2007
     9110       Government Owned Land                           7,925.0              144.0                          8,069.0
     9111       State Owned Land                                  141.5                0.5                            142.0
     9120       Withdrawn Public land                          16,064.0               73.5                         16,137.5
     9130       Licensed and Permitted Land                     4,095.3                           (1,276.5)         2,818.8
     9140       Public Land                                       701.9                 3.8                           705.7
     9210       Land Easement                                     498.4                               (2.2)           496.1
     9220       In-leased Land                                  2,329.7                           (1,509.8)           819.9
     9230       Foreign Land                                      652.3                              (38.6)           613.7
     Grand Total                                                                                                   29,802.5
     TOTAL - All Other Lands                                                                                       12,817.3
                                                                       TOTAL – Stewardship Lands                    16,985.2
     Narrative Statement:
     The fiscal year ended September 30, 2008 stewardship land data will not be available until
     December 15, 2008 due to limitations of the Department’s financial and nonfinancial management processes and systems that
     feed into the financial statements.

Stewardship Land is land and land rights owned by the Department but not acquired for, or in
connection with, items of General Property, Plant, and Equipment. All land provided to the
Department from the public domain or at no cost, regardless of its use, is classified as
Stewardship Land.
Stewardship Land is presented in context of all categories of DoD lands and reported in acres
based on the predominant use of the land. The three categories of Stewardship Land held in
public trust are: State-Owned Land, Withdrawn Public-Land, and Public Land.
Real Property Deferred Maintenance

    Real Property Deferred Maintenance
    For Fiscal Year Ended September 30, 2008                                                               (Dollars in Millions)

                                                               Current Fiscal Year (CFY)
       Property Type                Plant Replacement                  Required Work
                                                                                                          Percentage
                                           Value                   (deferred maintenance)
     Category 1                                 $555,787                           $62,810                               11%
     Category 2                                  $52,190                            $7,854                               15%
     Category 3                                  $37,913                            $6,239                               16%

The deferred maintenance amount is based upon facility Q-ratings found in the Department’s real
property inventory. Q-ratings represent work needed to bring a facility to a fully serviceable
condition with no repair needs. The reported deferred maintenance is the difference between the
facility Q rating and the target Q rating that represents the acceptable operating condition
established by each Component within the Department. The percentage column reflects the
percent of total plant replacement value for each category represented by deferred maintenance.
Facility Categories are as follows:
•     Category 1: Buildings, Structures, and Utilities that are enduring and required to support an
      ongoing mission, including multi-use Heritage Assets.


SECTION 2                                                                                           Financial Information
                                                              99 

Department of Defense Agency Financial Report 2008
•	     Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned
       for replacement or disposal, including multi-use Heritage Assets.
•	     Category 3: Buildings, Structures, and Utilities that are Heritage Assets.
Military Equipment Deferred Maintenance
Depot maintenance requirements for military equipment are developed during the annual
budget process. The table below shows the deferred unfunded requirements for the depot
maintenance program. The Department Components’ FY 2008 Budget Estimates contain
detailed information on each program.

     Military Equipment Deferred Maintenance
     For Fiscal Year Ended September 30, 2008

      Major Categories                                                                (Dollars in Millions)
      1. Aircraft                                                                              $762.0
      2. Automotive Equipment                                                                     $1.0
      3. Combat Vehicles                                                                       $266.0
      4. Construction Equipment                                                                  $19.0
      5. Electronics and Communications Systems                                                 $456.2
      6. Missiles                                                                              $215.6
      7. Ships                                                                                   $35.9
      8. Ordnance Weapons and Munitions                                                          $50.6
      9. General Purpose Equipment                                                               $48.0
      10. All Other Items Not Identified to Above Categories                                  $1,339.6
      Total                                                                                   $3,193.9




SECTION 2	                                                                          Financial Information
                                                    100
Department of Defense Agency Financial Report 2008
                                                                                                                                                            2008
 Statement Of Disaggregated
                                                                       Medicare-
 Budgetary Resources                                                    Eligible         Research,                                                                                 Military
 For the Years Ended September 30, 2008 and 2007    Military            Retiree         Development,                          Operation                                          Construction/       Working
 Dollars in Millions
                                                   Retirement         Health Care         Test and             Civil             and                                Military        Family           Capital                           2008           2007
                                                     Fund                Fund            Evaluation           Works          Maintenance Procurement               Personnel       Housing            Funds            Other         Combined       Combined
Budgetary Resources
Unobligated balance, brought forward, October 1        $        0.0     $                $                $     9,648.2      $                   $    46,367.8   $                $    8,792.5   $                $                  $ 111,980.6    $    85,778.0
                                                                                             13,823.8                                                                 882.8                           6,813.9         15,839.2
Recoveries of prior year unpaid obligations                     0.0               0.0           4,325.7          580.1           9,812.4
                                                                                                                                   19,430.7           11,862.6        8,289.8          1,051.1          2,228.2           1,975.9       49,744.1         85,778.0
                                                                            0.0
Budget authority
 Appropriation                                             80,751.0         32,270.8          75,538.3          9,566.6          251,295.1           147,536.8       135,615.4        13,730.2         4,190.2         108,909.4       859,403.8        741,888.3
 Borrowing authority                                            0.0               0.0               0.0                0.0                 0.0             0.0             0.0             0.0             0.0                 0.0            0.0             0.0
 Contract authority                                             0.0               0.0               0.0                0.0                 0.0             0.0             0.0             0.0        78,927.9              (0.1)       78,927.8         68,668.0
 Spending authority from offsetting collections

Earned
   Collected                                                    0.0               0.0          9,631.0          9,841.0           25,972.4             3,160.0         1,029.5         5,716.6       117,605.6           1,536.9       174,493.0        164,627.1
   Change in receivables from Federal sources                   0.0               0.0            (82.1)         (195.3)                (38.0)             99.9          (43.2)          154.0            792.4             104.1           791.8         (1,277.6)
  Change in unfilled customer orders
                                                                0.0               0.0           (195.9)          522.0                 309.2            (70.5)             0.0          231.2            (94.9)             52.1           753.2            448.9
  Advance received
   Without advance from Federal sources                         0.0               0.0            (81.9)         1,477.1            1,186.9              749.9           (17.9)         1,837.7           529.8              (2.5)         5,679.1         5,994.0
   Expenditure transfers from trust funds                       0.0               0.0               0.0          766.0                     0.0             0.0             0.0             0.0             0.0                 0.0         766.0              0.0

  Subtotal                                                 80,751.0         32,270.8          84,809.4         21,977.4          278,725.6           151,476.1       136,583.8        21,669.7       201,951.0         110,599.9      1,120,814.7       980,348.7
Nonexpenditure transfers, net, anticipated
and actual                                                      0.0               0.0          1,480.2           182.8             6,025.2            16,731.0         1,011.4         (201.2)        (1,733.5)       (23,760.0)          (264.1)          (111.3)
Temporarily not available pursuant to
Public Law                                             (35,102.2)          (24,484.9)               0.0          (10.0)                    0.0             0.0             0.0             0.0             0.0            (352.3)      (59,949.4)       (33,819.5)
Permanently not available                                       0.0               0.0         (1,533.1)           (5.5)           (3,980.0)          (4,805.9)         (398.3)          (74.0)       (74,223.8)           (136.2)      (85,156.8)       (74,763.9)
Total Budgetary Resources                          $       45,648.8    $     7,785.9 $ 102,906.0          $    32,373.0      $ 310,013.9         $ 221,631.6     $ 146,369.5     $    31,238.1   $ 135,035.8      $ 104,166.5 $ 1,137,169.1 $ 1,002,294.5




SECTION 2                                                                                                                                                                                                                                  Financial Information
                                                                                                                                 101
                                                                                                                                       

Department of Defense Agency Financial Report 2008
                                                                                                                                                  2008
 Status Of Budgetary Resources                                    Medicare-
                                                                   Eligible          Research,                                                                           Military
 For the Years Ended September 30, 2008 and 2007
                                                    Military       Retiree          Development,                    Operation                                          Construction/         Working
 Dollars in Millions                               Retirement    Health Care          Test and                                                            Military        Family             Capital                          2008           2007
                                                                                                                       and
                                                     Fund           Fund             Evaluation     Civil Works    Maintenance Procurement               Personnel       Housing              Funds           Other         Combined       Combined
Obligations incurred:
 Direct                                            $ 45,648.8      $                 $ 76,279.6       $ 9,125.3    $ 271,478.9       $                 $ 144,550.1      $                     $             $ 90,666.8      $ 811,662.0    $ 719,463.4
                                                                       7,785.9                                                           152,984.3                          11,763.7            1,378.6
 Reimbursable                                             0.0               0.0        10,121.4        11,555.0       27,906.2              3,616.2          999.9            8,095.2         126,238.1        1,305.4         189,837.4     170,850.3
                                                     45,648.8           7,785.9        86,401.0        20,680.3      299,385.1            156,600.5      145,550.0           19,858.9          127,616.7      91,972.2       1,001,499.4     890,313.7
Subtotal
Unobligated balance:
 Apportioned                                              0.0            0.0           15,194.3       10,694.6         2,310.8          63,641.3              58.7        11,098.8           7,370.1           9,679.2         120,047.8       98,585.7
 Exempt from apportionment                                0.0            0.0                0.0          998.1             0.0               0.0               0.0             0.0              44.4              18.2           1,060.7        1,050.5
Subtotal                                                  0.0            0.0           15,194.3       11,692.7         2,310.8          63,641.3              58.7        11,098.8           7,414.5           9,697.4         121,108.5       99,636.2
Unobligated balance not available                         0.0            0.0            1,310.7            0.0         8,318.0           1,389.8             760.8           280.4               4.6           2,496.9          14,561.2       12,344.6
Total status of budgetary resources                $ 45,648.8      $ 7,785.9        $ 102,906.0     $ 32,373.0     $ 310,013.9       $ 221,631.6       $ 146,369.5      $ 31,238.1       $ 135,035.8       $ 104,166.5      $1,137,169.1   $1,002,294.5
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward,
                                                    $ 3,530.2          $             $ 39,037.5       $ 6,045.6    $ 107,560.1       $ 120,652.8          $ 8,593.0     $ 16,502.9        $                 $ 16,284.5      $ 372,558.6    $ 321,809.1
 October 1                                                                 368.8                                                                                                              53,983.2
 Less: Uncollected customer payments from
 Federal sources, brought forward, October 1               0.0                0.0       (5,637.0)      (4,136.3)     (11,872.3)            (2,753.3)          (22.4)         (7,013.7)        (28,675.3)         (21.0)       (60,131.3)     (55,414.9)
 Total unpaid obligated balance                     $ 3,530.2          $ 368.8       $ 33,400.5       $ 1,909.3     $ 95,687.8       $ 117,899.5          $ 8,570.6         $ 9,489.2        $ 25,307.9     $ 16,263.5      $ 312,427.3    $ 266,394.2
Obligations incurred net                              45,648.8           7,785.9        86,401.0        20,680.3      299,385.1         156,600.5          145,550.0          19,858.9         127,616.7       91,972.2      1,001,499.4      890,313.7
Less: Gross outlays                                 (45,819.7)         (7,914.6)      (80,805.9)      (16,752.9)    (265,407.4)       (117,023.7)        (137,194.5)        (13,762.9)       (120,950.5)     (86,563.3)      (892,195.4)    (794,701.2)
Obligated balance transferred, net
 Actual transfers, unpaid obligations (+/-)                0.0                0.0            0.0             0.0               0.0              0.0              0.0               0.0               0.0              0.0            0.0            0.0
 Actual transfers, uncollected customer
 payments from Federal sources                             0.0                0.0            0.0             0.0               0.0              0.0              0.0               0.0               0.0              0.0            0.0            0.0

 Total Unpaid obligated balance transferred,
 net                                                       0.0                0.0            0.0             0.0               0.0              0.0              0.0               0.0               0.0              0.0            0.0            0.0
Less: Recoveries of prior year unpaid
obligations, actual                                        0.0                0.0       (4,325.7)        (580.1)     (19,430.7)          (11,862.6)        (8,289.8)         (1,051.1)         (2,228.2)      (1,975.9)       (49,744.1)     (44,862.5)

Change in uncollected customer payments
from Federal sources                                       0.0                0.0          164.0       (1,281.8)      (1,148.9)             (849.8)            61.0          (1,991.7)         (1,322.2)        (101.5)        (6,470.9)      (4,716.4)

Obligated balance, net, end of period
 Unpaid obligations                                    3,359.3              240.1       40,306.9        9,392.9      122,107.1            148,367.0         8,658.7          21,547.8          58,421.2       19,717.5        432,118.5      372,559.1
 Less: Uncollected customer payments
 (+/-) from Federal sources                                0.0                0.0       (5,473.0)      (5,418.1)     (13,021.2)            (3,603.1)           38.6          (9,005.4)        (29,997.5)        (122.5)       (66,602.2)     (60,131.3)

 Total, unpaid obligated balance, net,
 end of period                                      $ 3,359.3          $ 240.1       $ 34,833.9       $ 3,974.8    $ 109,085.9       $ 144,763.9          $ 8,697.3     $ 12,542.4           $ 28,423.7     $ 19,595.0      $ 365,516.3    $ 312,427.8
Net
Net Outlays:
 Gross outlays                                     $ 45,819.7      $                 $ 80,805.9     $ 16,752.9     $ 265,407.4       $ 117,023.7       $ 137,194.5      $ 13,762.9       $                  $ 86,563.3      $ 892,195.4    $ 794,701.2
                                                                     7,914.6                                                                                                                 120,950.5
 Less: Offsetting collections                              0.0            0.0          (9,435.1)     (11,129.0)      (26,281.6)         (3,089.6)         (1,029.5)       (5,947.8)          (117,510.7)      (1,588.9)      (176,012.2)    (165,076.0)
 Less: Distributed Offsetting receipts              (46,187.0)     (20,774.9)                0.0        (638.9)             0.0               0.0               0.0             0.0                  0.0      (2,647.0)       (70,247.8)     (48,272.0)
 Net Outlays                                        $ (367.3)    $ (12,860.3)        $ 71,370.8      $ 4,985.0     $ 239,125.8       $ 113,934.1       $ 136,165.0       $ 7,815.1            $ 3,439.8     $ 82,327.4      $ 645,935.4    $ 581,353.2



SECTION 2                                                                                                                                                                                                                         Financial Information
                                                                                                                     102
                                                                                                                           

Department of Defense Agency Financial Report 2008

  Combined Statement Of Budgetary Resources                                 Budgetary                                                      Non Budgetary
  For the Years Ended September 30, 2008 and 2007
  Dollars in Millions                                   Other             2008 Combined           2007 Combined       Other                2008 Combined         2007 Combined
Budgetary Financing Accounts
Budgetary Resources
Unobligated balance, brought forward, October 1          $ 15,839.2           $                        $ 85,778.0             $                     $                       $ 31.5
                                                                                  111,980.6                                       25.5                  25.5
Recoveries of prior year unpaid obligations                     1,975.9             49,744.1              85,778.0                  0.0                   0.0                   0.0
Budget authority
 Appropriation                                             108,909.4               859,403.8             741,888.3                  0.0                   0.0                   0.0
 Borrowing authority                                                0.0                   0.0                  0.0                130.0                 130.0                 371.4
 Contract authority                                               (0.1)             78,927.8              68,668.0                  0.0                   0.0                   0.0
 Spending authority from offsetting collections

Earned
   Collected                                                    1,536.9            174,493.0             164,627.1                 53.9                  53.9                  13.6
    Change in receivables from Federal sources                   104.1                 791.8              (1,277.6)                 0.0                   0.0                   0.0
  Change in unfilled customer orders
                                                                  52.1                 753.2                 448.9                  0.0                   0.0                   0.0
  Advance received
   Without advance from Federal sources                           (2.5)               5,679.1              5,994.0                 12.6                  12.6                  53.5
   Expenditure transfers from trust funds                           0.0                766.0                   0.0                  0.0                   0.0                   0.0

  Subtotal                                                 110,599.9              1,120,814.7            980,348.7                196.5                 196.5                 438.5
Nonexpenditure transfers, net, anticipated and actual      (23,760.0)                 (264.1)               (111.3)                 0.0                   0.0                   0.0
Temporarily not available pursuant to Public Law                (352.3)            (59,949.4)            (33,819.5)                 0.0                   0.0                   0.0
Permanently not available                                       (136.2)            (85,156.8)            (74,763.9)               (27.6)                (27.6)                 (1.8)
Total Budgetary Resources                               $ 104,166.5          $ 1,137,169.1           $ 1,002,294.5        $ 194.4                  $ 194.4                 $ 468.2




SECTION 2                                                                                                                                                        Financial Information
                                                                                        103
                                                                                              

Department of Defense Agency Financial Report 2008

 Statement of Disaggregated Budgetary Resources                                Budgetary                                                      Non Budgetary
 For the Years Ended September 30, 2008 and 2007
                                                               Other         2008 Combined                 2007 Combined       Other          2008 Combined    2007 Combined
 Dollars in Millions
 Budgetary Financing Accounts
Obligations incurred:
 Direct                                                        $ 90,666.8      $                             $                  $                  $ 168.1           $
                                                                                   811,662.0                     719,463.4          168.1                                442.7
 Reimbursable                                                     1,305.4            189,837.4                    170,850.3            0.0             0.0                  0.0
                                                                 91,972.2          1,001,499.4                    890,313.7          168.1           168.1                442.7
Subtotal
Unobligated balance:
 Apportioned                                                      9,679.2            120,047.8                      98,585.7           0.3              0.3                 0.2
 Exempt from apportionment                                           18.2              1,060.7                       1,050.5           0.0              0.0                 0.0
                                                                  9,697.4            121,108.5                      99,636.2           0.3              0.3                 0.2
Subtotal
Unobligated balance not available                                 2,496.9             14,561.2                      12,344.6          26.0             26.0                25.3
Total status of budgetary resources                             104,166.5          1,137,169.1                   1,002,294.5         194.4            194.4               468.2
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward,
 October 1                                                       16,284.5           372,558.6                     321,809.1          768.0            768.0               378.5
 Less: Uncollected customer payments from
 Federal sources, brought forward, October 1                        (21.0)          (60,131.3)                    (55,414.9)        (130.4)          (130.4)              (76.9)
 Total unpaid obligated balance                                   16,263.5           312,427.3                     266,394.2          637.6            637.6              301.6
Obligations incurred net                                          91,972.2         1,001,499.4                     890,313.7          168.1            168.1              442.7
Less: Gross outlays                                             (86,563.3)         (892,195.4)                   (794,701.2)         (63.2)           (63.2)              (53.1)
Obligated balance transferred, net
 Actual transfers, unpaid obligations (+/-)                            0.0                 0.0                           0.0           0.0              0.0                 0.0
 Actual transfers, uncollected customer
                                                                       0.0                 0.0                           0.0
 payments from Federal sources                                                                                                         0.0              0.0                 0.0
 Total Unpaid obligated balance transferred ,net                       0.0                 0.0                           0.0           0.0              0.0                 0.0
Less: Recoveries of prior year unpaid
obligations, actual                                              (1,975.9)          (49,744.1)                    (44,862.5)            0.0              0.0                 0.0
Change in uncollected customer payments from Federal sources       (101.5)           (6,470.9)                     (4,716.4)         (12.6)           (12.6)              (53.5)
Obligated balance, net, end of period
 Unpaid obligations                                              19,717.5           432,118.5                     372,559.1          872.9            872.9               768.1
 Less: Uncollected customer payments
 (+/-) from Federal sources                                        (122.5)          (66,602.2)                    (60,131.3)        (143.0)          (143.0)             (130.4)
 Total, unpaid obligated balance, net, end of period             19,595.0           365,516.3                     312,427.8           729.9            729.9               637.7
Net
Net Outlays:
 Gross outlays                                                   86,563.3         892,195.4                     794,701.2           63.2               63.2              53.1
 Less: Offsetting collections                                    (1,588.9)      (176,012.2)                   (165,076.0)         (53.9)             (53.9)            (13.6)
 Less: Distributed Offsetting receipts                           (2,647.0)       (70,247.8)                    (48,272.0)            0.0                0.0               0.0
 Net Outlays                                                   $ 82,327.4      $ 645,935.4                   $ 581,353.2         $ (9.3)             $                $ 39.5
                                                                                                                                                       9.3




SECTION 2                                                                                                                                                       Financial Information
                                                                                                 104
                                                                                                       

Department of Defense Agency Financial Report 2008

Section 3: Other Accompanying Information
This section contains the DoD Inspector General’s summary of the most significant
management and performance challenges facing the Department, and the Department’s
response to the Inspector General’s assessment. This section also includes a summary of the
financial statement audit and management assurances, as well as a detailed report of the
Improper Payments Information Act of 2002.
The FY 2008 financial statements for programs of the Executive Office of the President (EOP)
are included in the “Defense Security Cooperation Agency Unaudited Financial Statements and
Notes” available on the DoD Comptroller Web site. (See Appendix B.) In FY 2007, DoD
financial statements included certain programs of EOP. Revised guidance from the Office of
Management and Budget (OMB) declared that these programs be reported separately from the
DoD financial statements. All other activities resulting from EOP allocation transfers are
reported within the DoD financial statements.

INSPECTOR GENERAL’S SUMMARY OF MANAGEMENT AND PERFORMANCE
CHALLENGES, AND MANAGEMENT’S RESPONSE TO INSPECTOR GENERAL’S
CHALLENGES
The Reports Consolidation Act of 2000 requires that the Agency Financial Report include a
statement prepared by the Agency’s Inspector General (IG) summarizing what the IG considers
the most serious management and performance challenges facing the Agency and briefly
assessing the progress in addressing those challenges. The DoD Inspector General identified the
following seven management and performance challenges facing the Department of Defense for
FY 2008:
1. Financial Management
2. Acquisition Processes and Contract Management
3. Joint Warfighting and Readiness
4. Information Assurance, Security, and Privacy
5. Health Care
6. Equipping and Training Iraqi and Afghan Security Forces
7. Nuclear Enterprise
The following table outlines these challenges and includes both the IG’s and DoD
management’s assessments of the Department’s progress in addressing these issues. Columns
A and B were prepared by the IG; Column C was prepared by the Department.
 1. FINANCIAL MANAGEMENT
 FINANCIAL STATEMENTS                                     A. IG Summary of Challenge
 The Department continues to face financial management challenges that adversely affect DoD’s ability to provide
 reliable, timely, and useful financial and managerial data needed to support operating, budgeting, and policy
 decisions. Since 1995, the Government Accountability Office has identified DoD’s Financial Management as a
 high-risk area. The DoD’s financial management problems are so significant, they constitute the single largest
 and most challenging impediment to the U.S. Government’s ability to obtain an opinion on its consolidated
 financial statements.
 In the FY 2007 audit opinion on DoD’s consolidated financial statements, the IG reported the same 12 material
 internal control weaknesses as the previous year, and added one additional material weakness. These pervasive
 and longstanding financial management issues directly affect the Department’s ability to obtain an unqualified
 opinion on its financial statements. These weaknesses affect the safeguarding of assets and proper use of funds,
 and impair the prevention and identification of fraud, waste, and abuse.



SECTION 3                                                                   Other Accompanying Information
                                                       105
Department of Defense Agency Financial Report 2008

 FINANCIAL STATEMENTS                                      B. IG Assessment of Progress
 One significant measure of the ongoing progress in the area of financial management would be the Department’s
 ability to obtain an unqualified opinion on its financial statements. The U.S. Army Corps of Engineers received a
 qualified opinion on its FY 2007 financial statements. While some agencies maintained their audit opinions, other
 agencies had their audit opinions downgraded. Specifically, the Defense Commissary Agency, Defense Contract
 Audit Agency, Defense Finance and Accounting Service, Military Retirement Fund, and Defense Office of the
 Inspector General all continued to receive unqualified opinions while the Medicare-Eligible Health Care Fund
 continued to receive a qualified audit opinion. However, the Defense Threat Reduction Agency received a
 qualified opinion from an independent public accounting firm, which the IG would not endorse because the
 problems identified were pervasive, and a disclaimer of opinion was more appropriate under these circumstances.
 In addition, the Chemical and Biological Defense Program received a disclaimer of opinion.
 Although DoD is far from reaching an unqualified opinion, the Department has demonstrated improvement.
 FINANCIAL STATEMENTS                                      C. Management’s Assessment
 The Department appreciates the opportunity to address the improvements in financial management being made
 throughout DoD. Our financial management challenges are pervasive and well documented. The Department’s
 goals are to correct its financial material weaknesses, improve financial information for decision-makers, and
 accomplish an unqualified audit opinion on the Department’s consolidated financial statements. The Department’s
 corrective action plan is provided in the Financial Improvement and Audit Readiness (FIAR) Plan, described in
 more detail in the next section.
 Significant progress in improving financial statements and achieving unqualified opinions has been made. In
 FY 2007, seven reporting entities received an audit opinion on their financial statements:
   • Defense Commissary Agency (Unqualified)
   • Defense Contract Audit Agency (Unqualified)
   • Defense Finance and Accounting Service (Unqualified)
   • Military Retirement Fund (Unqualified)
   • Office of the Inspector General (Unqualified)
   • Medicare-Eligible Retiree Health Care Fund (Qualified)
   • U.S. Army Corps of Engineers (Qualified)
 For the fourth consecutive year, the Department has received favorable audit reviews on the following
 Departmentwide financial statement line items:
   • Investments
   • Federal Employees’ Compensation Act Liabilities
   • Appropriations Received
 The Department is making substantial progress in achieving audit readiness. For example, USACE has been
 audited for the first time and received a qualified opinion. Audit readiness accomplishments in FY 2008 represent
 approximately $49 billion in assets and $241 billion in liabilities, as follows:
   • USACE received a qualified audit opinion on its FY 2007 and FY 2006 financial statements. This represents
     $44.6 billion in assets and $4.4 billion in liabilities.
   • An (Independent Public Auditor) IPA completed its examination of the TRICARE Management Activity’s
     (TMA) Contract Resource Management (CRM) ($1.3 billion in assets and $236.0 billion in liabilities), and
     validated the TMA’s assertion on audit readiness for the CRM Balance Sheet.
   • The TMA recently submitted two segment assertion packages: 1) the CRM Statement of Net Cost
     ($8.9 billion), Statement of Changes in Net Position (-$232.9 billion), and Statement of Budgetary Resources
     ($11.8 billion); and 2) the Uniformed Services University of the Health Sciences (USUHS) Statement of
     Budgetary Resources ($160.3 million).
   • The TMA recently awarded a contract for an IPA to perform an examination on the USUHS Balance Sheet
     ($151.6 million in assets and $10.3 million in liabilities), Statement of Net Cost ($158.3 million), and
     Statement of Changes in Net Position ($141.2 million).
   • The Defense Information Systems Agency’s (DISA) General and Working Fund Balance Sheets
     ($2.9 billion in assets and $1.1 billion in liabilities) are undergoing financial statement audit.




SECTION 3                                                                   Other Accompanying Information
                                                       106
Department of Defense Agency Financial Report 2008

 IMPROVING FINANCIAL STATEMENTS                             A. IG Summary of Challenge
 The following elements and actions continue to be key to improving the Department’s financial management:
   • Creating an environment that fully supports clean financial reporting. The financial managers need buy-in
     from senior management and personnel in the field offices to successfully implement the corrective action
     plans.
   • Fully implementing and maintaining an effective internal review and monitoring process to identify all
     material financial management and reporting deficiencies, internal control weaknesses, and quality of data
     issues.
   • Developing corrective action plans that will adequately correct the deficiencies and result in financial
     reporting in accordance with generally accepted accounting principles.
   • Implementing corrective action plans that address the systems, control, reporting, or quality of data
     weakness.

 IMPROVING FINANCIAL STATEMENTS                             B. IG Assessment of Progress
 The Department’s ongoing initiatives in the area of financial management improvement indicate DoD
 management is responding to the significant and pervasive financial management issues and is positioning itself
 to leverage planned systems and business improvements to achieve sustainable and long-term solutions. One
 initiative is the Financial Improvement and Audit Readiness (FIAR) Plan.
 As discussed in the March 2008 update to the FIAR Plan, the Department has refined the FIAR Plan’s audit
 strategy to validate and sustain financial improvements and audit readiness not across individual line items as
 previously done, but across segments of the business environment.
 Also new to this FIAR plan update is a clearer focus on a comprehensive business process framework as defined
 in the Department’s Business Enterprise Architecture. Implementation of the framework has begun across the
 following areas:
   • Acquire to Retire for Military Equipment (obtain, manage, and dispose of accountable property and capital
     assets).
   • Acquire to Retire for Real Property (obtain, manage, and dispose of accountable property and capital
     assets).
   • Hire to Retire (plan for, hire, develop, assign, sustain, and separate personnel resources).
    • Procure to Pay (obtain and pay for goods and services).
 DoD is tracking and reporting through Progress and Status Reports on each of the completed, ongoing and
 planned improvements in these areas.
 The IG considers the following DoD financial management efforts to be limited successes:
   • Implementation of integrated organizational structures and processes to address financial management
     improvement.
   • Assignment of accountability to DoD managers.
    • DoD improvement initiatives at the entity and line item level.
 Although the IG anticipates that DoD will need to make improvements in these areas, the IG considers these to
 be the critical steps for establishing a culture and ingrained structure that will enable DoD managers to identify
 internal control weaknesses and plan effectively for resolution of those weaknesses. This culture and structure
 also will hold DoD managers accountable for improving internal controls over financial reporting. Further, these
 steps should result in a financial management structure that can provide accurate, relevant, and timely financial
 management information for decision-making.
 Additionally, an overall shortage of qualified auditors and accountants continues to hinder progress on the
 challenges outlined above. Continual turnover of qualified staff who conduct audits at DoD Agencies and
 independent public accounting firms, and also turnover of qualified accounting staff to support financial functions
 and audits, is a formidable obstacle to the effective and efficient execution of those audits. The Department needs
 improved recruiting and retention practices, as well as robust training and continuity of operations planning to
 alleviate the problem.




SECTION 3                                                                    Other Accompanying Information
                                                        107
Department of Defense Agency Financial Report 2008

 IMPROVING FINANCIAL STATEMENTS                             C. Management’s Assessment
 The Department initiated the FIAR Plan in 2005 to accomplish three primary goals: 1) improve decision making by
 providing relevant, accurate, reliable, and timely financial information; 2) sustain improvements through a process
 of annual assessments and internal controls; and 3) achieve unqualified audit opinions on DoD annual financial
 statements. To accomplish these goals, DoD employs a strategy that unites financial management improvement
 with business transformation by integrating the FIAR Plan with the DoD Enterprise Transition Plan and Business
 Best Practices.
 When the FIAR effort began, DoD had to first establish cross-functional “buy in” to the goal of achieving
 auditability and develop in its functional workforce a basic familiarity with audit requirements. As the functional
 communities better understood audit requirements, and the financial community embraced long-term change, the
 FIAR Plan approach was expanded to focus financial improvement efforts within the business processes (e.g.,
 Acquire to Retire, Hire to Retire, Procure to Pay) that generate financial transactions.
 The FIAR approach:
   • Applies OMB Circular No. A-123, Appendix A, to confirm continued audit readiness.
   • Requires Component-level Financial Improvement Plans detailing the tasks and timelines for remediating
     business process issues negatively impacting auditability.
   • Structures improvement efforts and ensures consistency through the mandatory use of Business Rules.
   • Drives incremental progress through prioritized improvement objectives and segments.
   • Focuses improvement work on four essential elements of financial improvement (Policies, Processes &
      Controls,Systems & Data, and Audit Evidence).
 The Department has taken steps to ensure FIAR progress continues and to increase accountability and oversight of
 the accuracy of its financial statements and the plans to improve them by requiring the Secretaries of the Military
 Departments to certify to their accuracy and to report FIAR progress quarterly to the Deputy Secretary of Defense.
 The Department has been aggressively working to retain and hire highly qualified accountants and financial
 personnel, and is taking steps to improve the knowledge and competency of its financial community. During 2008,
 the Department, in partnership with the CFO Council, created the CFO Academy as part of the National Defense
 University.
 Note: The FIAR Plan and Enterprise Transition Plan provide details about the Department’s goals and
 accomplishments and are available on the DoD Comptroller Web site. (See Appendix B.)

 2. Acquisition Processes and Contract Management
 ACQUISITION WORKFORCE                                      A. IG Summary of Challenge
 Since 1990 and 1992, respectively, Government Accounting Office (GAO) has designated DoD Weapon Systems
 Acquisition and Contract Management as high-risk areas. Acquisition initiatives that began in the 1990s led to
 reductions in acquisition oversight assets and when the spending trend dramatically reversed after September
 11th, the Department was not able to quickly react to the need for more contract and oversight support. The
 emphasis on urgency to support the war effort, especially for contracting in an expeditionary environment, has
 only served to increase the challenges. In FY 2008, the Defense budget with war funding will approach
 $650 billion. This total is more than double the last DoD budget preceding September 11, 2001. Keeping pace
 with this spending would be a difficult proposition if acquisition and oversight assets were increasing at a
 proportional rate. But, from 1990 until the end of FY 1999, total personnel included in the DoD acquisition
 workforce decreased about 50 percent, from 460,516 to 230,556 personnel.
 As of May 2008, there were approximately 25,000 contracting officers to handle over $315 billion in procurements
 of goods and services. Other organizations, such as the Defense Contract Management Agency, which is
 responsible for much of the administration and surveillance of DoD contracts, decreased its staff levels by similar
 amounts during the same time frame. Even within the Inspector General’s office, we reported in our March 31,
 2008, growth plan that our auditors are unable to keep pace with the ballooning Defense budget and this growth
 “leaves the Department increasingly more vulnerable to fraud, waste and abuse.”
 ACQUISITION WORKFORCE                                      B. IG Assessment of Progress
 Progress in training and equipping more contract officials within DoD to handle the increased workload will take
 time. However, a number of initiatives are underway that are addressing the challenges, both within the
 Department and from proposed legislation, that should lead to improvement and better meet these challenges. A
 commission, headed by Dr. Jacques Gansler, evaluated the Army Expeditionary Contracting and recommended
 urgent reform. As a result, the U.S. Army Materiel Command activated the Army Contracting Command, which
 will oversee more than $85 billion in contracts annually and focus on maintaining and improving the Army's ability
 to respond globally in support of warfighters' needs.


SECTION 3                                                                    Other Accompanying Information
                                                        108
Department of Defense Agency Financial Report 2008

 ACQUISITION WORKFORCE                                      C. Management’s Assessment
 DoD had a number of acquisition excellence initiatives in process that addressed contracting and contract
 management issues prior to the Gansler Commission Report issued recommendations for improvements to Army
 Expeditionary Contracting. The DoD has integrated and aligned the appropriate recommendations from the
 Commission with the existing Departmentwide initiatives to ensure an integrated Departmentwide strategy for
 improving the acquisition workforce. The DoD Human Capital Strategic Plan will provide the necessary focus for
 these initiatives. The DoD Task Force for Contracting and Contract Management in Expeditionary Operations,
 created by the Under Secretary of Defense Acquisition, Technology and Logistics (USD(AT&L)) to evaluate the
 Commission recommendations, was integral in developing the long-term, enterprisewide solutions for contracting
 and contract management in expeditionary operations. They will continue to monitor the accomplishment of the
 various initiatives milestones over time, with oversight provided by the Senior Leaders Steering Committee
 established by the DUSD Acquisition and Technology (A&T).
 DoD initiatives to improve contingency contracting that predate or are independent of the Commission
 recommendations include: The increase in staffing in Defense Procurement and Acquisition Policy (DPAP)
 dedicated specifically to contracting in expeditionary operations. The DPAP development of the first-ever Joint
 Contingency Contracting Handbook, which provides essential tools and training for contingency contracting
 officers, and will be updated yearly. Draft Expeditionary Contracting Policy has also been developed, which forms
 a foundation for the handbook; DPAP coordinated the internal review and staffing of legislative proposals to
 provide solutions in areas where DoD lacked the authority to respond to Commission recommendations regarding
 additional general officer billets, increases in the number of contracting personnel and incentives for civilian
 personnel to pre-volunteer for expeditionary operations, and prepositioning of waivers of small business, U.S.
 labor, Buy American, Berry Amendment, and Specialty Metals provisions. The DoD has also established a
 business system team to leverage existing resources and knowledge to quickly provide electronic solutions for in-
 theater problems experienced in requirements generation, contract writing, invoicing, and the use of the
 Government Purchase Card.
 In addition to these initiatives, DoD has conducted a contracting competency assessment of all military and
 civilian members of the Departmentwide contracting workforce. Results of the contracting competency
 assessment will be finalized during the first quarter of FY 2009. These results will provide a complete inventory of
 competencies that exist in the Departmentwide contracting workforce, identify current and projected competency
 gaps, and support workforce development in ways best fitting the strengths and weaknesses of the workforce and
 the needs of the contracting mission. By using key data provided from the contracting workforce assessment and
 from the Components, and by linking this data to drive workforce planning solutions, the Departmentwide
 contracting community can better meet future requirements and respond to its stakeholders.
 DoD’s commitment to a long-range vision for improving the contracting and contract management process and
 the continued accomplishment of near-term initiatives should ensure both immediate and long-term improvements
 in contracting and contract management in expeditionary operations.
 In response to the FY 2008 NDAA, the Department established the DoD Acquisition Workforce Development
 Fund, which will be used for the recruitment, training, and retention of acquisition personnel for DoD. The fund
 ensures DoD’s acquisition workforce has the capacity, in both personnel and skills, to properly perform the
 acquisition mission, oversee contractor performance, and ensure the Department and taxpayer receives the best
 value for investment dollars.
 MAJOR WEAPON ACQUISITION                                   A. IG Summary of Challenge
 Challenges also continued with major acquisition programs. Many large weapons systems acquisitions are
 receiving Congressional scrutiny because of continued cost, schedule, and control problems. GAO reported
 between FY 2000 and FY 2007, the number of DoD major defense acquisition programs increased from 75 to 95,
 total planned commitments grew from $790 billion to $1.6 trillion, while the average schedule delay in delivering
 initial capabilities increased from 16 to 21 months.
 MAJOR WEAPON ACQUISITION                                   B. IG Assessment of Progress
 DoD also outlined a series of initiatives to the House Oversight Committee on acquisition improvements. Three
 recent studies produced 55 recommendations for improving acquisition processes. Of these, 48 have been fully
 or partially implemented. These initiatives include early and competitive prototyping, continuous improvement
 through use of process review tools, stability in program management tenure, use of capital funding and
 configuration steering boards, and a capital funding pilot program. Another proposed initiative to improve major
 acquisition programs would require all new efforts to move through a “material development decision” milestone
 and would shift the crucial Milestone B decision to later in the process.
 DoD continues to make limited progress in controlling cost and schedule of major acquisition programs and will
 have to make critical decisions about which systems should continue or be cut based on competing resources.
 The DDG 1000 is one recent example of a major system that succumbed to cost and schedule pressures.



SECTION 3                                                                     Other Accompanying Information
                                                        109
Department of Defense Agency Financial Report 2008

 MAJOR WEAPON ACQUISITION                                   C. Management’s Assessment
 The Department is pursuing a number of key initiatives designed to enhance the effectiveness of the DoD
 acquisition business process, and, consequently, improve cost, schedule, and performance outcomes.
 Examples follow:
 On September 19, 2007, the USD(AT&L) issued a policy memo requiring pending and future programs to
 implement a competitive prototyping approach. The policy is intended to reduce risk, validate designs, improve
 cost estimates, evaluate manufacturing processes and refine requirements.
 On July 30, 2007, the USD(AT&L) issued policy establishing Configuration Steering Boards (CSBs) for all current
 and future major defense acquisition programs. The purpose of a CSB is to review all requirements changes that
 have the potential to impact program cost and schedule; assess them; and accept, reject, or defer them to future
 increments of capability.
 The USD(AT&L) and the Director, Operational Test and Evaluation issued a policy memorandum on December
 22, 2007, emphasizing the integration of developmental and operational testing to maximize Test and Evaluation
 process efficiency.
 These policies are being institutionalized via the ongoing update to DoD Acquisition Policy [DoDI 5000.02]. In
 addition, a number of new policies are being considered via the update. These include the requirement for a
 formal acquisition process entry point, the Materiel Development Decision, and the requirement for preliminary
 designs prior to Milestone B, system development.
 CONTRACTING AND THE IMPACT ON
                                                            A. IG Summary of Challenge
 DECISION MAKING
 Dealing with the decreasing acquisition workforce has created a myriad of other challenges.
 The Department has increasingly relied on interagency contracting and use of contractors to fill the gap from the
 reduced acquisition and oversight workforce, bordering on inherently governmental functions, thereby potentially
 taking on decision-making roles. Key areas where use of contractor support has bordered on inherently
 government functions impacting decision making include: strategic planning within programs and organizations;
 acquisition planning for specific acquisitions; source selection assistance and source selection decision making;
 contract administration and surveillance; and contractor testing of systems and weapons in which they participate
 in the development.
 Our recent audit coverage has found a number of problems with use of interagency contracting, including lack of
 competition, inadequate price reasonableness determinations, and insufficient surveillance. In addition, the use of
 contractors has raised concerns about contractor ethics requirements and conflicts of interest.
 Distorted use of acquisition initiatives such as commercial item procurements to achieve speed and reduce
 oversight in procurements continues to challenge contracting officials and the oversight community. Use of
 commercial items is beneficial when there is an established market to allow contracting officials to use the
 marketplace to establish price reasonableness for the items we buy. It also reduces the need for Government
 quality assurance when the Department can rely on a well-established commercial quality assurance program.
 However, the broad definition of commercial items that includes items that are not commercial items, but are “of a
 type” or have not been in the marketplace, such as items offered to the public or items that will be available in
 time to meet the Government’s needs, cause significant challenges to ensure reasonable prices and sufficient
 quality assurance practices.
 CONTRACTING AND THE IMPACT ON
                                                            B. IG Assessment of Progress
 DECISION MAKING
 The Under Secretary of Defense for Acquisition, Technology and Logistics, and the Under Secretary of Defense
 (Comptroller)/Chief Financial Officer (USD[C]/CFO) have taken a series of corrective actions to improve systemic
 problems that our audits disclosed on interagency contracting. Each Under Secretary issues policy memoranda to
 implement actions based on our recommendations, and the USD (C)/CFO formed a task force to review the
 potential Antideficiency Act Violations we reported.
 In addition, Section 813 of the John Warner National Defense Authorization Act (NDAA) for FY 2007 directed the
 Department of Defense to establish a Panel on Contracting Integrity. The panel consisting of senior leaders is
 focused on eliminating areas of vulnerability in contracting that allow fraud, waste, and abuse. The committee has
 established subcommittees in the areas of sustained senior leadership, capable contracting workforce, adequate
 pricing, appropriate contracting approaches, and techniques, sufficient contract surveillance, contracting integrity
 in a contingent environment, procurement fraud indicators, and contractor employee conflicts of interest. Initially,
 the Panel has developed 21 recommendations and is working on actions to improve the contracting process.
 House and Senate proposed bills also address defining inherently governmental functions, tightening
 requirements on conflict of interest by contractor personnel disclosures, increasing contractor accountability, and
 curbing commercial item authorities.


SECTION 3                                                                     Other Accompanying Information
                                                        110
Department of Defense Agency Financial Report 2008

 CONTRACTING AND THE IMPACT ON
                                                            C. Management’s Assessment
 DECISION MAKING
 The Department has issued several policies regarding the use of interagency acquisition. Included in the policy
 guidance were specific process requirements addressing identified deficiencies in the interagency acquisition
 process. These included:
   • Eliminating the use of advance payments (March 1, 2007).
    • Requiring contracting officer review of nonEconomy Act transactions in excess of $500,000 (October 16,
      2006, and January 18, 2008).
 In addition, the Department provided the following tools to the acquisition workforce in this area:
   • Assisted the OMB Office of Federal Procurement Policy in the development and issuance of an Interagency
     Acquisition Guide, entitled “Improving the Management and Use of Interagency Acquisitions (June 8, 2008).”
    • The Department developed and fielded a continuous learning module (February 1, 2008).
 Additionally, in accordance with Section 811 of the 2006 National Defense Authorization Act, the Department took
 specific action to review each transaction in excess of $100,000 that was to be issued on behalf of DoD by the
 Department of the Interior’s acquisition office in Herndon, Virginia. This limitation was subsequently rescinded,
 except for one minor exception.
 The Panel continues to make good progress, with five implemented actions and more than half of the actions in
 coordination. Nine additional actions were identified on May 22, 2008. To date, the panel has implemented
 policies on senior contracting leadership positions and succession plans; coordinated contract policy execution
 review plans to address many issues noted in audits; leveraged other training to improve Army training in
 contingency contracting; issued a Contingency Contracting Training handbook; incorporated procurement fraud
 indicator training and Contracting Officer’s Representative (COR) training in Contingency Contracting; developed
 a new DAU Contingency Contracting Class; and completed several measures to improve Competition Advocacy
 and Fair Opportunity. Three legislative proposals and one proposed DFARs clause are pending other actions, but
 the Panel fully expects to implement the other actions during this calendar year. Highlights will include DoD COR
 certification standards and a COR policy memorandum, significant documentation to improve the contracting
 workforce, an interagency acquisition policy memorandum, and a memorandum regarding separation of duties.
 The Panel will address tightening requirements on conflict of interest through the use of contractor personnel
 disclosures, increasing contractor accountability, and mitigating risks of personal services contracts.

 3. JOINT WARFIGHTING AND READINESS
 JOINT WARFIGHTING AND READINESS                            A. IG Summary of Challenge
 The challenge of Joint Warfighting and Readiness is to provide the right force, the right personnel, and the right
 equipment and supplies in the right place, at the right time, and in the right quantity, across the full range of
 military operations. This challenge is compounded by the strain on resources as a result of Operation Iraqi
 Freedom and Operation Enduring Freedom. Furthermore, this challenge encompasses the need for the services
 and allies to be interoperable, communicate with each other effectively, share data when necessary, and train
 together when possible. It also, encompasses the need to ensure that basic services continue uninterrupted for
 the members of the armed forces and their families. The other management challenges encompass areas that
 support the ability of the United States to conduct joint warfighting and readiness issues. The synergy of those
 other management challenges will shape the United States’ ability to achieve its national objectives through joint
 operations.
 JOINT WARFIGHTING AND READINESS                            B. IG Assessment of Progress
 The Department is making progress on the issue of Joint Warfighting and Readiness, but that progress must be
 monitored to ensure it continues. The Department cannot afford to ignore new, and in some cases recurring,
 situations that will require its attention. For example, the ongoing efforts to relocate service members to Guam
 and other locations around the globe will enable the armed forces to better shape and focus their force structure
 in a way that will provide greater flexibility in responding to threats. However, some challenges facing the
 Department were evident during reviews pertaining to the reset of Army equipment returning from Operation Iraqi
 Freedom (OIF) and the training of DoD ground forces supporting OIF.




SECTION 3                                                                    Other Accompanying Information
                                                        111
Department of Defense Agency Financial Report 2008

 JOINT WARFIGHTING AND READINESS                             C. Management’s Assessment
 The Department’s main focus remains on achieving success in ongoing operations. To accomplish this, a number
 of initiatives over the past few years continue to reap dividends. Our Global Force Management (GFM) processes
 allow us to effectively meet current operational demands with mission-ready forces. Recognizing the current
 operational demands stresses particular skill sets, GFM processes aid us in identifying and then training in-lieu-of
 forces to great effect thereby mitigating the strain on the overall force. Also, the emerging Defense Readiness
 Reporting System will provide access to more comprehensive readiness data in greater detail, and promises to
 improve support to our operational decision-making capability. Furthermore, we know the Department recruits
 individuals but retains the family, therefore high priority is given to those services that support our soldiers,
 sailors, airmen, Marines and their families.
 ALIGNMENT OF RESOURCES                                      A. IG Summary of Challenge
 While U.S. forces continue to operate around the world, changes are underway to better align the resources of
 the Department to benefit the warfighters, wherever they are. Those changes have taken a variety of forms, not
 the least of which is the improvement of the tools used to fight the enemies of the United States. The
 Department’s available resources are finite and require constant monitoring of our abilities and of the world
 situation to enable the Department to successfully operate on a global scale. The combination of these various
 factors continues to challenge the Department.
 ALIGNMENT OF RESOURCES                                      B. IG Assessment of Progress
 During our review of the Army’s technical inspection process for the reset of unit equipment returning from OIF,
 we concluded that the process was generally effective. However, inconsistencies occurred among redeploying
 units in the conduct of technical inspections, the granting of exemptions from automatic reset induction, and the
 reporting of reset equipment. As a result, units returning from OIF in the coming years will not use a standard
 method for initiating repair or replacement. Items needing reset may be delayed in entering the national-level
 reset pool. Exempting equipment reduces availability and creates difficulties in the redistribution of equipment to
 higher priority units. Additionally, reset status reporting may not provide decision makers with complete and
 consistent information. The Army continues to address issues and risks regarding the reset of equipment.
 ALIGNMENT OF RESOURCES                                      C. Management’s Assessment
 Reset is a critical component of joint force readiness. Understanding the health of our weapon systems and the
 effect resourcing has on that health can be enhanced by taking a view across the Services through logistics portfolio
 management. Capability area managers are beginning to assess resourcing strategies and risk mitigation across the
 enterprise to improve our understanding of the appropriate alignment of resources to maximize readiness.
 TRANSFORMING THE ARMED SERVICES                             A. IG Summary of Challenge
 The demands placed on the Armed Forces over the past few years have been extensive, but our military is
 unwavering in its focus on, and resolve and dedication to, peace and freedom. With the Congress’ continued
 strong support, the military will continue to effectively combat terrorism, counter the proliferation of weapons of
 mass destruction, help Iraq and Afghanistan build a stable and secure future, improve joint warfighting
 capabilities, and transform the Armed Forces to meet future threats.
 Pre-deployment training of individual Augmentees for mentoring missions in Afghanistan and Iraq calls for a new
 approach to provide specialized preparation for these nontraditional missions. Combined and coalition operations
 require improved coordination of training priorities with our Coalition or International Security Assistance Force
 (ISAF) partners.
 TRANSFORMING THE ARMED SERVICES                             B. IG Assessment of Progress
 In the last 3 years, the Army has been transforming its traditionally division-centric force to a more flexible, agile
 force. Part of this transition has included a restructuring of the Operations Groups, specifically Observer/
 Controllers, at Army Maneuver Combat Training Centers. While Army Maneuver Combat Training Centers
 (MCTC) have successfully trained U.S. ground forces to deploy in support of OIF, future training of U.S. ground
 forces could be negatively impacted due to planned restructuring of Army MCTC Operations Groups. This is
 because current Army manning guidance will not support future changes to staffing of Observer/Controllers at
 Army MCTCs. As a result, U.S. ground forces training to deploy in support of OIF may not receive the most
 realistic training and may not receive feedback that could be critical to the success of their mission. The Army
 recognizes this risk and is currently reviewing the Active Component Manning Guidance.
 The Services have incorporated 14 theater-specific areas into their pre-deployment and annual training
 requirements. In addition, the Services effectively collected information from a variety of sources and regularly
 updated pre-deployment training. As a result, the Services generally provided realistic, theater-inspired training for
 units deploying in support of OIF. However, predeployment training for logistics and medical mentoring missions
 in Afghanistan and Iraq has not received the appropriate attention from the Geographic Combatant Commander
 or the Services.


SECTION 3                                                                      Other Accompanying Information
                                                         112
Department of Defense Agency Financial Report 2008

 TRANSFORMING THE ARMED SERVICES                             C. Management’s Assessment
 Our Armed forces continue to transform effectively to meet today's dynamic and volatile environment. Concurrent
 with transformation, the Services train and certify their forces prior to deployment to any contingency area. Despite
 changes in U.S. ground force combat structure, the Army's Maneuver Combat Training Centers (MCTC) have
 adapted well to meet the demand for maneuver units. However, training of specialized support units and security
 assistance mission units has been more challenging. To overcome these shortcomings, the MCTCs and other
 Service training centers are evolving to incorporate lessons learned from theater. Feedback obtained from all
 Services and the Combatant Commands is shared through the Joint Lessons Learned Information Systems (JLLIS).
 The Department continues to adapt its training transformation initiatives for the benefit of the Services and Joint
 Forces. The Joint Warfare Fighting Center (JWFC) of the Joint Forces Command (JFCOM) supports individual
 augmentees (IAs) with a number of distance learning courses available through the Joint Knowledge
 Development Distribution Capability (JKDDC). Additionally, JWFC assists combatant commanders in certifying
 Joint Task Force Headquarters (JTF) in emerging missions through the Joint National Training Capabilities
 (JNTC) and Joint Headquarters exercises. These efforts continue as we transform forces while adapting to the
 dynamic environment in which they fight.
 TRANSFORMING LOGISTIC CAPABILITIES                          A. IG Summary of Challenge
 Transformation of logistics capabilities poses a significant challenge to the Department. The Department’s
 transformed logistics capabilities must support future joint forces that are fully integrated, expeditionary,
 networked, decentralized, adaptable, capable of decision superiority, and increasingly lethal. Additionally,
 transformed logistics capabilities must support future joint force operations that are continuous and distributed
 across the full range of military operations. Supply chain management is a challenge for the Department. Since
 1990, GAO has identified supply chain management as a high-risk area because of weaknesses uncovered in
 key aspects, such as distribution, inventory management, and asset visibility. It has reported on numerous
 problems associated with supply chain management such as shortages of items caused by inaccurate or
 inadequately funded war reserve requirements and DoD’s lack of visibility and control over the supplies and spare
 parts it owns.
 TRANSFORMING LOGISTIC CAPABILITIES                          B. IG Assessment of Progress
 The Department has made progress toward meeting its goal of transforming logistics through numerous
 initiatives. However, that progress is tempered by the sheer magnitude of logistics operations that will continue to
 make it a long-term challenge.
 The Assistant Secretary of the Army for Acquisition, Logistics, and Technology activated the Program Executive
 Office Soldier (PEO Soldier) in April 2002 to develop, acquire, field, and sustain everything the soldier wears,
 carries, and operates to increase combat effectiveness. The Army viewed the soldier as a system and began
 taking a more strategic approach to designing, producing, and fielding clothing and individual equipment. PEO
 Soldier requested and used emergency supplemental Operational and Maintenance funds in FY 2006 of
 $221 million and $177 million in FY 2007 to provide Rapid Fielding Initiative items to soldiers who did not and
 were not scheduled to deploy in support of contingency operations. Army Officials took these actions because its
 managers believed that Rapid Fielding Initiative items qualified for emergency supplemental funds.
 As a result, PEO Soldier used about $221 million in emergency supplemental funds during FY 2006 to provide
 RFI items to about 125,000 soldiers who had not deployed and were not scheduled to deploy in support of
 contingency operations. Additionally, PEO Soldier’s records as of October 2006 showed that during the first 5
 months of FY 2007 the Program Office planned to provide these items to about 100,000 soldiers who were not
 scheduled to deploy at a cost of about $177 million.
 TRANSFORMING LOGISTIC CAPABILITIES                          C. Management’s Assessment
 The Department continues to improve supply chain management. In July 2005, the Department developed the
 DoD Supply Chain Management High Risk Improvement Plan, which was endorsed as a template for use by
 other high-risk area owners in developing their plans. The Department’s goals are to ensure continuous
 improvement in the area of Supply Chain Management by implementing the DoD Supply Chain Management
 High Risk Improvement Plan initiatives; publishing a roadmap for use in developing future improvement
 recommendations; monitoring supply chain management improvement; and implementing Supply & Storage Base
 Realignment and Closure.
 The Department also continues to improve its management of the logistics process with many projects to improve
 asset visibility throughout the worldwide supply chain. For example, The Joint Supply Chain Architecture (JSCA)
 project crosses Service organizational and funding boundaries to improve supply chain effectiveness and
 efficiency. It employs an enterprisewide, end-to-end perspective to achieve or improve logistics readiness across
 DoD. The project outlines the Joint supply chain; develops supply chain terms of reference (lexicon); delivers
 supply chain process architecture using industry’s Supply Chain Operations Reference (SCOR) Model; and
 develops supply chain metrics. Ultimately, the JSCA could realize improved readiness and cost savings.


SECTION 3                                                                      Other Accompanying Information
                                                         113
Department of Defense Agency Financial Report 2008
 An example of a Logistics transformation initiative is the Defense Transportation Coordination Initiative (DTCI).
 The Department is implementing DTCI with a world class coordinator of transportation management services in
 the Continental United States. The DTCI incorporates best commercial practices to improve the reliability,
 predictability, and efficiency of DoD materiel movement. The Department anticipates cost avoidances estimated
 at $40 to 60 million beginning in FY 2009, as more sites implement DTCI.

 4. INFORMATION ASSURANCE, SECURITY AND PRIVACY
 RISK MANAGEMENT                                               A. IG Summary of Challenge
 Ensuring that a robust risk management, security, and information assurance program is in place is a significant
 on-going challenge to the Department. Such a program includes periodic risk assessments; physical and
 information security awareness training; security policies, procedures, and practices, as well as tests of their
 effectiveness; procedures for addressing deficiencies and for detecting, reporting, and responding to security
 incidents and privacy data breaches; and ensuring the continuity of operations.
 The Department also faces the challenge of ensuring that security and privacy protections are not compromised
 by advances in technology, while also taking advantage of those advances to enhance collaboration and sharing
 of time-sensitive information.
 RISK MANAGEMENT                                               B. IG Assessment of Progress
 The Department made little improvement during the course of FY 2008 in its information assurance and security
 posture. Previous issues have been exacerbated by ongoing losses of government data, to include privacy and
 sensitive but unclassified data, and the lack of clear DoD policy regarding protection of such data and the
 reporting of incidents regarding its compromise. Of particular concern is protection of DoD information in the
 hands of contractors, to include all members of the Defense Industrial Base, and other nonDoD entities such as
 foreign, state, local and tribal governmental entities.
 RISK MANAGEMENT                                               C. Management’s Assessment
 The Department has made significant advances in FY 2008 to improve information assurance (IA) and security
 posture. These include:
    • Expanding enterprise rollout of vulnerability scanning and remediation tools to reduce system and network
      vulnerabilities.
    • Increasing enterprisewide deployment of the Host-Based Security System.
    • Awarding an enterprise contract for an insider threat focused tool to permit detailed analysis of user activities.
    • Establishing BPAs for data at rest encryption products to facilitate the protection of sensitive data, both
      through disk encryption and file encryption.
    • Making progress in certifying 40 percent of the IA workforce by the end of 2008 to ensure the Department
      has personnel with proven knowledge in securing the systems.
    • Completing the security redesign of the public facing internet firewalls to limit internet access into DoD networks.
 The Department has recently issued policies specifically addressing the protection of sensitive data, including
 personally identifiable information (PII) and controlled unclassified information (CUI). Given the lag time between
 issuance of a DoD policy and evidence of quantifiable effects, the impact of these policies started to become
 apparent during FY 2008. Policies addressing the protection of sensitive data include:
   • DoD Chief Information Officer (CIO) policy memorandum, “Guidance on Protecting Personally Identifiable
       Information,” August 18, 2006.
   • Secretary of Defense memorandum, “Information Security/Website Alert,” August 6, 2006.
   • DoD Senior Privacy Official policy memorandum, “Safeguarding Personally Identifiable Information,” June 15,
       2006.
   • DoD CIO policy memorandum, “Encryption of Sensitive Unclassified Data at Rest on Mobile Computing
       Devices and Removable Storage Media,” July 3, 2007.
   • Numerous Security Technical Implementation Guides addressing insecure technologies and mitigation of
       vulnerabilities.
 The OMB Memorandum M-06-19 and guidance at www.us-cert.gov requires agencies to report to the U.S.
 Computer Emergency Readiness Team (US CERT) within one hour of receiving the notification of PII loss. The
 Defense senior privacy official requires organizations to report within 24 hours to the DoD Component Privacy
 Office/Point of Contact (POC) and within 48 hours to the DoD Privacy Office.
 The Department is also responding to the challenges of ensuring security and privacy protections by continuing to
 work closely with the commercial sector. We expect to evaluate and adopt for use sophisticated “controlled
 sharing” capabilities emerging from the commercial sector.


SECTION 3                                                                        Other Accompanying Information
                                                           114
Department of Defense Agency Financial Report 2008

 PROTECTING DOD INFORMATION                                  A. IG Summary of Challenge
 One of the major challenges identified last year was protection of DoD information in the hands of contractors and
 the appropriate response to data breaches involving both privacy-protected data, such as personally-identifiable
 information, and sensitive but unclassified information, such as contractor proprietary information. This challenge
 continues and is amplified by challenges associated with continued critical inaccuracies in the DoD database
 used for oversight of the DoD information system inventory. Further, DoD has made very limited progress in
 developing a Homeland Security Presidential Directive-12 compliant Personal Identity Verification credential,
 thereby failing to take advantage of possible enhancements to the DoD physical and logical access security
 programs.
 PROTECTING DOD INFORMATION                                  B. IG Assessment of Progress
 Longstanding issues impeding improved security of DoD operations have not been addressed. The Department
 continues to lack an accurate, authoritative data repository for information regarding DoD systems, and does not
 have a requirement for an inventory of systems containing DoD information operated by contractors and other
 nonDoD entities. This fundamental inadequacy renders nearly all metrics regarding DoD information security
 meaningless as there is no possibility of meaningful management oversight and verification of reported data. This
 inadequacy applies to all information assurance programs, as well as all privacy programs. Further, DoD has yet
 to develop a Homeland Security Presidential Directive-12 compliant Personal Identity Verification credential, thus
 failing to achieve the possible benefits of utilizing such a credential for logical and physical access envisioned by
 the 2004 Presidential Directive. In addition, internal controls over card stock for existing DoD identification
 credentials are inadequate.
 PROTECTING DOD INFORMATION                                  C. Management’s Assessment
 Contractor systems that are under DoD control, i.e., those operated on behalf of the Department, are treated the
 same as DoD-owned systems and are subject to all DoD IA policies and requirements. However, it is not feasible
 nor practical to require contractor systems that are not operating on behalf of the Department but may contain
 some DoD information because of a business relationship with the Department to comply with all DoD IA policies.
 By the IG’s own estimate, there are some 46,000 such systems in the commercial sector. The Department does
 recognize a need for more definitive guidance in this challenging area and is in the final stages of formal
 coordination of a DoD CIO policy memorandum specifying steps that must be taken to ensure greater and more
 consistent protection of DoD information in the possession of contractors doing business with the Department.
 The Department is breaking new ground with this policy, as we know of no other government policy or guidance
 that addresses this issue.
 The Department is leading an extensive effort to implement automated application controls which prevent the
 introduction of inconsistent data into the DoD Information Technology Portfolio Repository (DITPR) and performs
 periodic scans of DITPR to ensure accuracy. Additional user guidance to clarify the business rules and simplify
 use has been developed. The annual FISMA Reporting Guidance also directs Components to include the total
 number of operational systems that are Contractor Owned and Contractor Operated (COCO) on behalf of DoD
 and Contractor Owned and Government (DoD) Operated (COGO). As a part of the overall IA compliance
 program, the Department has ongoing programs to assess and verify the accuracy and completeness of reports
 by the Components.
 As outlined in the OMB-approved DoD HSPD-12 Implementation Plans, OMB recognized that the Department’s
 requirement to transition to HSPD-12 from an already deployed operational program is different from deploying a
 new system. Over 600,000 DoD Common Access Card (CAC) Personal Identity Verification (PIV) transitional
 credentials have been issued. These are in addition to the 3.5 million nonPIV cards that the Department uses
 daily to access unclassified networks, secure Web sites, and bases/installations around the world. This is the
 reason Federal Information Processing Standard (FIPS) 201 allows for a transitional card, as well as the reason
 OMB approved the DoD HSPD-12 Implementation Plan. The Department’s plan is focused on minimizing any
 adverse effects to the Department’s 3.5 million daily users and minimizing the disruption of services during and
 after the transition. The Department will conduct General Services Administration (GSA)-approved conformance
 testing by the end of calendar year 2008 as it migrates from PIV transitional implementation to PIV end-state.




SECTION 3                                                                      Other Accompanying Information
                                                         115
Department of Defense Agency Financial Report 2008

 5. HEALTH CARE
 IMPROVED HEALTH CARE                                        A. IG Summary of Challenge
 The DoD Military Health System must provide quality care for approximately 9.2 million eligible beneficiaries
 within fiscal parameters while facing growth pressures, legislative imperatives, and inflation that make cost control
 difficult in both the public and private sectors. The DoD’s challenge is magnified because the Military Health
 System provides health care support for the full range of military operations. The increased frequency and
 duration of military deployment further stresses the Military Health System in both the Active and Reserve
 Components. Part of the challenge in delivering health care is combating fraud. Health care fraud is among the
 top 5 categories of criminal investigations; currently representing approximately 7 percent of the 1,646 open
 cases of the Defense Criminal Investigative Service.
 IMPROVED HEALTH CARE                                        B. IG Assessment of Progress
 The DoD Military Health System has been moving forward on improving health care while attempting to control
 costs. Although the transition to the new TRICARE contracts has been delayed until FY 2009, the Military Health
 System has made progress in defining the requirements and issuing the request for proposal for the new
 TRICARE contracts. The current contracts provide incentives for customer satisfaction and include the managed
 care support contractors as partners in support of medical readiness. The Military Health System continues to
 work with the contractors to ensure performance under the contracts with the ultimate goal of improving readiness
 and the quality of care. Lessons learned from all prior solicitations, as well as senior Departmental leadership and
 industry comments, will be incorporated into the next set of TRICARE contracts.
 IMPROVED HEALTH CARE                                        C. Management’s Assessment
 TRICARE Management concurs with the IG’s Summary of Challenge and Assessment of Progress.
 OVERSIGHT OF COSTS                                          A. IG Summary of Challenge
 A major challenge to the Department is sufficient oversight of the growing cost of health care for its beneficiaries.
 During a recent hearing with the Senate Appropriations Subcommittee on Defense, the Secretary of Defense
 stated the cost of health care is a concern that must be controlled. The DoD budget for health care costs was
 approximately $42 billion in 2008, a 35 percent increase since FY 2005 ($31 billion). Congress provided an
 additional $1.4 billion via the Supplemental Appropriations Act of 2008. Increasing health care benefits provides
 additional pressure to manage and contain costs. One of the Department's challenges is to effectively transition to
 the next generation of TRICARE contracts.
 OVERSIGHT OF COSTS                                          B. IG Assessment of Progress
 DoD obtained authority to use federal ceiling prices for pharmaceuticals, and is in the process of issuing a
 proposed rule. The DoD is also making headway in economizing on pharmacy costs by implementing use of
 generic drugs and promoting use of the TRICARE Mail Order Pharmacy system. Additionally, the MHS has
 adopted an approach to cost control that will simultaneously improve quality and reduce cost by focusing on the
 elimination of unnecessary care, test and procedures.
 OVERSIGHT OF COSTS                                          C. Management’s Assessment
 TRICARE Management concurs with the IG’s Summary of Challenge and Assessment of Progress.
 MEDICAL READINESS                                           A. IG Summary of Challenge
 The ability to support and develop the people in the Military Health System continues to be a challenge.
 Maintaining medical readiness of the medical staff and units includes ensuring that medical staff can perform at all
 echelons of operation, and that the units have the right mix of skills, equipment sets, logistics support, and
 evacuation and support capabilities. The challenge of keeping reservists medically ready to deploy continues
 because of the frequency and duration of Reserve deployments.
 MEDICAL READINESS                                           B. IG Assessment of Progress
 The MHS Human Capital Strategic Plan for 2008 to 2013 has been published, and the Department established a
 Military Health System Human Capital Strategic Support Office. The Medical Readiness Review was completed
 and efforts are underway to institutionalize the analytic process for determining operational medical personnel
 needs. The Military Health System has continued to meet all mission requirements despite very high operational
 tempo. Data from the Joint Theater Trauma Registry reveal unprecedented outcomes, including died of wounds
 rates of 5 percent and the lowest ever disease nonbattle injury rates.




SECTION 3                                                                     Other Accompanying Information
                                                         116
Department of Defense Agency Financial Report 2008

 MEDICAL READINESS                                             C. Management’s Assessment
 TRICARE Management concurs with the IG’s Summary of Challenge and Assessment of Progress.
 TRANSITION OF CARE                                            A. IG Summary of Challenge
 Strengthening medical care from accession through active service to rehabilitation and transition to VA care is a
 major challenge for the Department. The number of wounded warriors associated with Southwest Asia and other
 such conflicts significantly impact the health care resources within the Department, and can result in issues such
 as the conditions that were raised at Walter Reed Army Medical Center. Another related challenge to medical
 readiness is the issues inherent in providing efficient processes for post-deployment health care and benefits to
 severely injured and ill service members. Transitioning wounded, ill, or injured service members to post-
 deployment care will continue to grow as a challenge while the Global War on Terror, Operation Iraqi Freedom,
 and Operation Enduring Freedom continue. The Department needs to improve the medical care and benefits
 transition program to achieve a streamlined, transparent process as wounded warriors move from the DoD
 system to the Department of Veterans Affairs’ system.
 Increased numbers of returning service members with mental health complaints, along with a shortage of
 uniformed and civilian mental health workers, will require examination of automated screening tools and improved
 diagnostics to provide earlier detection and intervention.
 TRANSITION OF CARE                                            B. IG Assessment of Progress
 The revised MHS strategic plan recognizes continuum of care as a strategic priority. As stated last year,
 disparities in the transition of health care and benefits are easily identified, yet actionable solutions are difficult to
 implement and streamline.
 The opening of the Center for the Intrepid in San Antonio, Texas, in 2007 provides the MHS with a technologically
 advanced rehabilitation center for amputees and burn victims.
 In addition, DoD’s response to Traumatic Brain Injury (TBI) and psychological health, including Post Traumatic
 Stress Disorder (PTSD), is showing promise with the creation of the Defense Centers of Excellence for
 Psychological Health and TBI.
 This year, the Department established the Senior Oversight Council (SOC) to ensure that all aspects of care,
 rehabilitation and reintegration for wounded warriors was accomplished. One focus of the SOC is to overhaul the
 disability processing system and implement improved case management for recovering warriors.
 The Armed Forces Health Surveillance Center was established to ensure tracking and ongoing surveillance of the
 health of service members would be accomplished in a joint manner and coordinated with Veterans Affairs.
 TRANSITION OF CARE                                            C. Management’s Assessment
 TRICARE Management concurs with the IG’s Summary of Challenge and Assessment of Progress.
 SHARING OF INFORMATION                                        A. IG Summary of Challenge
 Providing information to the right people so they can make more informed decisions continues to be a challenge
 in the health care community. Along with the benefits of expanding automation efforts comes the increased risk to
 security and privacy of information. The transition from paper to electronic patient records increases the exposure
 of sensitive patient information to inadvertent or intentional compromise. Maintaining information operations that
 ensure the protection and privacy of data will continue to grow as a challenge.
 SHARING OF INFORMATION                                        B. IG Assessment of Progress
 The organizational goal to deliver information that aids in better decision-making was added to the Military Health
 System strategic plan. Specific milestones were established to implement a personal health record prototype, and
 to expand bidirectional sharing of health information between DoD and the Department of Veterans Affairs. In
 addition, a deadline was established to define the Military Health System strategic plan for implementing a
 paperless electronic health record. The DoD continues to progress in sharing electronic medical records with the
 Department of Veterans Affairs. The DoD and VA executive leadership initiated a joint assessment project to
 determine the best approach for sharing inpatient electronic health records. The final report on the assessment
 project recommends the Departments pursue a common-services approach, which will allow DoD and VA to build
 upon their already extensive information sharing capabilities. It also will set the stage for the appropriate level of
 interoperability with other government and private sector organizations.
 SHARING OF INFORMATION                                        C. Management’s Assessment
 TRICARE Management concurs with the IG’s Summary of Challenge and Assessment of Progress.




SECTION 3                                                                         Other Accompanying Information
                                                           117
Department of Defense Agency Financial Report 2008

 IMPLEMENTING BRAC                                          A. IG Summary of Challenge
 Implementing recommendations resulting from the 2005 Base Realignment and Closure process will continue to
 be a challenge. In addition to improving the readiness and cost efficiency associated with realigning base
 structure, a primary objective of the process was to examine and implement opportunities for greater joint activity
 among the Military Departments. Recapitalization of the physical infrastructure is a challenge. Military treatment
 facilities are aging and in need of replacement.
 IMPLEMENTING BRAC                                          B. IG Assessment of Progress
 The base realignment and closure process addresses part of the aging infrastructure, but to fully address the
 challenge, better standardized data on the condition of facilities is needed. The Military Health System has begun
 the multiyear transition and acquisition process of improving capability and access to care in two major and
 several minor markets. Groundbreaking for the new Walter Reed National Military Medical Center at Bethesda
 occurred July 3, 2008.
 Additionally, the Military Health System is following a roadmap for changes in governance that should result in
 increased unity of purpose and functional integration. The road map should yield improvements in quality,
 efficiency, and patient satisfaction consistent with the MHS Strategic Plan. Each of the elements of the plan
 should contribute to the achievement of stability and uniformity of healthcare processes and resource acquisition.
 By establishing more unity of command in each of the major markets, the market leaders should be able to
 distribute resources across hospitals and clinics within a market to meet the needs of the entire population of
 eligible beneficiaries. In addition, the increased span of control will enable improved continuity of care and
 coordination of safety and quality programs. In the National Capital Region, the Secretary of Defense established
 the Joint Task Force National Capital Region Medical to clarify command and control.
 Through the establishment of joint governance for the Joint Medical Education and Training Center, the MHS
 should improve the quality and consistency of training for all enlisted, contributing to a culture of jointness and
 interoperability.
 The combination of all medical research and development assets under joint governance should foster better
 coordination of research activities, eliminate redundant efforts, and focus resources on developing solutions for
 both the warfighter and the clinician.
 Co-locating of the headquarters functions of Health Affairs, the TRICARE Management Activity, the Army Medical
 Command, the Navy Bureau of Medicine and the Air Force Medical Service should enhance efforts to achieve
 unity of purpose for MHS policy, strategy, and financial programming and yield greater consistency across the
 Services in program execution.
 IMPLEMENTING BRAC                                          C. Management’s Assessment
 TRICARE Management concurs with the IG’s Summary of Challenge and Assessment of Progress.
 HUMANITARIAN ASSISTANCE                                    A. IG Summary of Challenge
 The Department’s expanded role in providing humanitarian assistance and disaster relief to support U.S. strategic
 objectives and promote human dignity through better health will provide financial and organizational challenges.
 One of the first challenges will be developing plans and budgets to support the expanded role.
 HUMANITARIAN ASSISTANCE                                    B. IG Assessment of Progress
 Building a bridge to peace through humanitarian assistance and disaster relief is a goal under the Military Health
 System strategic plan. The Summer 2008 Military Health System Strategic Plan recognizes many of these
 challenges and includes a set of performance metrics to measure mission success. This clearly defined roadmap
 is progress toward meeting the challenges.
 HUMANITARIAN ASSISTANCE                                    C. Management’s Assessment
 TRICARE Management concurs with the IG’s Summary of Challenge and Assessment of Progress.




SECTION 3                                                                     Other Accompanying Information
                                                        118
Department of Defense Agency Financial Report 2008

 6. EQUIPPING AND TRAINING IRAQI AND AFGHAN SECURITY FORCES
 IRAQI SECURITY FORCES                                        A. IG Summary of Challenge
 The Iraqi Security Forces (ISF) are comprised of the military and police forces. The Iraqi government continues to
 pursue significant expansions of ISF authorized end-strength, currently at 488,000 personnel with 445,500 on the
 payroll. This expansion will require addressing an already existing leadership shortage within the officer and
 noncommissioned officer ranks.
 Coalition efforts to build the capability of the Iraqi Ministries of Defense (MoD) and Interior (MoI) and their
 respective forces continue to focus on four major areas: developing ministerial capability; improving the
 proficiency of military and police forces through the assistance of embedded advisors and partnership unit
 relationships; building the logistic, sustainment, and training capability of the MoD and MoI; and supporting the
 expansion of the army and police.
 IRAQI SECURITY FORCES                                        B. IG Assessment of Progress
 The existing Iraqi-run training centers continue to operate at full capacity to achieve ISF personnel goals.
 Efforts are ongoing to build the capability of the security forces and the MoD and MoI to sustain themselves,
 without Coalition logistical support, and for the forces to be able to operate independently without the full range of
 Coalition combat enablers, such as: air and ground transport of troops, equipment, and supplies; tactical air
 support; communication (signal) capabilities; and artillery.
 IRAQI SECURITY FORCES                                        C. Management’s Assessment
 As of July 31, 2008, the current Iraqi Security Force (ISF) overall assigned strength is approximately 588,000.
 One hundred fifty-nine Iraqi Army (IA) battalions are in the fight, and 105 of those are in the lead for operations.
 Twenty-eight more are in force-generation. Though the MoDs, leader-to-led ratios are improving, the shortage of
 key leaders in the ISF is a challenge that will take years to overcome. Officer training and development are
 improving, but much work remains. The four Military Academies are graduating enough cadets for the needs of
 the Iraqi Joint Forces, but facilities remain rudimentary and tactical training is limited. The NCO corps has grown
 in the last couple of years, but most significantly in the last year—mostly at the junior ranks. The Iraqis understand
 they need an NCO Corps and have developed an NCO education system, starting with corporals to sergeants to
 platoon sergeants. The top 10 percent of the graduates from basic training attend the corporal’s course. From
 January 1 to July 31, 2008, the training base graduated 6,772 NCOs. Additionally, as of June 30, 2008, 13,077
 total NCOs have entered the IA since June 2007; 8,362 of those NCOs have accessed since January 1, 2008.
 The NCO ranks are at almost 70 percent fill in the aggregate. Some measures to address this issue are occurring
 now such as the rehiring of former NCOs and officers into the ISF. From January 1 to May 30, 2008, the MoD
 successfully vetted 2,177 officers from the former regime and allowed them to “rejoin” the IA.
 In all operations, the ISF continued to rely on Coalition enablers. Overall, the ISF continues to improve, but relies
 on Coalition forces (CF) for close air support, fire support, intelligence, surveillance and reconnaissance, logistics,
 sustainment and communications. The IA units must also improve in their ability to specify command
 relationships. Operations in Diyala and Amarah demonstrated a gradual improvement in the command and
 support relationships of attached brigades from other IA divisions.
 Logistics unit development is progressing. By the end of 2008, the IA will grow one division headquarters, five
 brigade headquarters, eight infantry battalions, five additional location commands, two motor transport regiments,
 one general transport regiment, one logistics battalion, and an Army ammunition depot. Each of the additional
 logistics units will be dedicated to support specific IA divisions and each is essential for the IA to achieve self-
 sufficiency.
 Dependency on CF to move supplies from the central depots will be reduced by accelerating the fielding of motor
 transport regiments. The IA has fielded ten motor transportation regiments and will field two additional transport
 regiments in 2008. The donation of a number of German transport trucks, and the purchase of medium and heavy
 cargo vehicles has accelerated the generation of a general transportation regiment, with projected Initial
 Operating Capability (IOC) by November 2008.
 IRAQI NATIONAL ARMY                                          A. IG Summary of Challenge
 The Iraqi Army continues to experience shortfalls in generating officer and noncommissioned officer personnel to
 meet the requirements of an expanding army, and the challenge of high attrition rates.
 The Iraqi Army also continues to experience shortfalls in self-sustaining logistics. While the initiatives to develop
 the Iraqi Army logistics base are significant, success may be hampered by shortages in formally trained Iraqi
 logistics personnel and lack of information connectivity.
 The Iraqis still have concerns about the responsiveness of Foreign Military Sales (FMS) to a country generating
 forces in the midst of ongoing combat operations and hostilities. On-the-ground U.S. commanders responsible for
 training, equipping, and supporting ISF have voices similar concerns.


SECTION 3                                                                       Other Accompanying Information
                                                          119
Department of Defense Agency Financial Report 2008

 IRAQI NATIONAL ARMY                                          B. IG Assessment of Progress
 The Iraqi Army is taking several steps to mitigate leader shortage, such as actively recruiting prior service officers
 and noncommissioned officers, using mobile recruiting teams, and exploring accelerated promotions of personnel
 currently in the Army. However, it is unclear whether sufficient candidates can be recruited to offset increased
 force requirements.
 Multinational Security Transition Command-Iraq and Multinational Corps-Iraq are making significant strides in
 assisting the Iraqi Army to develop an Iraqi logistics sustainment base, but much work remains to be done.
 Through the efforts of the Iraqi Logistics Development Committee, specific logistics advisory, training, and
 partnering relationships have been established throughout Iraq to assist the Iraqi Army build its logistics system
 using an Iraqi model.
 Thirteen regional Iraqi logistics Location Commands are projected to be in full operation by the end of 2008. U.S.
 Logistics Management Advisory Teams will be assigned to each Location Command. In addition, U.S. Logistics
 Training and Assistance Teams, formed from in-country U.S. logistics sustainment brigades, are refocusing their
 efforts to provide more intense interaction with Iraqi Army units including the regional Location Commands to the
 line units, division and below.
 Development is underway of a robust FMS program to assist with Iraqi Government force expansion by procuring
 U.S. standard equipment. Progress has been made regarding MoD and MoI willingness to use the U.S. FMS
 system as a source of supply. However, the timeliness of equipment deliveries has not been satisfactory.
 IRAQI NATIONAL ARMY                                          C. Management’s Assessment
 The IA, as with the other services, remain understaffed in the officer and NCO ranks, but is taking steps to
 mitigate these challenges. MOD is developing a strong NCO Educational System that has produced nearly
 14,000 NCOs including re-joining former army leaders from key courses. The MOD is also training former militia
 members mandated by the transition and reintegration program. The Government of Iraq (GOI) has also begun
 taking over control of the Sons of Iraq (SoI) program, intending to integrate 20% of the 100,000 SoI into the ISF.
 Once complete, the National Reconciliation Program will allow former soldiers the option to re-join the ISF, and
 should yield a moderate increase in the number of mid-grade officers and NCOs within the IA.
 The MOD is developing a national supply and distribution network, including location commands in support of
 each IA division with the Taji National Depot as the centerpiece. Accelerated fielding of the last motor transport
 regiments and the fielding of the general transportation regiment will reduce, but not eliminate ISF dependency on
 CF to move supplies.
 Since the advent of the FMS task force, the average time required to process FMS cases has improved
 significantly, and the delivery of equipment has improved substantially.
 IRAQI NATIONAL POLICE                                        A. IG Summary of Challenge
 Because the training effort of the past four years has focused on generating policemen, and because of the time it
 takes to grow professional junior officers, there have been inadequate numbers of officer-rank police entering at
 junior levels. The resulting low officer manning has affected command and control, planning functions, street-level
 supervision, morale, retention, and ethical conduct.
 IRAQI NATIONAL POLICE                                        B. IG Assessment of Progress
 Although progress has been made, some National Police units lack personnel, individual equipment, and reliable
 vehicles to conduct operations without Coalition support.
 The Iraqi Police Service and the National Police use various methods to acquire officers. Both of the police
 services are actively seeking to increase officers through four methods: a 3-year officer course, a 9-month officer
 course, a 6-month police commissioner’s course, and a 3-week officer transition program for previously trained
 police officers. The police services have difficulty attracting officer candidates because they compete with the Iraqi
 Army for the same pool of personnel.
 IRAQI NATIONAL POLICE                                        C. Management’s Assessment
 Coalition advisors report continued improvement in the MoI’s ability to perform key ministerial functions. Such
 functions include force management, personnel management, acquisition, training, logistics and sustainment, and
 the development and implementation of plans and policies.
 The MoI is improving its ability to provide life support (e.g., food, water, fuel, and most maintenance) for its forces.
 The Ministry has instituted a self-reliance policy. All life support, at both the Central Ministry and at the provincial
 level, is now contracted through the MoI contracting process.
 The MoI has expanded to a total of 18 training facilities. The Iraqi instructor cadre at the Baghdad Police College
 conducts all basic officer and enlisted recruit training and continues to increase the proportion of the specialized
 and advanced course loads. The Multi-National Security Transition Command–Iraq (MNSTC-I) advisors and
 international police advisors assist by providing advice, oversight, and quality control at all training institutions.


SECTION 3                                                                        Other Accompanying Information
                                                          120
Department of Defense Agency Financial Report 2008
 The MoI training base is capable of training 67,170 enlisted police and 2,330 officers per year and operates at a
 total student capacity of 24,810 at any given time. For 2008, the MoI expects to train a total of approximately
 42,235 basic policemen for the Iraqi Police Service (IPS), 14,435 for the National Police (NP), and 10,500 for the
 Department of Border Enforcement (DBE). With the MoI training base expansion plan through mid-2009, seat
 capacity will increase annual throughput to 117,100 enlisted and 5,472 officer seats.
 Overcoming the MoI training backlog continues to be a significant challenge. In the past, deteriorating security
 conditions necessitated rapid MoI growth in basic security skills. This rapid expansion was accomplished through
 a truncated 80-hour training course, which provided police officers with basic operational skills; however, this
 course fell short of the full training requirement to be an effective police officer. As a result, the current IPS
 training backlog is approximately 88,000 personnel. The MoI’s goal is to train all IPS personnel with the full 400-
 hour course, as the security situation and training capacity allows. MNSTC-I is working with the MoI to shorten
 duration of the full 400-hour course to 240-hours by extending the length of the training day and eliminating low
 priority training to reduce its training backlog to approximately 56,000 by July 2009.
 As of July 31, 2008, there are 31 NP battalions in the fight, with 10 of them in the lead for security. Thirteen more
 are in force-generation.
 The MoI is executing a four-phased plan to improve the professionalism of the NP, with all phases executed
 simultaneously. This has involved significant changes in senior leadership from division through battalion level to
 reduce sectarian behavior and achieve a balance of the sects representative of the makeup of Iraq. The MOI
 completed collective training for every brigade in the fall of 2007 and, situations permitting, these brigades
 undergo continuous sustainment training. Furthermore, leadership training conducted by the Carabinieri has been
 successful. The fourth class of Italian Carabinieri-led NATO Training Mission-Iraq (NTM-I) training concluded on
 June 21, 2008, with 422 graduates. The MNSTC-I and NTM-I are laying the foundation to double the throughput,
 accelerating professionalism of the NP. Finally, plans are in place to regionalize the NP by generating a third NP
 division. This will enable the NP to be regionally focused and postured to reinforce the IPS and allow the MOD to
 focus on external defense.
 The MoI continues to receive large shipments of FMS purchases. Deliveries on a $96.3 million contract for
 ammunition and light weapons, brokered independently with China, demonstrate that the ministry is improving the
 capability to direct contract for goods.
 ISF HEALTH CARE SYSTEM                                       A. IG Summary of Challenge
 The Iraqi Security Forces depend on the development of supporting capability within the civilian sector for medical
 support.
 Strong collaborative planning interactions are necessary between the Iraqi Ministries of Defense and Health for
 infrastructure development, training, and medical logistics, so sustainable, independent health care for the
 security forces can be developed.
 ISF HEALTH CARE SYSTEM                                       B. IG Assessment of Progress
 The partnerships between these Ministries for planning are just developing, and will need to be facilitated by
 Multinational Security Transition Command-Iraq and Multinational Forces-Iraq in order to be effective.
 ISF HEALTH CARE SYSTEM                                       C. Management’s Assessment
 The Coalition Forces (CF) continue in their efforts to help the ISF design, recruit providers, train and provide initial
 medical infrastructure and medical supplies for the ISF to develop medical capability. These efforts include
 assisting MOI and MOD developing the capability to identify requirements, budget, commit, monitor and execute
 funds to procure medical equipment, supplies, and personnel; improving supply chain management to enhance
 the efficiency and effectiveness of the medical logistics system; and developing medical personnel training
 progression. CF are also supporting continued development of internal programs by the Ministries of Health and
 Higher Education to broaden ISF medical capability. FMS have included field hospitals, ambulances, mortuary
 vehicles, and medical supplies.
 AFGHAN SECURITY FORCES                                       A. IG Summary of Challenge
 The Afghan National Security Forces (ANSF) are comprised of the military and police forces. Their effectiveness
 is being tested by increased Taliban attacks, including in heretofore safe areas of the country.
 Coalition efforts to build the capability of the Afghan Ministries of Defense (MoD) and Interior (MoI) and their
 respective forces continue to focus on four major areas: developing ministerial capability; improving the
 proficiency of military and police forces through the assistance of embedded advisors and partnership unit
 relationships; building the logistic, sustainment, medical, and training capability of the MoD and MoI; and
 supporting the expansion of the army and police, and their ability to operate on an independent basis.
 The Afghan government continues to pursue significant expansion of the ANSF. The MoD has requested an
 increase in the end-strength of the Afghan National Army (ANA), in particular, to 134,000 – an increase that is
 favorably endorsed by the U.S. Government.



SECTION 3                                                                        Other Accompanying Information
                                                          121
Department of Defense Agency Financial Report 2008

 AFGHAN SECURITY FORCES                                       B. IG Assessment of Progress
 The ANA as an institution is generally highly regarded by the populace, although only a minority of its units are
 yet capable of operating without significant Coalition support.
 Progress in building the capability effectiveness of the Afghan National Police (ANP), which is often viewed with
 mistrust, lags that of the ANA, arguably as much as several years.
 AFGHAN SECURITY FORCES                                       C. Management’s Assessment
 We agree with the IG’s assessment of progress made by the ANSF. The ANA is one of the most trusted and
 respected institutions within Afghanistan. As of Sept 2008, the ANA has grown to a force size of approximately
 67,000. Over the last year they have made great progress and since March 2008, 13 ANA units have reached
 Capability Milestone-1 which indicates they are fully operationally capable. The ANA is increasingly capable of
 taking a lead role in planning and conducting operations, which is another sign of increased capacity and
 capability.
 In September 2008, the Government of Afghanistan and the international community agreed to increase the end
 strength of the ANA to 134,000 personnel by 2014, thus allowing for increased combat support and capability.
 The decision to increase the size of the ANA is consistent with the Government of Afghanistan’s and the
 International Community’s goal that Afghan Security Forces are eventually able to assume security functions
 within Afghanistan.
 As stated, the ANP currently lags behind the ANA in development but much progress has been made. The ANP
 is at a force level of 77,000 and growing towards 82,000. 31 Districts have completed FDD training and, as of
 Sept 2008, and six of these districts were validated at Capability Milestone 1, indicating that district ANP forces
 were capable of independent operations.
 The Combined Security Transition Command-Afghanistan (CSTC-A) is also implementing a training program for
 Afghan Border Police (ABP) along the eastern Pakistan border. Focused Border Development (FBD) provides
 additional survivability and interdiction skills for ABP Companies who will partner with JTF-101 units once they
 complete the training. The FBD training begins in late October 2008.
 AFGHAN NATIONAL ARMY                                         A. IG Summary of Challenge
 Developing an effective Afghan National Army (ANA) force is a significant challenge in the midst of a war.
 The Afghan Army logistics system within the ANA is progressing, but is in its infancy and continues to experience
 shortfalls in having a self-sustaining logistics capability. While the initiatives to develop the Afghan Army logistics
 base are significant, success may be hampered by shortages in formally trained Afghan logistics personnel and
 lack of information connectivity. In addition, one of the problems in establishing logistics sustainment within the
 Afghan Army has been the lack of a systems approach. The Afghans have been accustomed to working in
 stovepipes with little coordination. The result of this is that important nodes in the logistics system were lacking
 visibility of the Afghan Army logistics capability, and senior leaders were unable to make informed decisions about
 logistics requirements.
 U.S. commanders have noted that progress has been made in improving Foreign Military Sales (FMS) program
 responsiveness. However, successful execution of the $7.4 billion FMS program in Afghanistan requires support
 beyond the norm for rapid ANSF force generation, replacement of combat losses, and force modernization.
 Similar concerns have been voiced by U.S. commanders on the ground, responsible for training, equipping, and
 supporting the ANA.
 AFGHAN NATIONAL ARMY                                         B. IG Assessment of Progress
 Progress has been made in developing a capable Afghan National Army, but significant work still needs to be done.
 A continually improving national logistics infrastructure exists and is already supporting the Afghan Army. A series
 of national and forward support depots currently provide the bulk of Afghan Army needs. Brigade-level logistics
 structures and systems continue to develop. However, there is a gap in the linkage from the brigade level to the
 national level. This gap will require development of a corps-level logistics structure that will be addressed with the
 increase of 10,000 ANA personnel beginning in 2009. Plans for 2009 lay the groundwork for making currently-
 contracted logistics an Afghan Army core responsibility.
 The MoD recently requested that Combined Security Transition Command-Afghanistan (CSTC-A) assist in the
 development of a systems approach to logistics. The CSTC-A conceived the Logistics Readiness Assessment
 Tool, which was to have been implemented in May 2008 as an initial effort to gain visibility over the Afghan Army
 logistics system.




SECTION 3                                                                       Other Accompanying Information
                                                          122
Department of Defense Agency Financial Report 2008

 AFGHAN NATIONAL ARMY                                          C. Management’s Assessment
 As stated above, the ANA has made great progress over the past year. As the ANA grows to 134,000, it is
 increasingly improving in capability and in building logistics capacity
 While we agree with the need for more robust ANA logistics processes, it should be noted that Afghanistan poses
 unique issues in terms of implementing an integrated nation wide logistics system. Many areas within
 Afghanistan lack reliable power and communications capacity and do not allow for a networked logistics system.
 Additionally, the issue is made even more challenging because of low literacy rates among the populace and the
 lack of trained personnel with a logistics background.
 The DoD is focused on improving logistics within the ANA. One of the objectives of the CSTC-A Campaign Plan
 is to develop an efficient logistics system that is capable of acquiring and distributing resources to the ANA. The
 CSTC-A is developing a unified ANA logistics strategy which will ensure standardized logistics mentoring within
 the ANA. A robust Ministerial Development program is in place which focuses on building logistics capabilities
 within the MOD and the General Staff Headquarters.
 AFGHAN NATIONAL ARMY HEALTH CARE SYSTEM                       A. IG Summary of Challenge
 Development of medical support for the ANA depends on a strong collaborative relationship with the civilian
 Ministries of Public Health and Higher Education. ANA capacity development must therefore include
 commensurate strengthening of the authority and ability of these ministries to support the ANA.
 AFGHAN NATIONAL ARMY HEALTH CARE SYSTEM                       B. IG Assessment of Progress
 Little progress has been made in developing strong civil – military relationships within the medical community in
 Afghanistan, largely due to limited resources, and lack of a clear policy commitment with a corresponding multi-
 year strategic plan for training, mentoring, and infrastructure development.
 AFGHAN NATIONAL ARMY HEALTH CARE SYSTEM                       C. Management’s Assessment
 The DoD has provided mentorship and training to improve the Afghan Army health care system through the
 CSTC-A Command Surgeon’s office.
 We concur with the need to build better Civil-Military cooperation and to better collaborate with the Afghan
 Ministry of Public Health and other international players. The DoD has coordinated policies with NATO and other
 international partners as well as the Ministry of Public Health but the scope of this challenge is beyond DOD’s
 ability to influence. Fully developing the Civil-Military relationship will require assistance from other
 U.S. Government agencies, and international partners, as well as the Government of the Islamic Republic of
 Afghan.
 AFGHAN NATIONAL POLICE                                        A. IG Summary of Challenge
 The National Police are the face of the government to most Afghan people. Unfortunately, in the past, this has
 often been the face of corruption and unprofessionalism.
 The Afghan MoI and National Police logistics system continues to experience shortfalls in self-sustaining logistics.
 While the initiatives to develop the Afghan Police logistics base are significant, success may be hampered by
 shortages in formally trained Afghan logistics personnel.
 Logistics sustainment for the MoI and the Afghan Police significantly lags that of Afghan Army. Supplying
 regional, district, and provincial police units is a vastly different problem than providing support for an army corps,
 brigade, or battalion. The MoI is behind in establishing needed logistics policies and procedures and in obtaining
 the requisite training for their logistics personnel. The U.S. Police Mentoring Teams have been under-resourced
 for personnel, requiring CSTC-A to fill the gap by using U.S. military personnel who had previously been assigned
 to train the Afghan Army. The shortage of qualified logistics trainers for the Police Mentoring Teams is and has
 been a continuing problem in advancing the logistics capability of the Afghan Police.
 AFGHAN NATIONAL POLICE                                        B. IG Assessment of Progress
 A program of focused district development has been created to break the cycle of corruption and provide
 Afghanistan a professional, well-led, and well-trained police force. The program involves an eight-week formal
 police training course and reflects a strategy of reforming the way policing is done at the district and community
 levels, and reinforcing the government’s counterinsurgency capability at the interface with the populace.
 For the Afghan Police, logistics development is currently focused on verification and accountability. Regional,
 provincial, and district level gaps in Afghan Police logistics stem in part from still-developing MoI logistics policies
 and procedures and lack of logistics officer skills. The MoI is working to close these gaps through regional,
 provincial, and district level logistics officer training.




SECTION 3                                                                        Other Accompanying Information
                                                           123
Department of Defense Agency Financial Report 2008

 AFGHAN NATIONAL POLICE                                      C. Management’s Assessment
 The ANP have made great progress over the last year as a result of the implementation of the Focused District
 Development (FDD) program. We concur with the comments made regarding the issues being addressed within
 the MoI.
 The FDD has attempted to improve the logistic capabilities of ANP districts by ensuring equipment is properly
 issued and accounted for. The FDD training program that the district police attend also teaches ANP officers
 about logistics and equipment accountability. Logistics officers within police units are provided additional training
 in these areas.
 The CSTC-A has a robust program that is focusing on ministerial-level logistics development within the MoI.
 AFGHAN NATIONAL POLICE
                                                             A. IG Summary of Challenge
 HEALTH CARE SYSTEM
 The Afghan Police do not have effective medical support. The general lack of Afghan Police resources and
 dispersed nature of much of the force in remote areas calls for an integrated health care approach between MoI
 and MoD and with the civilian Ministry of Public Health.
 AFGHAN NATIONAL POLICE
                                                             B. IG Assessment of Progress
 HEALTH CARE SYSTEM
 Although the Afghan Police do not have effective medical support, they are reluctant to integrate with the Afghan
 Army due to institutional mistrust.
 Effective partnering with the Afghan Army and the civilian Ministry of Public Health is needed, but little progress
 has been made, largely due to limited resources and lack of a clear policy commitment on a way forward with a
 corresponding multi-year strategic plan for training, mentoring, and integration.
 AFGHAN NATIONAL POLICE
                                                             C. Management’s Assessment
 HEALTH CARE SYSTEM
 The ANP has made progress in their health system and CSTC-A continues to mentor them in this area.
 We agree that a coordinated ANSF health care system is desirable but as noted, we cannot accomplish this
 without support from the Afghan Government. The International Community and other areas of the U.S.
 Government outside of DoD will need to be involved in this effort as well.

 7. NUCLEAR ENTERPRISE
   A. IG Summary of Challenge             B. IG Assessment of Progress             C. Management’s Assessment
 DECLINE OF FOCUS ON THE
                                                             A. IG Summary of Challenge
 NUCLEAR ENTERPRISE
 The Department faces complex and long standing nuclear enterprise management challenges that affect the
 Department’s ability to provide public assurance that it can meet its nuclear operational and surety
 responsibilities. A recent Defense Science Board report stated that since the end of the Cold War, there has been
 a marked but gradual decline in the level and intensity of focus on the nuclear enterprise and the nuclear mission.
 When comparing the current level of focus to that of 1990, the aggregate change is dramatic. The decline is
 characterized by:
   • Embedding nuclear mission forces in nonnuclear organizations.
   • Markedly reducing levels of leadership whose daily focus is on nuclear enterprise.
   • Generally devaluing the nuclear mission and those who perform the mission.
 Numerous reports and studies issued over the past decade have documented the decline. From 1991 to 2008,
 the IG identified and reported on aspects of this decline in a series of classified audit reports related to the
 security of nuclear systems. Although specific report details are classified; the weaknesses identified in each of
 those reports are a direct result of the decline in emphasis of the nuclear enterprise and mission.




SECTION 3                                                                      Other Accompanying Information
                                                         124
Department of Defense Agency Financial Report 2008

 DECLINE OF FOCUS ON THE
                                                            B. IG Assessment of Progress
 NUCLEAR ENTERPRISE
 The Department has begun to address and reverse the nuclear enterprise decline.
 For example, in February 2008, the Air Force issued its report on the “Air Force Blue Ribbon Review of Nuclear
 Weapons Policies and Procedures.” The report contained 36 observations and recommendations, as well as the
 following general conclusions:
   • Air Force Nuclear Surety is sound but needs strengthening.
   • Air Force focus on nuclear mission has diminished since 1991.
   • Nuclear enterprise in the Air Force works, despite being fragmented.
   • Declining Air Force nuclear experience has led to waning expertise.
   • Air Force nuclear surety inspection programs need standardization.
 The Air Force is in the process of implementing the report recommendations.
 Other studies and task forces have been initiated as described below. However, it is critical that DoD leadership
 recognize the consequences of failure to ensure the security of its nuclear forces and to implement as quickly as
 possible, viable recommendations to stop and reverse the decline focus on the nuclear enterprise.
 DECLINE OF FOCUS ON THE
                                                            C. Management’s Assessment
 NUCLEAR ENTERPRISE
 The Department agrees there has been a decline in the level and intensity of focus on the nuclear enterprise and
 the nuclear mission. The Department continues to address and reverse the nuclear enterprise decline. Actions to
 address the findings and recommendations from various reports and studies are overseen by the DoD Senior
 National Security Presidential Directive-28 Oversight Committee (Senior NOC), and the joint DoD/DOE Nuclear
 Weapons Council (NWC), both chaired by the USD(AT&L); as well as the Interagency Nuclear Command and
 Control System Committee of Principals (NCCS CoP), chaired by the Deputy Secretary of Defense. The Military
 Departments are aggressively implementing changes to organizational structure, processes, and procedures to
 improve the security of nuclear forces and senior leaders' focus on the nuclear mission.
 INCIDENTS INDICATE SYSTEMIC PROBLEMS                       A. IG Summary of Challenge
 Over the past year, the Department experienced series of incidents that indicated significant problems with
 nuclear enterprise management. Failure to follow prescribed verification procedures resulted in nuclear warheads
 being inadvertently transferred from Minot AFB to Barksdale AFB. Sensitive missile components were
 erroneously shipped to Taiwan. The 2nd Bomb Wing at Barksdale AFB failed a nuclear surety inspection and had
 to be re-inspected to a satisfactory rating. The recent series of limited nuclear surety inspections conducted as a
 result of the Minot transfer incident exposed potential problems related to operational readiness.
 INCIDENTS INDICATE SYSTEMIC PROBLEMS                       B. IG Assessment of Progress
 In response to the Minot transfer incident, the Secretary of the Air Force conducted a Commander-Directed
 Investigation of the incident, decertified a portion of the 5th Bomb Wing at Minot, and executed a series of limited
 nuclear surety inspections. However, the 5th Bomb Wing failed the May 2008 Defense Nuclear Surety Inspection
 and was re-inspected.
 In response to a February 2008 request from the Under Secretary of Defense (Acquisition, Technology, and
 Logistics), the Defense Science Board Permanent Task Force issued its “Report on the Unauthorized Movement
 of Nuclear Weapons.” The report identified the root and systemic causes of the Minot transfer incident and
 provided 12 recommendations to strengthen nuclear surety programs and practices. The Department is
 implementing the recommendations. Recently, the Under Secretary tasked the Defense Science Board to review
 the nuclear inspection regime and make recommendations for improvement.
 In March 2008, the Secretary of Defense appointed Admiral Donald, USN, to conduct an investigation into the
 facts and circumstances surrounding the accountability for, and shipment of, sensitive missile components to
 Taiwan in 2006. The investigation concluded that the specific cause was the Air Force and Defense Logistic
 Agency’s “sole reliance on, and lack of compliance with,” existing supply system procedures to provide positive
 control of the components. The investigation identified 7 findings, and 3 systemic problems, and contained 13
 recommendations for corrective action. The report makes clear that the problems and mistakes have their roots in
 decisions made over a period of at least 10 years.




SECTION 3                                                                     Other Accompanying Information
                                                         125
Department of Defense Agency Financial Report 2008

 INCIDENTS INDICATE SYSTEMIC PROBLEMS                       C. Management’s Assessment
 The Department is applying the highest levels of accountability and control to the stewardship of nuclear
 weapons. The Department has reviewed and is enhancing logistics processes for the nuclear weapons enterprise
 that identifies, manages, and accounts for all nuclear weapons and sensitive nuclear weapons-related material.
 These improvements will be incorporated into DoD directives and Service/Agency-level policies. The USD(AT&L)
 staff will monitor processes through full implementation.
 KEYS TO IMPROVEMENT                                        A. IG Summary of Challenge
 To reverse this trend, the Department needs to refocus on the nuclear enterprise. The following elements are key
 to improvement:
   • Create an environment that emphasizes the nuclear mission and that a reliable, safe, secure, and credible
     nuclear deterrent is essential to national security and is a high DoD priority.
   • Conduct detailed reviews and studies of all critical elements of the nuclear enterprise to identify key
     deficiencies and methods for improvement.
   • Develop corrective action plans that correct the deficiencies and provide adequate funding and leadership to
     ensure implementation.
   • Implement the corrective actions and conduct follow-up reviews to ensure that the action plans are
      correcting the deficiencies.
 As stated in the Defense Science Board report, the series of nuclear related incidents that occurred over the past
 year “can be a just-in-time rescue if lasting corrective actions are implemented now.”
 KEYS TO IMPROVEMENT                                        B. IG Assessment of Progress
 The Department initiated additional reviews to address critical aspects of the nuclear enterprise. In June 2008, the
 Secretary of Defense tasked the Under Secretary of Defense for Policy, in coordination with the Director of
 Administration and Management, to establish the Task Force on Nuclear Weapons Management as a
 subcommittee of the Defense Policy Board. The task force will have two phases. The first phase, to be completed
 within 60 days, will make recommendations on organizational, procedural, and policy matters involving the Air
 Force. The second phase, to be completed within 120 days, will examine management and oversight of nuclear
 weapons and related materials and systems across the entire Department.
 Additionally, the Secretary directed that a Nuclear Command and Control System Comprehensive Review (NCR)
 be conducted. This review will examine and make recommendations on the full range of nuclear command and
 control (NCCS) policies, procedures, responsibilities, functions, capabilities, management and oversight
 necessary to meet national and Department policy and guidance, and maintain the highest standards required for
 planning, directing, and controlling nuclear weapons, weapon systems, and associated operations. The
 Department will also be conducting a Nuclear Posture Review intended to examine the New Triad and its
 relationship to Defense policy goals, command and control planning and intelligence, and sizing of the nuclear
 force.
 We fully support these efforts and believe they are a necessary first step in reversing the decline. However, in the
 past, similar types of reviews were conducted that resulted in good, solid recommendations, which were never
 implemented. Fixing the problems will require commitment, effort, and resources. The IG will monitor the
 Department’s progress in implementing the various report and study recommendations.
 KEYS TO IMPROVEMENT                                        C. Management’s Assessment
 The Department fully supports these efforts and agrees they are the first step in reversing the decline in the
 emphasis of the nuclear enterprise and mission. The Department's focus will be on determining and correcting the
 root and systemic causes of the decline. The Senior NOC, NWC, and NCCS CoP will continue to oversee actions
 to ensure the proper level of leadership, commitment, effort, and resources are applied to correct the problems
 and refocus the nuclear enterprise.




SECTION 3                                                                     Other Accompanying Information
                                                        126
Department of Defense Agency Financial Report 2008

SUMMARY OF MANAGEMENT
ASSURANCES AND FINANCIAL
STATEMENT AUDIT
Department leadership is resolute in its
determination to continuously establish and                                               U.S. Deputy
                                                                                          Secretary of
maintain effective internal management                                                    Defense Gordon
                                                                                          England at the DoD
controls for all mission-essential processes. In                                          Check It
                                                                                          Campaign’s Most
June 2008, the Public Relations Society of                                                Improved Process
America awarded the Department’s Check It                                                 Ceremony.
                                                                                          Secretary England
campaign its prestigious Silver Anvil Award for                                           recognizes DoD
                                                                                          Components for
the best internal communications campaign.                                                the most improved
Check It, with the tagline “What gets checked,                                            processes totaling
                                                                                          $3 billion worth of
Gets done,” reminds the workforce to double                                               savings due to
                                                                                          improving internal
check their work and helps ensure effective                                               management
internal management controls.                                                             controls through
                                                                                          the Check It
                                                                                          Campaign.
The Check It campaign also sponsors a
                                                                                           DoD photo – March 2008
competition     to   report  best    process
improvements. In two rounds of competition,              Program. These internal management
40 improvements from 24 Components were                  controls are the checks and balances that
submitted to the Deputy Secretary of                     assist program and financial managers to
Defense. Submissions reported a total of                 achieve results, and safeguard the integrity of
$3 billion worth of savings due to improving             the programs. As prescribed by OMB Circular
internal management controls.                            No. A-123, the Department’s internal
                                                         management control program assesses both
DoD Managers’ Internal Control Program
                                                         the effectiveness of nonfinancial functions
The Department conducts self-assessments                 and processes, and the management controls
of internal management controls throughout               as prescribed by Appendix A for financial
the Department in accordance with the                    reporting. A description of each self-assessed
Federal Managers’ Financial Integrity Act                category     with   weaknesses       and    the
(FMFIA), formally designated as the                      corresponding results follow:
Department’s Managers’ Internal Control




                                                                                                          453-17


SECTION 3                                                             Other Accompanying Information
                                                   127
Department of Defense Agency Financial Report 2008
1. FMFIA Section 2 Financial Reporting Material Weaknesses.
The DoD is using a phased-in approach for the FMFIA Section 2 Financial Reporting, and the
areas that were tested in the FY 2008 are listed below.
•  Fund Balance with Treasury
•  Investments
• Military Equipment
• Real Property
• Medicare-Eligible Retiree Health Care Fund
• Federal Employees Compensation Act Liabilities
• Environmental Liabilities
• Appropriations Received
• Accounts Receivable
• Inventory
• Accounts Payable
• Operating Materials and Supplies
• Other Assets
• Other Liabilities
• General Property and Equipment (Defense Organizations only)
• Compilation of financial reports
• Internal Use Software (Intelligence Community only) 

Table 1a identifies the resulting weaknesses. The column entitled “Ref Table 2” crosswalks the

reported FMFIA manager-identified weaknesses to similar auditor-identified weaknesses in 

Table 2. 


                                Table 1a. Summary of Management Assurances
                 Effectiveness of Internal Control over Financial Reporting (FMFIA Section 2)
     Statement of Assurance                                             No Assurance
      Material Weaknesses                    Ref     Beginning                                               Ending
         (information deemed                                      New   Resolved   Consolidated Reassessed
                                           Table 2    Balance                                                Balance
       necessary for clarification)

1)   Valuation of Property Plant
     and Equipment - Military                11         1                                                      1
     Equipment
2)   Real Property Assets                    11         1                                                      1
3)   Environmental Liabilities               3          1                                                      1
4)   Health Care
(Medicare-Eligible Retiree Health Care                  1                                                      1
Liability in military departments direct
care operations)

5)   Fund Balance with
                                             10         1                                                      1
     Treasury
6)   Accounts Receivable                     13         1                                                      1

7)   Inventory Valuation                     12         1                                                      1



SECTION 3                                                                          Other Accompanying Information
                                                                 128
Department of Defense Agency Financial Report 2008

                     Table 1a. Summary of Management Assurances - continued
                 Effectiveness of Internal Control over Financial Reporting (FMFIA Section 2)
     Statement of Assurance                                                No Assurance
      Material Weaknesses                     Ref       Beginning                                               Ending
         (information deemed                                         New   Resolved   Consolidated Reassessed
                                            Table 2      Balance                                                Balance
       necessary for clarification)

8)   Operating Materials and
                                               6           1                                                      1
     Supplies
9)   Accounts Payable                          1           1                                                      1
10) Personal Property -General
    Personal Property
(Includes reported problems with the
cost of DoD property and materiel in the     11 & 4                   1                                           1
possession of contractors. Reassessed
and moved from Overall Nonfinancial
Operations #3 to DoD Financial
Reporting Material Weakness #10)

11) Financial Reporting
    Compilation
(Includes Statement of Net Cost,            2, 7, & 8                 1                                           1
Statement of Budgetary Resources,
Statement of Net Position, and
Accounting Adjustments)

12) Financial Reporting of
    Intragovernmental
                                               5                      1                                           1
    Eliminations
(Includes Anti-Deficiency Act Violations)

Total Financial Reporting
                                                           9          3       0            0           0          12
Material Weaknesses




SECTION 3                                                                             Other Accompanying Information
                                                                    129
Department of Defense Agency Financial Report 2008
2. FMFIA Section 2 Overall (Nonfinancial) Operations Material Weaknesses. The
Department’s 34 Component heads follow a robust, programmatic approach to establish and
assess internal management controls for their respective nonfinancial, mission-essential
operations. Table 1b shows the resulting weaknesses for this assessment.

                                Table 1b. Summary of Management Assurances
      Effectiveness of Internal Control over Overall (Nonfinancial) Operations (FMFIA Section 2)
     Statement of Assurance                                         Qualified
Overall Material Weaknesses             Ref     Beginning                                             Ending
         (information deemed                                 New   Resolved Consolidated Reassessed
                                      Table 2    Balance                                              Balance
       necessary for clarification)

1)   Department of Defense
     Financial Management
     Systems and Processes
(Reassessed as a consolidation into                1                                         1
Conformance with Financial
Management System Requirement
FMFIA Section 4, Material Weakness
#1, Table 1c.)

2)   Management of Information
                                                   1                                                    1
     Technology and Assurance
3)   Personal Property
(Reassessed as new financial                       1                                         1
weakness #10, Table 1a.)

4)   Personnel Security
                                                   1                                                    1
     Investigations
5)   Real Property Infrastructure                  1                  1
6)   Government Card Program                       1                  1
7)   Contracting                                   1                                                    1
8)   Procurement Data                              1                  1
9)   Interagency Acquisition and
     Potential Anti-Deficiency                     1                  1
     Act Violations
10) Certain Audits Do Not Meet
                                                              1                                         1
    Professional Standards
Total Material Weaknesses
                                                   9          1       4          0           2          4
for Overall Operations




SECTION 3                                                                  Other Accompanying Information
                                                            130
Department of Defense Agency Financial Report 2008
3. FMFIA Section 4 Financial System Nonconformance Weaknesses: The Department
considers financial system conformance with governmentwide requirements and reports one
weakness that covers the wide range of pervasive problems identified during the assessment.
Table 1c shows the resulting weakness.

                                Table 1c. Summary of Management Assurances
           Conformance with Financial Management System Requirements (FMFIA Section 4)
     Statement of Assurance                                                 No Assurance
     System Nonconformance              Ref     Beginning                                                                        Ending
         (information deemed                                  New           Resolved       Consolidated Reassessed
                                      Table 2    Balance                                                                         Balance
       necessary for clarification)

1)    Department of Defense
      Financial Management              9          1                                                                               1
      Systems and Processes
Total System Conformance
                                                   1                                                                               1
Material Weaknesses
Total FMFIA Weaknesses                             19             4            4                   0                 2             17

Improvement Results
                                                                  Figure 3-1. Reducing Internal Management

Since FY 2001, the Department has reduced the                                 Control Weaknesses            

number of outstanding management-identified
material weaknesses by 85 percent—from 116                        Weaknesses
material weaknesses to 17 (Figure 3-1). From                          120
FY 2003 to FY 2007, the total number                                         116
                                                                      100
decreased 59 percent, from 41 to 19. And in the
last year, the Department further reduced the                          80
self-identified weaknesses from 19 to 17 by                                                                                     85%
                                                                       60           71                                   Improvement
correcting four, reassessing two, and identifying
four new weaknesses.                                                   40                              47
                                                                                            41
                                                                                                              34     35
Financial Statement Audit                                              20
                                                                                                                            19      17
In addition to the management-identified                               0
                                                                             2001   2002    2003       2004   2005   2006   2007   2008
weaknesses described in the categories above,
the Department of Defense Inspector General
                                                                  Source: FY 2001-2007 DoD Performance and                          453-09
identified material weaknesses in financial                                Accountability Reports

statement reporting as shown in Table 2.




SECTION 3                                                                              Other Accompanying Information
                                                            131
Department of Defense Agency Financial Report 2008

                        Table 2. Summary of Financial Statement Audit
 Audit Opinion                                                Disclaimer

 Restatement                                                  Yes
                                            Beginning                                                         Ending
            Material Weakness                                    New            Resolved   Consolidated
                                             Balance                                                          Balance
 1 Accounts Payable                             1                                                               1
 2 Accounting Entries                           1                                                               1
 3 Environmental Liabilities                    1                                                               1
 4 Government Property in Possession of         1                                                               1
   Contractors
 5 Intragovernmental Elimination                1                                                               1
 6 Operating Materiels and Supplies             1                                                               1
 7 Reconciliation of Net Cost of                1                                                               1
   Operations to Budget
 8 Statement of Net Cost                        1                                                               1
 9 Financial Management Systems                 1                                                               1

10 Fund Balance with Treasury                   1                                                               1
11 General Property, Plant & Equipment          1                                                               1
12 Inventory                                    1                                                               1
13 Accounts Receivable                          1                                                               1
    Total Material Weaknesses                   13                  0              0            0               13

Compliance with Federal Financial Management Improvement Act
Table 3 shows the Department’s compliance with the Federal Financial Management
Improvement Act. The Department is committed to implementing the FIAR Plan and the ETP to
achieve significant progress toward financial management improvement.


     Table 3. Compliance with Federal Financial Management Improvement Act
                                                                        Agency                      Auditor

 Overall Substantial Compliance                                            No                         No

 1. System Requirements                                                    No                         No
 2. Accounting Standards                                                   No                         No
 3. U.S. Standard General Ledger at Transaction Level                      No                         No



Good News Results
The Department has improved its financial management by focusing its efforts on fixing material
weaknesses and strengthening internal controls. This approach has yielded positive results
providing a more complete depiction of the Department’s financial health and improved
operational processes. The Department remains committed to transformational efforts to
continue reducing material weaknesses.



SECTION 3                                                                       Other Accompanying Information
                                                        132
Department of Defense Agency Financial Report 2008

IMPROPER PAYMENTS INFORMATION                             Figure 3-2. FY 2008 Estimated 

ACT REPORTING                                                         Improper Payments                           

The Improper Payments Information Act (IPIA)                Program                    Estimated $ Estimated %
of 2002, as implemented by the OMB Circular
                                                            Military Health Benefits    $ 178.0M     2.00 %
No. A-123, Appendix C, “Requirements for
Effective Measurement and Remediation of                    Military Pay                $ 434.6M     0.60 %
Improper Payments,” requires federal agencies               Civilian Pay                $ 73.9M      0.28 %
to review all programs and activities annually,
and identify those that may be susceptible to               Military Retirement         $ 44.0M      0.12 %
significant     erroneous      payments.      The           Travel Pay                  $103.0M      2.00 %
Department           strengthened       financial                                                        453-10
management controls and improved processes
used to detect and prevent improper                       identified internally or by outside audit
payments. Eliminating improper payments                   activities. While the Department’s improper
ensures that taxpayer dollars are spent wisely            payment percentages are low, numerous pre-
and efficiently. The Department’s FY 2008                 and post-payment controls further minimize or
review did not identify any programs at risk of           eliminate improper payments. The following
significant erroneous payments in accordance              paragraphs summarize the processes in place
with OMB criteria (programs with erroneous                and the results of survey assessment reviews.
payments exceeding both $10 million and
2.5 percent of program payments). All DoD                 Statistical Sampling Process
improper payment estimates for FY 2008 are                The Department of Defense uses random
at or below 2 percent for all programs.                   sampling methods designed to meet or
However, based on the large volume of                     exceed the OMB requirement of annual
transactions and/or high dollar amounts, DoD              estimates of improper payments with a
is required to report on all programs regardless          90 percent confidence interval (plus or minus
of threshold criteria. The five programs are:             2.5 percent).
•   Military Health Benefits
                                                          Corrective Action Plans
•   Military Pay
                                                          Military Health Benefits
•   Civilian Pay
                                                          The Department’s contracts have had
•   Military Retirement                                   payment performance standards for military
•   Travel Pay                                            health benefit claims processing in place for
                                                          many years. The estimate of 2 percent is
Improper payment estimates for these                      based on the contract performance standard,
programs are presented in Figure 3-2.
Commercial pay information is included in the
Recovery Audit Reporting section of this
report. Additional information regarding DoD’s
IPIA program and statistical sampling
methodology is available on the Comptroller
Web site. (See Appendix B.)
Risk Assessment
The Department’s risk assessments for each
of the programs identified above addressed
the effectiveness of internal controls for
preventing improper payments (such as
prepayment reviews), and system weaknesses

SECTION 3                                                                  Other Accompanying Information
                                                    133
Department of Defense Agency Financial Report 2008
however,      actual    results    have   been            address civilian pay problem areas and seek
consistently less than 2 percent. The FY 2007             methods to mitigate risks and reduce
results reflect an improper payment rate of               improper payments. Civilian pay metrics,
0.93 percent. Overpayments found in the                   corresponding accuracy and timeliness goals,
annual audit process are projected to the                 and corrective action plans have been
audit universe, and the managed care support              developed at the component level.
contractor is liable for the total amount. This
contractual design, combined with numerous                Military Retirement
prepayment and post-payment controls,                     Payments to deceased retirees continue to be
effectively minimizes improper payments and               the highest risk for improper payments in
ensures the Government’s risk for improper                military retired pay. Based on FY 2008
payments in military health benefits is                   reviews,       the     Department       projected
minimized.                                                approximately       $44 million    in    improper
                                                          payments for this program, with almost the
Military Pay
                                                          entire amount paid to deceased retirees. This
Reviews of military pay accounts for FY 2008              represents       an    overpayment      rate    of
resulted in projected improper payments of an             0.12 percent of the estimated $36 billion in
estimated     $435 million   (0.6 percent    of           annual military retirement payments. In
approximately $72 billion in total military net           certain situations, payment to deceased
pay). Most of these improper payments were                retirees is unavoidable due to payment cycle
due to inaccurate or untimely reporting of                dates and the fact that notifying a payroll
entitlement data to the automated pay system.             activity is not likely to be the first action for
                                                          next-of-kin at the time of a retiree’s passing. A
The Department has worked closely with the
                                                          review of confirmed payments to deceased
Active Duty Components to develop metrics
                                                          retirees in FY 2008 indicated that the
and track timeliness and accuracy of pay
                                                          Department recovered 96 percent of the
entitlements. Senior leaders participate in
                                                          overpayment amounts within 60 days,
quarterly Personnel and Pay Council
                                                          demonstrating the effectiveness of controls
meetings to discuss problem areas and seek
                                                          within the retired pay system once a retiree’s
solutions to mitigate discrepancies causing
                                                          death confirmation is received and processed
improper payments. This partnership with the
                                                          for final disposition.
Active Duty Components has improved pay
entitlement timeliness and accuracy. The
Department continues to develop Reserve
and Guard performance metrics and goals to
improve accuracy and timeliness, which
should further reduce improper payments.
Civilian Pay
Reviews of civilian payments resulted in an
improper payment estimate of $73.9 million
(0.28% of approximately $26.4 billion). Efforts
to identify and reduce actions contributing to
net pay errors continue. Improper payments
that resulted in collection actions are primarily
attributed to untimely and inaccurate reporting
of time and attendance (60 percent of total
collections), and personnel actions and pay               Secretary of Defense Robert M. Gates, left, presented
                                                          then Chairman of the Joint Chiefs of Staff Marine Gen.
allowances (40 percent of total collections).             Peter Pace with his certificate of retirement during an
                                                          armed forces hail and farewell ceremony at Ft. Myer, Va.
The Personnel and Pay Council continues to                Pace retired after 40 years of active-duty military service.
                                                                                      DoD photo by Cherie A. Thurlby – October 2007
serve as a forum for senior leadership to

SECTION 3                                                                  Other Accompanying Information
                                                    134
Department of Defense Agency Financial Report 2008
The Department’s control processes to                                       (TDY) and military PCS vouchers that were
prevent, identify, and reduce overpayments to                               not included in last year’s AFR. The
deceased retirees include a series of periodic                              Department implemented a sampling and
eligibility notifications, early detection data                             review process for Army IATS in FY 2008 that
mining efforts, and partnerships with other                                 meets the improper payment reporting
Federal and state entities. The Department                                  requirements. Reports to management
routinely compares retired and annuity payroll                              address accuracy rate trends, over- and
master file databases to Social Security                                    underpayment dollar amounts, reasons for
Administration       deceased    records     and                            errors, and recommendations for corrective
periodically compares records with the Office                               actions to alleviate similar errors in the future.
of Personnel Management’s deceased files.
                                                                            The DTS is targeted to be the single, online
File comparisons are also conducted with the
                                                                            travel system used by the Department. Until
Department of Veterans Affairs’ cemetery
                                                                            DTS is fully implemented, Components will
database and with individual states with
                                                                            continue to use other travel systems, such as
sizable retiree and annuitant populations
                                                                            IATS and Reserve Travel System, to settle
(e.g., Texas, California, and Florida). Retirees
                                                                            travel vouchers. Summary results for the
identified as deceased in these comparisons
                                                                            Department during FY 2008 revealed an
must validate their continued eligibility, or the
                                                                            estimated $103 million (2 percent) in improper
accounts are suspended.
                                                                            payments out of a total of $5.2 billion in travel
Travel Pay                                                                  voucher reimbursements.
The Department performs monthly random                                      Improper Payment Program Reporting
post-pay reviews of travel vouchers
processed through the Defense Travel                                        Figure 3-3 summarizes the Department’s
System (DTS) and the Windows Integrated                                     improper payment reduction outlook and total
Automated Travel System (WinIATS), as well                                  program outlays (payments) from FY 2007
as permanent change of station (PCS)                                        through FY 2011. Detailed information
vouchers, and regularly reports the results to                              regarding DoD’s IPIA program and notes
management.      Estimates       of     travel                              relating to Figure 3-3 are available on the
overpayments are projected based on                                         Comptroller Web site. (See Appendix B.)
random reviews of WinIATS temporary duty

Figure 3-3. Improper Payment (IP) Reduction Outlook
                     FY 2007                    FY 2008               FY 2009 Estimated     FY 2010 Estimated      FY 2011 Estimated
               Outlays    IP      IP Outlays          IP     IP  Outlays IP           IP Outlays IP         IP Outlays IP          IP
 Program
                ($ B)    (%)    ($ M) ($ B)          (%)   ($ M)  ($ B) (%)         ($ M) ($ B) (%)       ($ M) ($ B) (%)        ($ M)
Mil
Military
He
Heal
   alth
     th          $ 9.5    0.93
                          0.93 $88.6
                               $88.6        $ 8.9 2.00 $17
                                                       $178.
                                                          8.00         $10.8 2.00   $ 216   $ 10.5 2.00   $ 211    $ 10.8 2.00   $ 216
Ben
Benefits
      fits
Mil
Military
Pay
Pay
                 $72.9    0.57
                          0.57 $ 416.4
                                 416.4     $ 72.1 0.60 $43
                                                       $434.
                                                          4.66         $68.4 0.53 $ 362.5   $ 69.7 0.52 $362.4       $ 71 0.51 $ 362.1

Civilia
   ilian
       n
Pay
Pay
                 $29.6    0.25
                          0.25 $ 7744.6    $ 26.4 0.28     $ 7733.9    $31.3 0.24    $ 73   $ 32.3 0.23   $ 72.3   $ 32.3 0.22 $ 72.2

Mil
Military
Re
Reti
   tiremen
     rementt
                 $37.1    0.13
                          0.13 $48.7
                               $48.7       $ 35.6 0.12     $ 4444.0    $41.3 0.12 $ 51.4    $ 42.9 0.12   $ 54.2   $ 44.5 0.12 $ 52.3

Travel Pa
       Payy      $ 5.8    1.00
                          1.00 $43.6
                               $43.6        $ 5.2 2.00 $10
                                                       $103.
                                                          3.00         $ 8.6 0.95 $ 82.4     $ 8.5 0.90   $ 76.5    $ 8.3 0.88 $ 72.3
IP – Improp
        roper Pay
              Payments, B – Billion
                             illions, M – Million
                                           illions                                                                               453-11




SECTION 3                                                                                    Other Accompanying Information
                                                                      135
Department of Defense Agency Financial Report 2008

Recovery Auditing Reporting                              Cumulative amounts reflect totals from
                                                         FY 2006 and 2007 since detailed information
The Department uses a number of different                on collections by type, excluding voluntary
mechanisms to prevent, identify, and collect             repayments, is not readily available prior to
improper payments, including recovery and                FY 2006. In addition to the success of DFAS,
contract auditing for all commercial payments.           the Department is continuing to separate
Recovery Auditing                                        voluntary from involuntary refunds until all
                                                         DoD Components achieve this capability.
The Department maintains an extensive post-              Components        reported     an    additional
payment review process for identifying                   $26.7 billion in commercial payments that
improper payments in the commercial pay                  were processed independently from DFAS in
arena. This process uses post-payment                    FY 2008. Recovery audit statistics for this
reviews performed both internally and by                 amount includes voluntary refunds and,
recovery auditing contractors paid from the              therefore, was excluded from the Recovery
recovered      proceeds.      Departmentwide             Audit Activity table. Additional recovery audit
commercial payments constitute a large                   activity that includes voluntary refunds is
volume of transactions with high dollar values,          available on the Comptroller Web site. (See
and DoD is vigilant about ensuring payment               Appendix B.)
accuracy. In addition to the post-payment
reviews, DoD also prevents over- and under-              Contract Auditing
payments through various manual and                      The Defense Contract Audit Agency (DCAA)
automated prepayment initiatives.                        routinely performs billing system audits at
Commercial pay overpayments identified for               major contractors to determine the adequacy
recovery result from internal recovery audit             of the contractor’s billing system, internal
efforts and contract reconciliation. Selected            controls, and compliance with those controls.
high dollar value payments are reviewed                  Such audits assure the Department that the
manually, and periodic independent reviews               contract payment billings are based on costs
of commercial payments improve improper                  incurred and on approved provisional billing
payment detection, correction, and prevention            rates. The DCAA also performs paid voucher
efforts.                                                 reviews at major contractors, and special
The Department’s Mechanization of Contract
                                                         Figure 3-4. Recovery Audit Activity
Administration Services (MOCAS) system
processed 57 percent of the $331 billion in                                                           Departmental
DFAS commercial pay disbursements made                     Recovery Audit Activity
                                                                                                        Recovery
                                                           (Amounts in millions)
in FY 2008. Reviews of this system accounted                                                           Audit Totals
for 67 percent ($203.9 million) of the total               Amou
                                                           Amount nt Subje
                                                                     Subjecct tto
                                                                                o Review for FY
$303.7 million in improper commercial                                                                  $331,19
                                                                                                       $331,192
                                                                                                              2
                                                           2008
                                                           2008 Repor
                                                                   eportin
                                                                        ting
                                                                           g
payments identified by DFAS in FY 2008.                    Act
                                                           Actuual Am
                                                                   Amoun
                                                                      ountt Re
                                                                            Revieweewed an
                                                                                        andd
                                                                                                        $331,19
                                                                                                        $331,192
                                                                                                               2
Over two-thirds of this total represented                  Reported
                                                                 rted (FY 200
                                                                           2008) 8)
underpayments (Figure 3-4).                                Overpayment
                                                                payment Am Amounts
                                                                                ounts Iden
                                                                                      Identifi
                                                                                           tified
                                                                                                         $53
                                                                                                         $53..3
                                                           for Recovery (FY 2008)
Recovery Audit Activity Table                              Amounts
                                                           Amounts Re Recov
                                                                         coveered (FY 200
                                                                                        2008 8)          $41
                                                                                                         $41..7
The $331.2 billion represents the total dollar             Overpayment
                                                                payment Am  Amounts
                                                                               ounts Iden
                                                                                      Identifi
                                                                                             tified
                                                                                                         $66
                                                                                                         $66..0
                                                           for Reco
                                                               Recovery (Prior Y  Ye
                                                                                   ears)
                                                                                     ars)
value of disbursements (payments) in
                                                           Amounts
                                                           Amounts Re   Recov
                                                                          cove
                                                                             ered
MOCAS and vendor pay systems. In                           (Pri
                                                           (Prior
                                                               or Years)
                                                                  Years)
                                                                                                         $60
                                                                                                         $60..0
accordance with IG recommendations, the
                                                           Cumula
                                                           Cumul   ativ
                                                                     tive
                                                                        e Amounts
                                                                             ounts Ide
                                                                                   Idenntif
                                                                                        tifiied
recoveries identified do not include unsolicited                                                         $11
                                                                                                         $119
                                                                                                            9.3
                                                           for Recovery (FY 2008 a    and
                                                                                       nd PrPriior)
refunds of overpayments from vendors. The                  Cu
                                                           Cummulalattive Amounts Recove
                                                                                   Recoverred
DFAS successfully separated voluntary and                                                                $10
                                                                                                         $101
                                                                                                            1.7
                                                           (FY 2008 a   and
                                                                         nd Prio
                                                                            Prior)
involuntary refunds for FY 2008 reporting.                                                                        453-12



SECTION 3                                                                  Other Accompanying Information
                                                   136
Department of Defense Agency Financial Report 2008
                                                                                           Infrastructure
                                                                                           The Department has the information and
                                                                                           infrastructure needed to reduce improper
                                                                                           payments in each of the Improper Payment
                                                                                           Program areas. The Department began
                                                                                           implementing a Business Activity Monitoring
                                                                                           (BAM) toolset in FY 2008, which will employ
                                                                                           the latest technology to increase the
                                                                                           efficiency and effectiveness of commercial
                                                                                           pay improper payment detection and
                                                                                           prevention procedures. The BAM toolset is
                                                                                           expected to reach full functionality for
                                                                                           improper payments in FY 2009.
                                                                                           Barriers
 U.S. Sailors set the aircraft training barricade on the
 flight of the Nimitz-class aircraft carrier USS Ronald                                    Military retirement is the only program area
 Reagan (CVN 76) while under way in the Gulf of Oman,                                      facing statutory or regulatory barriers limiting
 during flight deck drills.
          U.S. Navy photo by Specialist 3rd Class Chelsea Kennedy – September 2008
                                                                                           corrective actions. Barriers include the Retired
                                                                                           and Annuitant Pay service contract and the
purpose audits at contractor locations, when                                               Federal Acquisition Regulation.
an improper payment risk factor is identified                                              In January 2002, DFAS awarded Retired and
and neither a billing system review nor a test                                             Annuitant Pay service operations to a
of paid vouchers is planned.                                                               contractor. Although most functions remained
                                                                                           unchanged from when the Government
Accountability
                                                                                           performed these functions, there are now
Certifying officer legislation holds certifying                                            contractual limits to the Government’s
and disbursing officers accountable for                                                    involvement in the day-to-day operations of
government funds. In accordance with section                                               Retired and Annuitant Pay. The Continuing
2773a of title 10, United States Code,                                                     Government Activity Office was formed to
pecuniary liability attaches automatically                                                 oversee this contract. However, the
when there is a fiscal irregularity, i.e., 1) a                                            Government can no longer direct how the
physical loss of cash, vouchers, negotiable                                                work is accomplished. To bring about an
instruments, or supporting documents, or                                                   operational change, both the Government and
2) an improper payment. Efforts to recover                                                 the contractor must agree on how to effect
payments from a recipient must be                                                          and fund the change and modify the contract
undertaken in accordance with debt collection                                              accordingly.
procedures in the DoD Financial Management
Regulation.




SECTION 3                                                                                                Other Accompanying Information
                                                                                     137
Department of Defense Agency Financial Report 2008

Appendixes
GLOSSARY OF TERMS
     Acronym                    Definition                         Acronym                Definition
AFB            Air Force Base                                                Improvement Act
AFR            Agency Financial Report or Annual              FIAR           Financial Improvement and Audit
               Financial Report                                              Readiness
ANA            Afghan National Army                           FIPS           Federal Information Processing Standard
ANCOP          Afghan National Civil Order Police             FISMA          Federal Information Security
                                                                             Management Act
ANP            Afghan National Policy
                                                              FMFIA          Federal Managers’ Financial Integrity Act
ANSF           The Afghan National Security Forces
                                                              FMS            U.S. Foreign Military Sales
A&T            Acquisition and Technology
                                                              FY             Fiscal Year
AT&L           Acquisition, Technology, and Logistics
                                                              GAAP           Generally accepted accounting principles
BAM            Business Activity Monitoring
                                                              GAO            General Accounting Office
BCT            Brigades Combat Team
                                                              GFM            Global Force Management
BEA            Business Enterprise Architecture
                                                              GPRA           Government Performance and Results
BPA            Blanket Purchase Agreement                                    Act
BTA            Business Transformation Agency                 HSPD           Homeland Security Presidential Directive
CAC            Common Access Card                             IA             Iraqi Army
CBRNE          Chemical, Biological, Radiological,            IA             Individual Augmentee
               Nuclear, and High-Yield Explosive
                                                              IATS           Integrated Automated Travel System
CBJ            Congressional Budget Justification
                                                              IG             Inspector General
CERFP          Enhanced Response Force Package
                                                              IGT            Intragovernmental Transactions
CF             Coalition Forces
                                                              IOC            Initial operational capability
CFO            Chief Financial Officer
                                                              IPA            Independent Public Accountant
CM             Capability Milestone
                                                              IPA            International Police Advisor
COCO           Contractor Owned and Contractor
               Operated                                       IPIA           Improper Payment Information Act
COGO           Contractor Owned and Government                ISAF           International Security Assistance Force
               (DoD) Operated                                 ISF            Iraqi Security Forces
CONUS          Continental United States                      ISR            Intelligence, surveillance, and
COR            Contracting Officer’s Representative                          reconnaissance
CRM            Contract Resource Management                   IT             Information Technology
CSB            Configuration Steering Board                   IVAN           Intragovernmental Value-Added Network
CSTC-A         Combined Security Transition Command-          JCS            Joint Chiefs of Staff
               Afghanistan                                    JFCOM          Joint Forces Command
CUI            Controlled unclassified information            JLLIS          Joint Lessons and Learned Information
DBE            Department of Border Enforcement                              Systems
DCAA           Defense Contract Audit Agency                  JKDDC          Joint Knowledgeable Development
                                                                             Distribution Capability
DFAS           Defense Finance and Accounting Service
                                                              JNTC           Joint National Training Center
DISA           Defense Information Systems Agency
                                                              JSCA           Joint Supply Chain Architecture
DoD            Department of Defense
                                                              JTF            Joint Task Force
DOE            Department of Energy
                                                              JWFC           Joint Warfare Fighting Center
DPAP           Defense Procurement Acquisition Policy
                                                              MCTC           Army Maneuver Combat Training
DTS            Defense Travel System                                         Centers
DUSD           Deputy Under Secretary of Defense              MFF            Multi-Functional and Functional Support
ETP            Enterprise Transition Plan                     MHS            Military Health System
FDD            Focused District Development                   MNSTC-1        Multinational Security Transition
FFMIA          Federal Financial Management                                  Command in Iraq


APPENDIX A                                                                                                     Glossary
                                                        138
Department of Defense Agency Financial Report 2008
      Acronym                    Definition                        Acronym                   Definition
MOCAS           Mechanization of Contract Administration         RTS          Reserve Travel System
                Services
                                                                 SCOR         Supply Chain Operations Reference
MoD             Ministry of Defense
                                                                 SecDef       Secretary of Defense
MoI             Ministry of Interior
                                                                 Senior NOC   DoD Senior National Security
NATO            North Atlantic Treaty Organization                            Presidential Directive-28 Oversight
                                                                              Committee
NCCS CoP        Interagency Nuclear Command and
                Control System Committee of Principals           SRG          Senior Review Group
NCO             Non-Commissioned Officer                         SOC          Senior Oversight Council
NCR             Nuclear Command and Control System               TBI          Traumatic Brain Injury
                Comprehensive Review
                                                                 TDY          Temporary Duty
NDAA            John Warner National Defense
                                                                 TMA          TRICARE Management Activity
                Authorization Act
                                                                 TSA          Technology Security Action
NLT             Not less than
                                                                 USACE        U.S. Army Corps of Engineers
NP              Nonproliferation
                                                                 USAFRICOM    U.S. African Command
NSS             National Security System
                                                                 USCENTCOM    U.S. Central Command
NTE             Not to exceed
                                                                 US CERT      U.S. Computer Emergency Readiness
NTM-I           NATO Training Mission – Iraq
                                                                              Team
NWC             Nuclear Weapons Council
                                                                 USD(AT&L)    Under Secretary of Defense for
OIF             Operation Iraqi Freedom                                       Acquisition, Technology, and Logistics
OMB             Office of Management and Budget                  USD(C)       Under Secretary of Defense
                                                                              (Comptroller)
PCS             Permanent Change of Station
                                                                 USEUCOM      U.S. European Command
PEO Soldier     Program Execution Office Soldier
                                                                 USNORTHCOM   U.S. Northern Command
PII             Performance Improvement Initiative
                (formerly the PMA Budget and                     USPACOM      U.S. Pacific Command
                Performance Integration Initiative)
                                                                 USSOUTHCOM   U.S. Southern Command
PII             Personally Identifiable Information
                                                                 USUHS        Uniformed Services University of the
PIV             Personal Identity Verification                                Health Sciences
PMA             President’s Management Agenda                    WinIATS      Windows Integrated Automated Travel
                                                                              System
PMT             Police Mentor Team
                                                                 WMD          Weapon of Mass Destruction
POC             Point of Contact
                                                                 WMD-CST      Weapons of Mass Destruction—Civil
QDR             Quadrennial Defense Review
                                                                              Support Team
PTSD            Post Traumatic Stress Disorder




APPENDIX A                                                                                                   Glossary
                                                           139
Department of Defense Agency Financial Report 2008

USEFUL WEB SITES FOR RELEVANT INFORMATION 

                          Web Address and Report Description
 www.defenselink.mil
     • Main DoD Web site, and links to other DoD Web sites.
 www.defenselink.mil/comptroller
     The DoD Comptroller Web site includes:
     • Agency Financial Report
           Provides the President, Congress, Federal departments and the American public
           with an overview of the Department’s financial condition. This report is the annual
           centerpiece for reporting the Department's financial execution, plans, and
           accomplishments.
       •   Annual Performance Plan
           Describes the Department’s strategic goals and objectives, and the respective
           performance measures and targets that are used to assess progress.
       •   Annual Performance Report
           Contains details of the Department’s performance results and progress in
           achieving its strategic goals, and is required by the Government Performance and
           Results Act (GPRA).
       •   Citizen’s Report
           Summarizes the Department’s mission, key goals, budget allocation, and progress
           on key performance goals linking to the strategic goals.
       •   Congressional Budget Justification
           The Department of Defense’s budget request to Congress.
       •   Financial Improvement and Audit Readiness Plan
           Describes the Department's strategy for improving financial management and
           reports progress in achieving financial statement audit readiness.
 www.defenselink.mil/dbt
     The DoD’s Business Transformation Agency Web site includes:
     • Business Enterprise Architecture
           Blueprints DoD standard processes, data, data standards, business rules,
           operating requirements, and information exchanges for the Department’s business
           and financial management activities.
       •   Enterprise Transition Plan
           Sets the defense business systems modernization strategy and defines the target
           systems environment.
 www.defenselink.mil/qdr/report/Report20060203.pdf
     • Quadrennial Defense Review
         Dated February 6, 2006, this is the Department’s strategic plan.



APPENDIX B                                             Useful Web Sites for Relevant Information
                                                140
Contributors to the
Fiscal Year 2008 Agency Financial Report

In addition to the significant contributions of the
individuals listed below, hundreds of individuals in
the Office of the Secretary of Defense and the
Military Services contributed to the development of
this Agency Financial Report




Anitra Akanbi          Katherine Day           Leslie Hammond       Mindy Montgomery       Andre Sekowski
CPT Jay Aldridge       Jonnathan Diaz-Olivo    Colleen Hartman      CDR James Morgan       Kathy Sherrill
Becky Allen            Thomas Dixon            Christine Hickman    Lydia Moschkin         Melissa Sikora
Crystal Allen          Cynthia Dooley          Jerry Hinton         Robert Moss            Joel Sitrin
Alaleh Amiri           Joseph Doyle            Elizabeth Hoffman    Karen Nakama           Alfonza Smith
Christina Anctil       LTC Kevin Dunlop        Amanda Illg          Cara Negrette          Dave Smith
Sandra Anderson        Mark Easton             Jacqueline Jenkins   Elise Newton           Jason Smith
Iman Aquil             Nicole Elliott          Thomas Jester        Karen Opie-Toler       Jennifer Smith
John Argodale          Eric Engelbrektsson     Lori Johns           Col Michael Peel       Robert F. Smith
Imtiaz Badar           Maryla Engelking        Peggy Johnson        Stewart Petchenick     Wanda Smith
Charlotte Beacham      Dorothy Ferguson        Edmund Kertulis      Marianne Petty         Timothy Soltis
Therese Beatty         David Fisher            Tammy Kicas          Michael Ponti          Theresa Sorenson
Sally Beecroft         Jodie Fisher            Edna Knight          Victoria Post          Bruce Stahmer
Douglas Brook          Virginia Fortune        Mary Kohlmeier       Joseph Quinn           Sandra Stockel
Preston Brown          Wendalyn Frederick      Jack Koller          David Ramseyer         Kathy Street
Thadd Buzan            Mekeisha French         Ryan Layton          Alice Rice             David Thomas
Melissa Carandang      Kyle Fugate             Bob Leach            Samuel Richardson      Ron Tollefson
Chun-I Chiang          Kevin Gade              William Lehr         Elizabeth Ridge        Michael Walsh
Audrey Clark           Greg Galusha            Linda Leuck          Joie Ritchie           Michael Weber
Arlillian Coleman      Scott Gentry            Elwood Lewis         Terry Roberts          Linda Yansky
Pamela Conklin         Ellen Gibson            Terri Lukach         CAPT David Robertson   Jammie Young
Jocelyn Conway         Linda Gileau            Ava Lun              Heidi Robinson         Karen Zent
Carmen Covey           Kathryn Gillis          Jerome Macken        Dan Roell              Document Automation
Donna Cox              Wayne Goff              Joy Marcou           Helen Rosen            & Production Service
Barbara Crawford       David Gross             David Martin         John Ruoff             (DAPS)
Gerald Davenport       Kathy Hammer            Robert McNamara      Meagan Russell
Audrey Davis           Denizejoice Hammond     Jason Monday         Kevin Scheid
                WELCOME TO THE
             DEPARTMENT OF DEFENSE
              We are interested in your feedback
             regarding the content of this report.

           Please feel free to email your comments,
            or requests for copies of this report to

                DoDAFR@osd.mil or write to:


                         United States

                    Department of Defense

           Office of the Under Secretary of Defense

                         (Comptroller)

                    1100 Defense Pentagon

                 Washington, DC 20301-1100


            You may also view this document at:

            www.defenselink.mil/comptroller/afr





10000453
